<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2019

                              ----------                              


                       WEDNESDAY, APRIL 25, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 2:32 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Jerry Moran (Chairman) presiding.
    Present: Senators Moran, Shelby, Alexander, Murkowski, 
Collins, Graham, Boozman, Capito, Lankford, Kennedy, Shaheen, 
Leahy, Feinstein, Coons, Schatz, Manchin, and Van Hollen.

                       U.S. DEPARTMENT OF JUSTICE

STATEMENT OF HON. JEFF SESSIONS, ATTORNEY GENERAL


                opening statement of senator jerry moran


    Senator Moran. Good afternoon. I call the hearing to order.
    Mr. Attorney General, welcome to the committee, the 
Committee on Commerce, Justice, Science Appropriations 
Subcommittee. We're here to examine the Department of Justice's 
fiscal year 2019 budget request.
    I am pleased to welcome you to this subcommittee. My 
colleagues and I are very much interested in hearing from you 
in your--hearing your testimony, considering your testimony 
today. Your input is not only helpful, but necessary, as we 
review the President's spending priorities for the Justice 
Department.
    While this hearing is about the Department's fiscal year 
2019 budget request, I would suspect that you will hear about a 
number of other issues unrelated to the Department's resource 
and funding needs. My focus in this hearing is to better 
understand your top funding priorities and to emphasize those 
that are important to our Nation.
    The Department of Justice is responsible for, and involved 
in, many important national priorities. Arguably, the greatest 
responsibility includes keeping Americans safe, which carries a 
new meaning, given the growing national security threats of 
today, and upholding the rule of law. This requires that 
Congress adequately fund our Nation's law enforcement efforts, 
including counterterrorism and cybersecurity initiatives.


         investigation of conspiracy to bomb somali immigrants


    In Kansas, the Department recently successfully 
investigated and convicted individuals who conspired to bomb 
residents of Somali immigrants to our State. The work done by 
the FBI, by the Liberal Kansas Police Department, the Seward 
County Sheriff's Office, the Ford County Sheriff's Office, the 
Garden City Police Department, the Dodge City Police 
Department, and the Finney County Sheriff's Office, along with 
the Kansas Highway Patrol and the Kansas Bureau of 
Investigation, and the United States Attorneys Office showed, 
in my mind, be a model for Federal and local partnerships. I 
trust the Department will seek to replicate the successes of 
these entities with the funds in this request.


                 fix nics and stop school violence act


    The President's fiscal year 2019 budget proposal of 28.4 
billion for the Department of Justice. I note that--however, I 
note that the many agencies and departments this budget request 
was created and produced before the recently enacted fiscal 
year 2018 bill, which was finalized and has recently become 
law. For example, both the Fix NICS Act and the Stop School 
Violence Act authorized important safety initiatives, but were 
signed into law in the 2018 omnibus after your fiscal year 2019 
budget submission. As a cosponsor of both pieces of 
legislation, I look forward to hearing the Department's plan to 
implement these two important policies.
    Furthermore, this administration has made it a priority to 
combat violent crime, which is reflected as one of the 
Department's highest priorities. Specifically, the 
administration seeks 109.2 million to enhance ongoing efforts 
to reduce violent crime and to combat transnational criminal 
organizations in the fiscal year 2019 budget request. For 
example, the Department requested increased funding to expand 
the Project Safe Neighborhood Initiative. Project Safe 
Neighborhood's main focus is the extradition of illegal 
firearms--I'm sorry, the eradication of illegal firearms and 
violent gang activity. The program is designed to improve 
police and community relations, which is strongly supported by 
many from law enforcement officials in my State of Kansas. The 
subcommittee looks forward to hearing more details about this 
program.


           national integrated ballistics information network


    I also look forward to hearing about the impact of emerging 
technologies, such as those being utilized by the National 
Integrated Ballistics Information Network, known as NIBIN. 
NIBIN allows law enforcement officials to share ballistic 
intelligence across the United States, making law enforcement 
resources more efficient and effective.


            executive office for immigration review funding


    The Department and administration have also prioritized 
solving the problem of illegal immigration. The fiscal year 
2019 request seeks 65.9 million in immigration-related 
programs, program enhancements to support border security and 
enforcement efforts. For example, the 2019 request outlines 
that this funding would hire 150 attorneys for the Executive 
Office for Immigration Review, which oversees the Nation's 
immigration courts and the Board of Immigration appeals, and 
provide 25 million for technology improvements to transform 
current paper operating system to an electronic filing system.


                                opioids


    The Department is also involved in helping to combat 
ongoing opioid epidemic. According to the Center for Disease 
Control and Prevention, opioid overdoses in the U.S. have 
surpassed motor vehicle accidents as the number-one cause of 
accidental death in the country. The crisis needs to be 
aggressively addressed, and I look forward to working with the 
Department to ensure adequate resources to--are provided to do 
just that.


                legal orientation program and help desk


    Last, Mr. Attorney General, I want to thank you for your 
attention and acknowledgment of a letter that Senator Shaheen 
and I sent to you exactly 1 week ago regarding the Executive 
Office of Immigration Review, Legal Orientation, and 
Immigration Help Desk Programs. We also spoke on the phone 
earlier this week, and I would appreciate it if you address 
this matter in more detail in this hearing. I know that you 
would agree that ensuring congressional direction is--ensuring 
that congressional direction is followed is extremely 
important.
    Again, I thank you for your service as our Attorney General 
and the important testimony that we will hear from you today as 
our subcommittee begins its work on the fiscal year 2019 budget 
for the Department of Justice.
    I now recognize the Senator from New Hampshire, Senator 
Shaheen, the Ranking Member.


                  statement of senator jeanne shaheen


    Senator Shaheen. Thank you very much, Mr. Chairman. This is 
our first hearing together, and I look forward to working with 
you on this subcommittee.
    I'm very pleased that Attorney General Sessions is here 
with us this afternoon. Thank you for being here, and thank you 
for taking time to speak with me last week on the phone.
    I want to begin by thanking the 115,000 career employees of 
the Department of Justice. They are working hard every day to 
keep Americans safe from crime and terrorism. The breadth of 
issues that the Department handles on a daily basis is vast.


                      concerns about proposed cuts


    I do have a concern that, as I look at the budget proposal 
for fiscal year 2019, the Department has requested addressing 
these numerous missions with less funding, a reduction of $1.9 
billion, which is 6.2 percent less than the level provided in 
the omnibus we passed last month. Now, while I was very pleased 
to see the funding levels preserved for lifesaving grant 
programs under the Office of Violence Against Women, I'm 
concerned about some of the drastic reductions and eliminations 
that have been proposed for other programs.


                                opioids


    As you know very well, the Justice Department is on the 
front lines fighting the deadly, uncontrolled opioid epidemic. 
As Senator Moran said and as every Member of this subcommittee 
knows, this is an epidemic that we have seen across this 
country. It's also an epidemic that is still gaining strength.
    I just met with a group of family members and the Addiction 
Policy Forum who spoke about the challenges that they face. 
They reminded me that we lost, as Senator Moran said, about 
63,000 Americans last year to the opioid epidemic. And, for 
every one of those people lost, there is a family who is 
suffering and is experiencing that loss.


                          dea and 360 strategy


    So, I certainly support enforcement and prosecution 
efforts, but I believe they should be paired with prevention 
and treatment responses as well. This balanced approach is 
something that I've heard support for from police chiefs, from 
judges, and from other criminal justice professionals in New 
Hampshire. The critical need to help children and families 
grappling with the opioid crisis in their neighborhoods and 
within their own families is very real. Even the DEA has 
focused on a comprehensive approach to opioids with their 
three-fold 360 Strategy that targets enforcement, diversion 
control, and community outreach. Manchester, New Hampshire, 
which is our largest city--and I know, as Attorney General, 
you've already been there, and we appreciate that--was one of 
the first locations chosen for the 360 Program. The DEA has 
seen real success there, not only in tackling heroin and opioid 
trafficking, but by partnering with social service and other 
community groups, such as the Boys and Girls Club of 
Manchester, to provide prevention and education programs for 
young people that are so critical.


                                fentanyl


    New Hampshire has also been grappling with the dramatic 
rise of fentanyl, the synthetic opioid that's approximately 50 
times more potent than heroin and 100 times more powerful than 
morphine. Unfortunately, New Hampshire leads this Nation in 
overdose deaths from fentanyl. Sadly, it's now spreading across 
the country, and it's something that has overwhelmed State 
crime labs, which are already backlogged with testing crime 
scene evidence.


                    concerns about eliminating cops


    We provided a total of $447 million for Justice grant 
programs, $299 million more than we provided in the fiscal year 
2017 budget, to help communities respond to the opioid crisis 
with a balance of enforcement, treatment, and prevention 
programs. I'm interested to hear how the Department plans to 
expand these programs and what your fiscal year 2019 budget 
request will do. I'm concerned that, right now, it calls for 
eliminating key programs, like the COPS Anti-Heroin Task 
Forces, which we funded at $32 million. It calls for dramatic 
cuts in programs like the Coverdell Program, which we talked 
about, and I know is something that you care a lot about, 
because you authored that legislation.


                               byrne jag


    I'm also concerned about the continued hold on the fiscal 
year 2017 Byrne-JAG awards to our States. This program is the 
backbone for helping State and local law enforcement with crime 
prevention efforts across the country. I know that my police 
chiefs in New Hampshire are very frustrated, waiting to receive 
funding that they had expected months ago. According to Nick 
Willard, the police chief in Manchester, a city that responded 
to 800 overdose calls last year, he now has fewer police 
officers on the street conducting drug operations without their 
Byrne-JAG funding. I know you would agree that getting these 
grant awards to law enforcement for programs like this is 
critically important.
    When we spoke last week, you indicated that once a decision 
was reached in the pending Seventh Circuit Court of Appeals 
case, that the Justice Department would release Byrne-JAG 
funding from fiscal year 2017. That Court did issue its 
decision on April 19, so I'm interested to know when these 
awards will be released. I'm concerned when I see that the 
Justice Department has filed yet another motion on Monday 
evening that will further delay these awards.
    So, Mr. Attorney General, thank you again for being here. I 
look forward to your testimony and to our discussion today.
    Senator Moran. Senator Shaheen, thank you very much. In the 
newness of the moment of actually having the gavel in my hand, 
I failed to acknowledge my desire to work very closely with you 
and to make certain that this subcommittee does its work in a 
timely and a bipartisan way. I would tell you that the previous 
subcommittees that I've chaired, both of those bills have 
passed through the full committee with unanimous vote, and I 
look forward to seeing if we can't accomplish that in this 
arena, as well.
    I also would say that I have a high priority of making 
certain that all 12 appropriation bills that our full 
Appropriations Committee will address march their way across 
the Senate floor, approved by the House, and signed by the 
President. I want the appropriations process to work, and I 
pledge to you to do everything I can to accomplish that goal.
    In that regard, I'm honored to recognize the Chairman of 
the full committee, who has stated on so many occasions this 
committee is going to do its work. And I look forward to not 
only hearing Senator Shelby's remarks today, but, in 
particular, working with him to make sure that we accomplish 
our goals in this subcommittee.
    The Senator from Alabama, the Chairman of the committee, is 
recognized.


                 statement of senator richard c. shelby


    Senator Shelby. Thank you, Senator Moran.
    I will be brief. I just want to welcome my former 
colleague, Jeff Sessions, the Attorney General of the United 
States, to this appropriation hearing. We will be working with 
the Justice Department to help fund the requisite programs. Of 
course, that includes the FBI, because it has to be done. And I 
hope, under Chairman Moran and Ranking Member Shaheen, that we 
can move this bill to the floor as fast as possible, and not go 
from crisis to crisis, you know, in--with some certainty.
    With that, I'm going to have a number of questions, but I'd 
like to do them for the record. And I would ask my--unanimous 
consent that my opening statement be made part of the record, 
Mr. Chairman.
    Senator Moran. Without objection, so ordered.
    [The information follows:]
            Prepared Statement of Senator Richard C. Shelby
    Chairman Moran and Ranking Member Shaheen, I would like to thank 
you for calling this hearing to examine the President's fiscal year 
2019 funding request for the Department of Justice.
    I am also pleased to welcome my friend, Attorney General Sessions, 
to this subcommittee hearing. Your input is certainly helpful and 
necessary as we review the President's spending priorities for the new 
fiscal year.
    In today's world, the Department of Justice serves a vital role in 
ensuring our country's national security and upholding the rule of law. 
As such, I am looking forward to working with Attorney General Sessions 
and all of my colleagues on the subcommittee in drafting a bill that 
funds the Department in an appropriate and sufficient manner.

    Senator Moran. I now have the honor of recognizing the 
Ranking Member of the full committee, the Senator from Vermont, 
Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Mr. Chairman.
    And I'm glad to hear what you said about regular order. 
Senator Shelby and I have been working closely on that. We had 
a long meeting, the two of us, with the Republican and 
Democratic leaders last night, and plot out ways to get most of 
the bills done within the fiscal year.
    Attorney General Sessions, welcome. Finally, we have you in 
the Appropriations Committee. I'm sorry it's only your first 
appearance here in 16 months. Because we have to make 
appropriations, and we have to ask, after we make 
appropriations, how the funds are expended. And, in my years on 
this committee--and I think this can be said by Members of both 
sides of the aisle--we consider the oversight operations of 
this committee very important. And for the operations of your 
Department, there is an urgent need for oversight.

                   INTEGRITY AND INDEPENDENCE OF DOJ

    I want to begin with one thing. While you and I may 
disagree on many policies, I've known you long enough to know 
if there's one area where you and I are in total agreement--
total agreement--and that is that we care deeply about the 
integrity of the Justice Department. You and I have felt that 
way whether we've had a Republican or a Democratic President. 
We have both stated so many times in the Judiciary Committee 
our concern about the integrity of the Justice Department. And 
I worry that the walls intended to protect the independence and 
credibility of our law enforcement institutions are at the risk 
of crumbling. I am very concerned how the President's 
relentless and, I think, baseless attacks on senior DOJ and FBI 
leadership, including attacking you for your recusal for the 
Russia investigation, something you were required to do--you 
just followed the law, and you did the right thing--is simply 
without precedent. And I believe it's wrong.

 SPECIAL COUNSEL ROBERT MUELLER AND DEPUTY ATTORNEY GENERAL ROSENSTEIN

    We've also learned that the President wanted to fire 
Special Counsel Robert Mueller last year. The President's 
allies are now going on television, apparently at the direction 
of the White House, to build a case for firing your second in 
command, Rod Rosenstein. Some of the President's allies in the 
Congress have, I think, irresponsibly even talked about 
impeaching Rod Rosenstein.
    Now, I've been here 44 years. I've never seen such attacks. 
And again, that's attacks against people in Democratic or a 
Republican administration. I worry that they are being done to 
interfere with your Department, the Department of Justice, a 
place that you and I have always tried to protect the 
Department's ability to complete an investigation into how and 
with whom Russia attacked our democracy. And you're at the helm 
of a Justice Department under siege. This is your chance to 
talk to us about how you're going to protect it.

             IMPORTANCE OF PROTECTING EQUAL RIGHTS FOR ALL

    And, in that regard, don't let the Justice Department turn 
its back on its tradition being a guardian of equal justice for 
all, including the most vulnerable in our society, the most 
disadvantaged. We have to be careful. Civil rights, voting 
rights, immigration. In other words, giving equal protection to 
all, including the most vulnerable in our society.
    So, Mr. Chairman, those are the areas I will question, 
because the Department of Justice is there for all of us, for 
every American. And I want to make sure the Attorney General 
has the tools and the ability to do that.
    Senator Moran. Senator Leahy, thank you very much.
    We now will recognize our witness today. I welcome once 
again Attorney General Sessions to this subcommittee hearing. 
And I recognize you for your opening statement.

                SUMMARY STATEMENT OF HON. JEFF SESSIONS

    Attorney General Sessions. Thank you very much, Chairman 
Moran and Ranking Member Shaheen, distinguished Members of this 
subcommittee, friends, and former colleagues. Thank you for the 
opportunity to be with you.
    I'm particularly pleased to be able to congratulate my 
former senior Senator for 20 years, Senator Shelby, for being 
chosen to Chair this historic committee. It is a tremendous 
honor, Senator Shelby. And my sincere congratulations to you. 
And you can know for sure how much I've appreciated our good 
relationship for 20 years.

  IMPORTANCE OF WORKING WITH LOCAL LAW ENFORCEMENT AND FALLEN OFFICER

    It's been an honor of a lifetime to serve as the Attorney 
General of the United States and to represent the men and women 
of the Department of Justice. You can be sure--really sure that 
I understand the importance of the office I hold, and I will 
strive to be worthy of it.
    Every single day, the 115,000 men and women of the 
Department work to protect our national security against 
terrorist threats, reduce violent crime in our communities, 
stop deadly drug dealers and their organizations, and 
strengthen the rule of law. So, today I'd like to lay out some 
of the priorities reflected in our budget request.
    First of all, the Department has rapidly moved to improve 
partnerships with the 85 percent of law enforcement officers 
who serve at the State, local, and Tribal levels. We know that 
we cannot succeed without them to make America safe.
    And yesterday, we were once again reminded of the sacrifice 
we ask of our men and women in blue. Officer Crystal Almeida 
and Rogelio Santander responded to a routine call at a Home 
Depot in Dallas, but they did not return home. And today we 
mourn with the family of Officer Santander, and pray for the 
recovery of Officer Almeida. The men and women of law 
enforcement deserve our respect, they deserve our support, they 
deserve our commitment in our work to reduce crime.

            SPIKE IN CRIME RATES AND INCREASED PROSECUTIONS

    After two decades of declining crime in 2015 and 2016, the 
violent crime rate went up by nearly 7 percent. Assaults went 
up 10 percent, rape went up nearly 11 percent, murder increased 
in those 2 years more than 20 percent. That's the largest 
increases since 1968. President Trump, our Federal officers, 
our local law enforcement partners are determined that this 
crime rate rise will not continue.
    Our prosecutions of illicit drugs, gun violators, violent 
crime, gangs, opioids, and immigration offenses are going to go 
up, too. In 2017, we brought cases against more violent 
criminals than any year in decades. We charged the most Federal 
firearms prosecutions in a decade. We convicted nearly 500 
human traffickers and 1200 gang members. Your strong support, 
Congress's support for our work means that we can sustain our 
Project Safe Neighborhood Program, where our United States 
Attorneys will meet with your local community leaders and law 
enforcement leaders to develop crime reduction plans based on 
local needs. This is a program that has proven to be--to work. 
Scientifically, it's been analyzed. And I feel great support 
for it when I travel around the country. Indeed, there are some 
good signs in the preliminary data that the increases in murder 
and violent crime appear to have been slowed, and violent crime 
may have actually begun to decrease.

                         OPIOIDS AND OVERDOSES

    We also embrace the President's goal of reducing 
prescription drugs sold in the United States by one-third over 
the next 3 years. This is an important step in reducing 
addiction and overdose deaths. We are simply prescribing too 
many drugs in this country. This Department is going after drug 
companies, doctors, pharmacists, and others who violate the 
law. And we will use civil, criminal, and sound regulatory 
powers to do so. I've directed that every United States 
Attorneys Office establish an opioid coordinator to focus on 
this dramatic problem.
    As Senator Shaheen noted, the largest cause of death for 
Americans under age 50 is overdose--drug overdoses. That is a 
stunning statistic. We've got to do something about it. We've 
already charged hundreds of people suspected of contributing to 
the ongoing opioid crisis, including over 50 doctors for 
opioid-related crime; some, very serious criminals. Sixteen of 
these doctors prescribed more than 20.3 million pills 
illegally.

              ORGANIZED CRIME DRUG ENFORCEMENT TASK FORCES

    Our Organized Crime Drug Enforcement Task Forces have also 
indicted more than 6,500 defendants in opioid-related 
investigations, and forfeited more than $150 million. With 
powerful drugs like fentanyl and heroin on our streets, we 
are--experience overdose deaths the likes of which we've never 
seen before. This must end. We are out of time. We have to see 
results now. And I truly believe we can make--change this 
dynamic.

                     DRUGS AND THE SOUTHERN BORDER

    Amazingly, in the last month alone, the DEA seized a total 
of more than 90 kilograms, 2.2 pounds per kilogram, of 
suspected fentanyl in cases from Detroit to New York to Boston. 
Fentanyl is 50 times as powerful as heroin, and it's so 
powerful that an amount equivalent to a pinch of salt is 
powerful enough to be deadly. So, we must acknowledge that the 
vast majority of fentanyl, methamphetamine, heroin, and cocaine 
first come across our southern border. It almost all is coming 
across the southern border. And we are working with our 
Department of Homeland Security partners to reduce and 
ultimately end illegal immigration, which will also help us to 
take on transnational criminal organizations and reduce the 
drugs flowing across the border. We're streamlining and 
increasing prosecutions and targeting criminal aliens. Congress 
has provided us, thankfully, enough funding for 100 new 
immigration judges in the recent omnibus, which will help us 
keep up with the caseload.

 LEGAL ORIENTATION PROGRAM AND EXECUTIVE OFFICE FOR IMMIGRATION REVIEW

    Mr. Chairman, I'd like to address one matter that I know is 
important to the subcommittee, the Legal Orientation Program. 
You and Senator Shaheen both raised it with me. I reviewed the 
situation, and I have previously expressed some concerns about 
the program. And the Executive Office for Immigration Review 
has expressed its intent to pause two parts of the five-part 
program, pending the results of a formal review of the program. 
I recognize, however, that this subcommittee has spoken on this 
matter. And, out of deference to the subcommittee, I've ordered 
that there be no pause while the review is being conducted, and 
I look forward to evaluating such findings as are produced and 
will be in communication with this subcommittee when they are 
available.
    Our explicit goals for the Department of Justice are to 
reduce violent crime, reduce the surging increase in homicides, 
reduce overdose deaths, and to reduce prescription opioids. I 
believe these priorities are the priorities of the American 
people and, I believe, your priorities.

                     PRAISE OF U.S. LAW ENFORCEMENT

    So, finally, let me say with all the strength that I can 
muster, no nation has a finer group of law officers than those 
who comprise the FBI, the DEA, the ATF, and United States 
Marshals Service. They are now, now in 24 hours a day in every 
corner of America, working courageously and faithfully to 
protect this Nation and our people. And when we face criticism, 
we're not going to be defensive. When questions arise, even if 
misplaced, we will take necessary action to establish that 
concerns are either not true or take strong action against any 
wrongdoing. This Department, above all others, can never get 
too big for its britches or think itself in any way as above 
the law that we must apply to others. We know the Government 
always wins when justice is done.
    So, Mr. Chairman, I'm looking forward to discussing these 
matters with you and Members of the subcommittee.
    [The statement follows:]
          Prepared Statement of Hon. Jefferson B. Sessions III
    Good afternoon, Chairman Moran, Ranking Member Shaheen and other 
distinguished Members of the subcommittee. I am honored to appear 
before you today to present the President's fiscal year 2019 budget for 
the Department of Justice.
    Let me start by thanking you for your strong support for the 
Department in the recently completed fiscal year 2018 Omnibus 
Appropriations bill. President Trump's fiscal year 2019 budget proposal 
totals $28 billion for the Department of Justice to support Federal law 
enforcement and the criminal justice priorities of our State, local, 
and Tribal law enforcement partners. The request represents a 
comprehensive investment in the Justice mission and includes increases 
in funding to help us reduce violent crime, enforce the Nation's 
immigration laws, combat the opioid epidemic, and continue our priority 
commitment to national security.
    The Department of Justice is facing a severe challenge. We must 
confront rising violent crime and surging homicide rates. Illicit drug 
production and supplies are up worldwide. Illicit drug prices are low, 
supplies are high, and purity is at record levels. This is true for the 
core dangerous drugs: fentanyl, heroin, methamphetamine, and cocaine. 
In addition, the Nation is beginning to make reductions in opioid 
prescriptions, and we must have further significant reductions in 
manufacturing and prescribing highly addictive opioids.
    Our DOJ team, along with our Federal, State, and local partners, 
have high motivation and determination. We have been redeploying our 
resources this past year to focus directly on these problems. Let me 
say clearly, Mr. Chairman, you and this subcommittee have been strongly 
supportive. We are determined to use every new dollar you have worked 
to provide us to achieve the maximum benefit in our efforts against 
these deadly drugs.
    The President has ordered us to support State and local law 
enforcement, dismantle transnational organized crime, and reduce crime. 
For the last year, we have aggressively carried out that agenda and 
have already seen notable successes that benefit the American people.

    The key Department funding priorities include:

  --Combating Violent Crime. The budget allocates an additional $109.2 
        million to support the President's initiatives to reduce 
        violent crime by targeting the worst of the worst transnational 
        criminal organizations, violent gangs, and drug traffickers 
        ravaging our Nation. A smart and sustained effort of this kind 
        with our State and local partners will produce good results.
  --Drug Enforcement and the Opioid Crisis. The budget requests $295 
        million to combat the opioid epidemic that is destroying lives 
        and whole communities. It will allow us to target the drug 
        trafficking organizations, the drug companies, pharmacists, and 
        pharmacies that are moving too many prescription drugs into 
        America.
  --Enforcing Immigration Laws. This budget requests an additional 
        $65.9 million to maintain the efficacy and efficiency of 
        immigration enforcement and adjudication programs and 
        processes. Of note, this budget requests 75 new immigration 
        judges (IJs) and support staff. Our goal is to responsibly end 
        the lawlessness in our system and offer a lawful system that 
        works to advance the national interest.
  --State, Local, and Tribal Assistance. The budget provides $3.9 
        billion in discretionary and mandatory funding for State, 
        local, and Tribal law enforcement assistance, who comprise 85 
        percent of all law enforcement officers in America. Critical 
        programs aimed at protecting the life and safety of State and 
        local law enforcement personnel, including the Public Safety 
        Partnership Program and the Project Safe Neighborhood Program, 
        demonstrate our continuing commitment to supporting State, 
        local and Tribal law enforcement.
  --Reprioritizing and Reshaping Resources for a More Efficient 
        Department. In line with the President's Executive order on a 
        ``Comprehensive Plan for Reorganizing the Executive Branch,'' 
        we are committed to establishing a leaner Federal Government 
        that reduces both bureaucracy and costs to the American 
        taxpayer. The Department is proposing a number of initiatives 
        to achieve savings, to reduce the size of government, and 
        maximize agency performance.
                        combating violent crime
    Protecting the American people from violent crime is a top priority 
for the Department of Justice. Unfortunately, in recent years, crime 
has been on the rise in too many places across the country. FBI 
statistics show that, in 2015 and 2016, the United States experienced 
the largest increases in violent crime in a quarter-century.\1\ Over 
those 2 years, violent crime increased by nearly 7 percent. Robberies, 
assaults, and rapes all increased, and homicide increased by a shocking 
20 percent.
---------------------------------------------------------------------------
    \1\ U.S. Dep't of Justice, Fed. Bureau of Investigation, Crime in 
the United States, 2016: Table 1 & n.6, https://ucr.fbi.gov/crime-in-
the-u.s/2016/crime-in-the-u.s.-2016/tables/table-1; for data years 
prior to 1995, see U.S. Dep't of Justice, Fed. Bureau of Investigation, 
UCR Data Tool, https://www.ucrdatatool.gov/index.cfm.
---------------------------------------------------------------------------
    In 2017, the Department made some great strides, including the 
launch of the enhanced Project Safe Neighborhoods (PSN) initiative, 
which brings together all levels of law enforcement and the communities 
they serve to develop effective, locally based strategies to reduce 
violent crime. Led by our 94 United States Attorney's Offices, PSN task 
forces are hitting the streets across America to apprehend and bring 
violent criminals to justice. I am asking Congress for additional PSN 
funding for fiscal year 2019, totaling $140 million, because I believe 
nothing will be more effective at reducing violent crime.
    Under this program, I am asking a great deal of our United States 
Attorneys. I am empowering them and holding them accountable for 
results. To put them in the best position to impact and reduce violent 
crime, I have directed the re-allocation of resources and will be 
enlisting and deploying 300 additional violent crime prosecutors across 
the United States this year. So far, the Department has brought cases 
against the greatest number of violent criminals in at least 25 years--
since the Department began tracking a ``violent crime'' category. 
Although preliminary numbers for 2017 show a decrease, violent crime 
rates are still excessively high.\2\
---------------------------------------------------------------------------
    \2\ Press Release: Fed. Bureau of Investigation, FBI Releases 
Preliminary Semiannual Crime Statistics for 2017, (Jan. 23, 2018), 
https://www.fbi.gov/news/pressrel/press-releases/fbi-releases-
preliminary-semiannual-crime-statistics-for-2017.
---------------------------------------------------------------------------
    The fiscal year 2019 budget also requests $109.2 million in program 
enhancements to reduce violent crime and combat transnational criminal 
organizations. These resources will enable the Department to dismantle 
the worst criminal organizations, target the most violent offenders, 
and protect the public. This includes increased funding for the Bureau 
of Alcohol, Tobacco, Firearms and Explosives' (ATF) National Integrated 
Ballistic Information Network (NIBIN) in order to centralize the 
correlation process that enables ballistic identification services for 
law enforcement partners in a more accurate, efficient and streamlined 
manner. Further, it supports expediting ATF's processing of National 
Firearms Act (NFA) applications, which will allow for technical 
advancements to ensure the most accurate and timely firearms 
registrations to support the enforcement of the NFA and provide 
certifications in support of criminal trials. Finally, it will provide 
ATF additional resources to provide assistance to cities with surging 
firearms violence by augmenting and enhancing ATF's regional Crime Gun 
Intelligence Centers.
    It will also provide funding to the Organized Crime and Drug 
Enforcement Task Forces (OCDETF) with $4.6 million for the 
establishment of a Co-Located Strike Force to target those 
transnational criminal organizations that pose the greatest threat to 
our national security and the safety of American citizens. The Criminal 
Division (CRM) is also requesting $13 million for Mutual Legal 
Assistance (MLAT) Reform. This critical funding will support 37 
attorneys and 35 paralegals who support prosecutors domestically and 
abroad by navigating foreign laws, treaties, and other requirements, to 
secure the return of fugitives to face justice and to obtain the 
evidence needed to convict them. The Office of International Affairs 
(OIA) often seek evidence needed to thwart terrorist plots or seek the 
removal of violent criminals hiding in America's cities. Finally, the 
U.S. Marshals Service, the oldest American Federal law enforcement 
agency tasked with apprehending dangerous and wanted fugitives, is 
seeking $7.3 million for the development and implementation of a 
comprehensive information technology (IT) integration project called 
the ``Capture Initiative.'' This will consolidate operational data and 
improve business and mission capabilities at the headquarters and in 
the field, while ensuring their data is protected from cybersecurity 
risks.
                 drug enforcement and the opioid crisis
    The United States is in the midst of the deadliest drug epidemic in 
American history. According to the Centers for Disease Control and 
Prevention (CDC), more than 63,600 Americans died from drug overdoses 
in 2016, a 21 percent increase from the previous year.\3\ Over 42,200, 
or approximately two-thirds, of these overdose deaths were caused by 
heroin, fentanyl, and prescription opioids. The President declared this 
scourge a National Public Health Emergency in October 2017, and the 
Department remains committed to doing its part to protect the American 
people from the impact of drugs and drug-related crime nationwide.
---------------------------------------------------------------------------
    \3\ Hedegaard H, Warner M, Minino A. Drug Overdose Deaths in the 
United States, 1999-2016. NCHS Data Brief, no 294. Hyattsville, MD: 
National Center for Health Statistics. 2017. Available from: https://
www.cdc.gov/nchs/data/databriefs/db294.pdf.
---------------------------------------------------------------------------
    The fiscal year 2019 budget requests $295 million in program 
enhancements and transfers for the Drug Enforcement Administration 
(DEA) to combat the opioid crisis and bolster drug enforcement efforts. 
These resources will enable the Department to target those drug 
trafficking organizations most responsible for the opioid epidemic and 
drug-related violence in our communities, as well as ensure the life 
and safety of first responders who are on the front lines protecting 
the American people.
    In fiscal year 2017, Congress funded the establishment of six 
heroin enforcement teams, comprised of DEA Special Agents and State and 
local task force officers. These teams have already begun to combat the 
trafficking in heroin, fentanyl analogues and the violence associated 
with drug trafficking that is ravaging our communities. DEA continues 
to aggressively pursue enforcement actions against international and 
domestic drug trafficking organizations, and in fiscal year 2019 we are 
seeking $31.2 million to fund an additional eight new heroin 
enforcement groups to be deployed to DEA Field Divisions that have 
identified heroin as the first or second greatest threat to their area. 
The funding will also increase the number of DEA Special Agents at 
Field Divisions to target the Mexican Transnational Criminal 
Organizations (TCOs) that pose the greatest drug threat to the United 
States.
    Further, the fiscal year 2019 request also supports $9.7 million 
for DEA to expand its Fentanyl Signature Profiling Program (FSPP) as it 
works to link fentanyl seizures to international and domestic 
trafficking networks responsible for fueling the opioid crisis. It 
would also provide funding for DEA's drug identification technology and 
personal protective equipment for agents in the field to minimize 
exposure to deadly opioids during enforcement actions and allow DEA to 
convert the El Salvador Formally Vetted Unit to a Sensitive 
Investigative Unit (SIU).
    Finally, the President's budget proposes to permanently transfer 
$254 million to DEA from the Office of National Drug Control Policy 
(ONDCP) for facilitating coordination of the High Intensity Drug 
Trafficking Areas (HIDTA) Program along with other drug enforcement 
assets. Transferring the HIDTA grants to DEA will enable us to focus on 
combating drug trafficking in areas where the threat is the greatest 
and where there is a coordinated law enforcement presence.
                        enforce immigration laws
    We are a strong, prosperous, and orderly nation and such a nation 
must have a lawful system of immigration. Let no one contend that we 
reject immigration and want to ``wall off America'' from all lawful 
immigration. We admit 1.1 million immigrants lawfully to permanent 
legal status--green card status--every year, the highest numbers in the 
world. Indeed, at this unprecedented rate we will soon have the largest 
percentage of non-native born in our Nation's history with the 
percentage continuing to rise every year thereafter. Thus, the good and 
decent people of this country are right to insist that this country 
should end the illegality, create a rational immigration flow, and 
protect the Nation from criminal aliens. It cannot be that someone who 
illegally crosses the border and 2 days later arrives in Sacramento, 
Dubuque, Louisville, or Central Islip is home free--never to be 
removed.
    It cannot be the policy of a great nation to reward those who 
unlawfully enter its country with legal status, Social Security, 
welfare, food stamps, and work permits. Meanwhile those who engage in 
this process lawfully and patiently and wait their turn are 
disadvantaged. Our citizens, want our Government to think about their 
needs and to consider their interests. They have dreams too. 
Immigration law is the province of the Federal Government. This 
administration and this Justice Department are determined to make it 
work fairly and effectively for the people.
    The fiscal year 2019 President's budget strengthens the Nation's 
security through stronger enforcement of the Nation's immigration laws. 
The Department is requesting $65.9 million in immigration-related 
program enhancements for fiscal year 2019, which will enhance border 
security and immigration enforcement. These investments will also 
improve our ability to conduct immigration hearings to help combat 
illegal immigration to the United States by expanding capacity, 
improving efficiency, and removing impediments to the timely 
administration of justice. This budget supports the Department's 
efforts, along with our partners at the Department of Homeland 
Security, to fix our immigration system.
    The Executive Office of Immigration Review (EOIR) oversees the 
Nation's immigration courts and the Board of Immigrant Appeals. At the 
beginning of fiscal year 2018, there were nearly 650,000 cases pending 
nationwide, a 25 percent increase from fiscal year 2016 and by far the 
largest pending caseload before the agency, marking the eleventh 
consecutive year of increased backlogs. To maintain efficacy and 
efficiency of immigration enforcement and adjudication programs, the 
Department's request includes $39.8 million for 75 new immigration 
judges (IJs) and support staff. Further, $25 million is included in 
this request for EOIR to modernize its wholly paper-based case-related 
system to provide for electronic submission of all case-related 
information, establish Record of Proceedings (eROP), establish 
electronic case adjudicatory aids for IJs, improve its case management 
processes and end-to-end workflow, and eventually transition to a 
paperless courtroom.
                  state, local, and tribal assistance
    Federal law enforcement officers constitute only 15 percent of the 
total number of law enforcement officers nationwide; therefore, 85 
percent of the officer support relies upon strong partnership with 
State and local law enforcement. The Department supports its partners 
in State and local law enforcement, who have critical intelligence 
about violent crime in their communities, and whose actions are crucial 
in the fight against violent crime and the opioid epidemic. The fiscal 
year 2019 budget continues its commitment to State, local and Tribal 
law enforcement by investing approximately $3.9 billion in 
discretionary and mandatory funding in programs to assist them. Funding 
has been prioritized to meet the most pressing law enforcement 
concerns--violent crime and opioid abuse--and to help the victims of 
crime.
    We are also confronting the State and local jurisdictions that have 
undertaken to undo our immigration laws through so-called ``sanctuary 
policies.'' Such policies undermine the moral authority of law and 
undermine the safety of the jurisdictions that adopt them. Police are 
forced to release criminal aliens back into the community--no matter 
what their crimes. Think about that: Police may be forced to release 
pedophiles, rapists, murderers, drug dealers, and arsonists back into 
the communities where they had no right to be in the first place. They 
should-- according to law and common sense--be processed and deported. 
These policies hinder the work of Federal law enforcement; they are 
contrary to the rule of law, and they have serious consequences.
    Sanctuary jurisdictions feign outrage when they lose Federal funds 
as a direct result of actions which contradict Federal law. Some have 
even decided to go to court so that they can keep receiving taxpayer-
funded grants while continuing to impede Federal immigration 
enforcement. We intend to fight this resolutely. We cannot continue 
giving Federal grants to cities that actively undermine the safety of 
Federal law officers and intentionally frustrate efforts to reduce 
crime in their own cities. These jurisdictions that knowingly, 
willfully, and purposefully release criminal aliens back into their 
communities are sacrificing the lives and safety of American citizens 
in the pursuit of an extreme open borders policy. It is extreme, 
because if a jurisdiction will not deport someone who enters illegally 
and then commits another crime, then who will they deport?
    This is not just a bad policy; it is a direct challenge to the laws 
of the United States. It places the lives of our fine law enforcement 
officers at risk; I cannot and will not accept this increased risk 
because certain elected officials want to make a statement. Our duty is 
to protect public safety and protect taxpayer dollars and I plan to 
fulfill those duties.
                       restructuring initiatives
    The administration is committed to establishing a leaner, more 
productive Federal Government that reduces both, bureaucracy and costs 
to the American taxpayer. Since 2017, the Department of Justice has 
undertaken efforts to refocus resources and return our efforts to our 
core mission. To support the President's Executive order on 
reorganizing the executive branch, the Department of Justice has begun 
taking steps to streamline and improve its good stewardship of 
taxpayers' dollars. As part of the fiscal year 2019 President's budget, 
the Department is proposing a number of initiatives to achieve savings, 
to reduce the size of government, and maximize agency performance. 
Highlights of the restructuring initiatives include:

  --The Bureau of Alcohol, Tobacco, Firearms and Explosives' (ATF) 
        responsibilities related to alcohol and tobacco enforcement 
        will transfer to the Department of Treasury's Alcohol and 
        Tobacco Tax and Trade Bureau. ATF will retain its current 
        enforcement responsibilities for firearms and explosives, while 
        re-focusing their resources on violent crime. As part of that, 
        ATF will pursue a workforce refresh effort, leveraging 
        attrition from its retirement-eligible workforce to 
        reinvigorate a cadre of Special Agents and Investigators to 
        work on ATF's violent crime initiatives.
  --The Bureau of Prisons (BOP) will shift to historical inmate-to-
        staff ratios. It will also close two Regional Offices and two 
        stand-alone minimum-security prison camps, which is anticipated 
        to achieve over $122 million in savings.
  --Beginning in fiscal year 2018, the Department will merge 
        administrative support and certain grant management staff for 
        the three Department grant offices. These grants benefit our 
        State and local partners who are on the front lines fighting 
        crime and battling the opioid crisis. The Department plans to 
        build one grants management system to streamline the grants 
        process. As part of this effort in fiscal year 2019, the 
        Department will consolidate the Office of Community Oriented 
        Policing (COPS) into the Bureau of Justice Assistance at the 
        Office of Justice Programs (OJP).
  --The budget also proposes to transfer the Community Relations 
        Service (CRS) to the Civil Rights Division, who will then be 
        able to perform its community mediation work in a more 
        centralized manner and at a greater savings to the taxpayer.
  --Finally as previously noted, the HIDTA grant program will transfer 
        from ONDCP to DEA. This change will eliminate redundancies 
        within Federal organizations by reallocating this program, 
        which supports States and communities fighting the scourge of 
        illegal drugs, into the same agency leading the enforcement 
        efforts in those communities.
                               conclusion
    Chairman Moran, Ranking Member Shaheen and Members of the 
subcommittee, it is my pleasure to highlight our efforts to be good 
stewards of the resources and authorities bestowed on us as we 
strengthen the Department's ability to ensure safety, equality, and 
justice for all Americans. As Attorney General, I am committed to 
making the Department of Justice run as efficiently and effectively as 
possible, without adding to the burden of the American taxpayer. I 
thank you for your past support of the Department's financial needs, 
and for the opportunity to present our fiscal year 2019 budget request. 
I look forward to working with you through the upcoming fiscal year to 
ensure that the Department of Justice remains on solid financial 
footing and can accomplish its multiple and varied missions 
effectively.

    Senator Moran. Mr. Attorney General, thank you very much.
    Let me, first, use this as an opportunity to say how 
wholeheartedly I agree with your assessment of the law 
enforcement officials at the Department of Justice and across 
the country, and how worthy they are of our respect and 
support. And I appreciate the sentiments that you expressed on 
their behalf. And I would assume I join all my colleagues in 
indicating our full faith and belief in those who work every 
day to protect the lives and safety of Americans here at home. 
So, thank you for those strong words, and I commend you for 
them.

               RULE OF LAW AND LEGAL ORIENTATION PROGRAM

    Secondly, let me thank you for your response. As I 
indicated in my opening statement, Senator Shaheen and I 
corresponded with you in regard to the pause of the Legal 
Orientation Program. And I want to thank you for your 
recognition of congressional words, actions. They're--the pause 
would be in contravention of this subcommittee and the full 
Appropriations Committee, and actually Congress's direction 
that no pause occur. And I appreciate you again recognizing the 
rule of law and your support for Members of this subcommittee 
in our desire to see that program continue. So, thank you for 
the response that you gave us here today. I'm pleased to hear 
it.
    Now, let me turn to my questions. Let me, first, say that 
opening statements by other Members of the subcommittee can be 
made part of your 7 minutes or could be made as a request by 
unanimous consent to be made part of the record.

                      CENSUS CITIZENSHIP QUESTION

    Let me ask about the Census. Mr. Attorney General, this 
past December, the Department of Justice sent an official 
letter to the Census Bureau requesting that it reinstate a 
question on the citizenship status to the 2020 Census forms. 
This subcommittee also has jurisdiction over the funding of the 
Census. So, just let me give you the opportunity to explain why 
the Department made this request. And will you elaborate on how 
the data gathered would be used?
    Attorney General Sessions. I would be pleased to discuss 
it, as much as I can. The matter is in litigation, so I have 
some handicap in discussing all matters that you might be 
interested in.
    The Census, I believe it's common sense and would be 
appropriate to ask whether or not an individual being surveyed 
is a citizen of the United States, or not. It had previously 
been in the Census and remains a part of the annual survey 
that's done. So, I think that's where we are. It can help us in 
determining a number of issues, particularly in our Civil 
Rights Division. And they--our attorneys have compiled some 
legal reasons we think that would justify that question, and 
would be pleased to send that to you.
    [The information follows:]

December 12, 2017

Dr. Ron Jarmin
Performing the Non-Exclusive Functions and Duties of the Director
U.S. Census Bureau
United States Department of Commerce
Washington, D.C. 20233-0001

Re: Request To Reinstate Citizenship Question On 2020 Census 
    Questionnaire

Dear Dr. Jarmin:

    The Department of Justice is committed to robust and evenhanded 
enforcement of the Nation's civil rights laws and to free and fair 
elections for all Americans. In furtherance of that commitment. I write 
on behalf of the Department to formally request that the Census Bureau 
reinstate on the 2020 Census questionnaire a question regarding 
citizenship, formerly included in the so-called ``long form'' census. 
This data is critical to the Department's enforcement of Section 2 of 
the Voting Rights Act and its important protections against racial 
discrimination in voting. To fully enforce those requirements, the 
Department needs a reliable calculation of the citizen voting-age 
population in localities where voting rights violations are alleged or 
suspected. As demonstrated below, the decennial census questionnaire is 
the most appropriate vehicle for collecting that data, and reinstating 
a question on citizenship will best enable the Department to protect 
all American citizens' voting rights under Section 2.
    The Supreme Court has held that Section 2 of the Voting Rights Act 
prohibits ``vote dilution'' by State and local jurisdictions engaged in 
redistricting, which can occur when a racial group is improperly 
deprived of a single-member district in which it could form a majority. 
See Thornburg v. Gingles, 478 U.S. 30, 50 (1986). Multiple Federal 
courts of appeals have held that, where citizenship rates are at issue 
in a vote-dilution case, citizen voting-age population is the proper 
metric for determining whether a racial group could constitute a 
majority in a single-member district See, e.g., Reyes v. City of 
Farmers Branch, 586 F.3d 1019, 1023-24 (5th Cir. 2009); Barnett v. City 
of Chicago, 141 F.3d 699, 704 (7th Cir. 1998); Negrn v. City of Miami 
Beach, 113 F.3d 1563, 1567-69 (11th Cir. 1997); Romero v. City of 
Pomona, 883 F.2d 1418, 1426 (9th Cir. 1989), overruled in part on other 
grounds by Townsend v. Holman Consulting Corp., 914 F.2d 1136, 1141 
(9th Cir. 1990); see also LULAC v. Perry, 548 U.S. 399, 423-442 (2006) 
(analyzing vote-dilution claim by reference to citizen voting-age 
population).
    The purpose of Section 2's vote-dilution prohibition ``is to 
facilitate participation . . . in our political process'' by preventing 
unlawful dilution of the vote on the basis of race. Campos v. City of 
Houston, 113 F.3d 544, 548 (5th Cir. 1997). Importantly, ``[t]he plain 
language of section 2 of the Voting Rights Act makes clear that its 
protections apply to United States citizens.'' Id. Indeed, courts have 
reasoned that ``[t]he right to vote is one of the badges of 
citizenship'' and that ``[t]he dignity and very concept of citizenship 
are diluted if noncitizens are allowed to vote.'' Barnett, 141 F.3d at 
704. Thus, it would be the wrong result for a legislature or a court to 
draw a single-member district in which a numerical racial minority 
group in a jurisdiction was a majority of the total voting-age 
population in that district but ``continued to be defeated at the 
polls'' because it was not a majority of the citizen voting-age 
population. Campos, 113 F.3d at 548.
    These cases make clear that, in order to assess and enforce 
compliance with Section 2's protection against discrimination in 
voting, the Department needs to be able to obtain citizen voting-age 
population data for census blocks, block groups, counties, towns, and 
other locations where potential Section 2 violations are alleged or 
suspected. From 1970 to 2000, the Census Bureau included a citizenship 
question on the so-called ``long form'' questionnaire that it sent to 
approximately one in every six households during each decennial census. 
See, e.g., U.S. Census Bureau, Summary File 3: 2000 Census of 
Population & Housing--Appendix B at B-7 (July 2007), available at 
https://www.census.gov/prod/cen2000/doc/sf3.pdf (last visited Nov. 22, 
2017); U.S. Census Bureau, Index of Questions, available at https://
www.census.gov/history/www/through_the_decades/index_of_questions/ 
(last visited Nov. 22, 2017). For years, the Department used the data 
collected in response to that question in assessing compliance with 
Section 2 and in litigation to enforce Section 2's protections against 
racial discrimination in voting.
    In the 2010 Census, however, no census questionnaire included a 
question regarding citizenship. Rather, following the 2000 Census, the 
Census Bureau discontinued the ``long form'' questionnaire and replaced 
it with the American Community Survey (ACS). The ACS is a sampling 
survey that is sent to only around one in every 38 households each year 
and asks a variety of questions regarding demographic information, 
including citizenship. See U.S. Census Bureau, American Community 
Survey Information Guide at 6, available at https://www.census.gov/
content/dam/
Census/programs-surveys/acs/about/ACS Information Guide.pdf (last 
visited Nov. 22, 2017). The ACS is currently the Census Bureau's only 
survey that collects information regarding citizenship and estimates 
citizen voting-age population.
    The 2010 redistricting cycle was the first cycle in which the ACS 
estimates provided the Census Bureau's only citizen voting-age 
population data. The Department and State and local jurisdictions 
therefore have used those ACS estimates for this redistricting cycle. 
The ACS, however, does not yield the ideal data for such purposes for 
several reasons:
  --Jurisdictions conducting redistricting, and the Department in 
        enforcing Section 2, already use the total population data from 
        the census to determine compliance with the Constitution's one-
        person, one-vote requirement, see Evenwel v. Abbott, 136 S. Ct. 
        1120 (Apr. 4, 2016). As a result, using the ACS citizenship 
        estimates means relying on two different data sets, the scope 
        and level of detail of which vary quite significantly.
  --Because the ACS estimates are rolling and aggregated into 1-year, 
        3-year, and 5-year estimates, they do not align in time with 
        the decennial census data. Citizenship data from the decennial 
        census, by contrast, would align in time with the total and 
        voting-age population data from the census that jurisdictions 
        already use in redistricting.
  --The ACS estimates are reported at a 90 percent confidence level, 
        and the margin of error increases as the sample size--and, 
        thus, the geographic area--decreases. See U.S. Census Bureau, 
        Glossary: Confidence interval (American Community Survey), 
        available at https://www.census.gOv/glossary/#term_
        ConfidenceintervalAmericanCommunitySurvey (last visited 
        November 22, 2017). By contrast, decennial census data is a 
        full count of the population.
  --Census data is reported to the census block level, while the 
        smallest unit reported in the ACS estimates is the census block 
        group. See American Community Survey Data 3, 5, 10. 
        Accordingly, redistricting jurisdictions and the Department are 
        required to perform further estimates and to interject further 
        uncertainty in order to approximate citizen voting-age 
        population at the level of a census block, which is the 
        fundamental building block of a redistricting plan. Having all 
        of the relevant population and citizenship data available in 
        one data set at the census block level would greatly assist the 
        redistricting process.
    For all of these reasons, the Department believes that decennial 
census questionnaire data regarding citizenship, if available, would be 
more appropriate for use in redistricting and in Section 2 litigation 
than the ACS citizenship estimates.
    Accordingly, the Department formally requests that the Census 
Bureau reinstate into the 2020 Census a question regarding citizenship. 
We also request that the Census Bureau release this new data regarding 
citizenship at the same time as it releases the other redistricting 
data, by April 1 following the 2020 Census. At the same time, the 
Department requests that the Bureau also maintain the citizenship 
question on the ACS, since such question is necessary, inter alia, to 
yield information for the periodic determinations made by the Bureau 
under Section 203 of the Voting Rights Act, 52 U.S.C. Sec. 10503.
    Please let me know if you have any questions about this letter or 
wish to discuss this request I can be reached at (202) 514-3452, or at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="80c1f2f4e8f5f2aec7e1f2f9c0f5f3e4efeaaee7eff6ae">[email&#160;protected]</a>

Sincerely yours,

Arthur E. Gary
General Counsel
Justice Management Division

    Senator Moran. General, thank you very much.

                        COPS REALIGNMENT TO OJP

    Let me turn to the Community Oriented Policing Services 
(COPS) Program. Your fiscal year 2019 request proposes transfer 
the COPS office of the--I'm sorry--the COPS office to the 
Department Office of Justice Programs. But, in executing this 
transfer, the program itself will take a $176 million reduction 
from fiscal year 2018 enacted levels. As you know, the COPS 
Program has received broad bipartisan support from this 
subcommittee in the past. And, Attorney General, could you 
explain to me, to the subcommittee, why this restructuring is 
useful or necessary?
    Attorney General Sessions. Well, it is popular with this 
subcommittee, and popular with the Congress. Most Presidents 
often have not been as supportive as the Congress has. So, once 
again, our budget is below the request you had asked. We do 
believe that we can save money and be--provide more money for 
the grants themselves by consolidating the COPS Program in the 
Bureau of Justice--Office of Justice Programs and its 
subcomponent, Bureau of Justice Statistics. They have the 
infrastructure, the teamwork, and the capability of managing 
grants. And we think that would be a nice step to improve 
productivity and efficiency. It would not undermine the 
program, in my view, in any way. It's very popular with our law 
enforcement officers. And we also are creating a circumstance 
and recommending that more of the money be available as a 
priority to school resource officers to deal with violence in 
schools.
    Senator Moran. Thank you for your response.

             HIGH INTENSITY DRUG TRAFFICKING AREAS (HIDTA)

    Let me turn to HIDTA, the High Intensity Drug Trafficking 
Areas. Your fiscal year 2019 request, you propose to transfer 
the HIDTA Program from the Office of National Drug Control 
Policy under the Executive Office of the President to the Drug 
Enforcement Administration. So, HIDTA initiatives provide 
assistance through Federal grants to State, local, and Tribal 
law enforcement agencies operating in areas determined to be 
critical drug trafficking regions of the United States, 
including, unfortunately, several in Kansas. Often, these HIDTA 
initiatives work hand in hand with the Drug Enforcement 
Administration. I understand there are a large number of 
special agents within the DEA that are solely dedicated to the 
HIDTA Program. While I understand the desire and rationale of 
supporting the transfer of this program to DEA, I also 
recognize the concerns, expressed by some of my colleagues and 
by certain law enforcement entities in Kansas, that this 
transfer may hamper an important and successful grant program 
by moving it to an agency with no grantmaking experience. Can 
you address these concerns and elaborate on why you believe 
that this programmatic shift is necessary?
    Attorney General Sessions. Chairman Moran, the President 
challenged all of us to seek to improve the efficiency and 
productivity of the Government. You are correct that DEA and 
the HIDTA organization have worked closely together for many, 
many years--I guess, actually since the beginning. I remember 
when it was created. The--HIDTA reports through, or to, the 
ONDCP, the Office of National Drug Control Policy. That is a 
policy function. Bill Bennett was the first, I believe, 
Director. And it was supposed to coordinate the various Federal 
agencies that deal with drugs and to make sure that our budgets 
were properly constructed of all, whether it's State 
Department, Defense Department, or Health and Human Services, 
wherever money is being spent on drugs.
    So, I think it is a better organizational structure, that 
that function of ONDCP remain as its priority, and the actual 
investigating and prosecuting cases be done through the DEA. 
But, the HIDTA teams, the HIDTA people, the community leaders 
that form the councils that lead the HIDTAs, will remain in 
effect. The only difference would be that the grant money would 
come out of--be managed from DEA. And that would, we hope, 
engender an even closer relationship.
    Senator Moran. General, thank you.
    Now my opportunity to recognize the Ranking Member of the 
subcommittee for her questioning.
    Senator Shaheen. Thank you, Mr. Chairman.

                       LEGAL ORIENTATION PROGRAM

    And thank you, Attorney General Sessions, for your decision 
on the Legal Orientation Program. I'm pleased to hear that you 
have responded to the concerns that Senator Moran and I raised.

                  METHODOLOGY OF THE EFFICIENCY STUDY

    I would just point out that one of the other items in that 
letter was a request for information regarding the methodology 
of the efficiency study that is underway. I hope that 
information would be forthcoming to us as soon as that's 
available.
    Attorney General Sessions. I will make sure that happens.
    [The information follows:]

    The Department of Justice has provided its methodology for the 
Legal Orientation Program (LOP) efficiency study to the Senate 
Appropriations Committee under separate cover.

    Senator Shaheen. Thank you.

                        HIDTA AND DEA AND GRANTS

    I wanted to follow up on Senator Moran's question about the 
HIDTA Program, because that has also been very important in New 
Hampshire. I'm sure, when you were there, you heard how helpful 
the program has been in addressing our opioid epidemic and 
actually capturing some of the drugs that have been coming 
across the border into New Hampshire. I appreciate your 
interest in efficiency, although I've heard from the folks who 
participate in HIDTA in New Hampshire that they are very happy 
where they are. But, as Senator Moran pointed out and as you 
acknowledged, the DEA is not a grant making agency. What is the 
DEA's plan for managing funding with this proposed move?
    Attorney General Sessions. Well, we at the Department of 
Justice have tremendous experience in grant programs, in 
managing. We will be very supportive of DEA, which is our 
subordinate agency, in helping them to establish that kind of 
activity. But, again, I would say the actual funding, of 
course, will be Congress's decision. The leadership in the 
HIDTA community organizations would remain the same, but their 
grant money would be managed from DEA, which I do believe would 
help make that a tighter and better relationship. They'd still 
have their own independence and their own leadership teams. 
But, the--I think it could enhance the--that. And I do believe 
ONDCP probably never was created or expected to be a grant 
program of this kind.

                     COST OF GRANT MAKING MECHANISM

    Senator Shaheen. Is there any assessment of what the cost 
of setting up that grant making mechanism would be within----
    Attorney General Sessions. I believe----
    Senator Shaheen [continuing]. The DEA?
    Attorney General Sessions [continuing]. There is some 
expense in the initial setup, but I believe we can be able to 
do the grant program at certainly no more expense than 
currently exists, and maybe better, with our deep experience in 
grant making in the Department of Justice. So, it would go from 
the--basically, the White House ONDC office--ONDCP--to the 
Department of Justice.
    Senator Shaheen. Well, I look forward to hearing more about 
that.

                            BYRNE JAG GRANTS

    As I said in my opening statement, I am hearing from police 
chiefs throughout New Hampshire about their concern that the 
expected funding from the Byrne-JAG program has not yet been 
forthcoming. The Seventh Circuit released its decision on April 
19, which held that the Justice Department exceeded its legal 
authority in placing conditions on Byrne-JAG. When you and I 
discussed this matter on the phone, you pointed out that, win 
or lose, those grants would go out. So, I just wondered what I 
should tell the police chiefs in New Hampshire about when they 
might expect funding.

 COORDINATION WITH LOCAL, FEDERAL LAW ENFORCEMENT REGARDING IMMIGRANTS

    Attorney General Sessions. Senator Shaheen, we intend to 
get that money out. Sooner is better than later. But, the 
litigation is an important piece of litigation, and we placed 
only the most minor of requirements on the grant program. We 
asked our State and local partners, ``If you want to get the 
Byrne law enforcement grant''--we asked them to do two things. 
One was to, ``Give us notice 48 hours before an illegal alien 
who you've arrested for some crime is released, and to allow us 
to pick that individual up at the detention facility rather 
than releasing them on the streets and having our ICE officers 
and others have to try to find a criminal that needs to be 
arrested.'' And that's a very dangerous thing, places law 
officers at risk. That's what the Homeland Security officials 
pleaded with us to ask for, so we pared it down to a minimal 
thing we ask of them. We didn't ask the police to interview 
people. We didn't ask them to go arrest people for us or 
anything like that. Only to give us notice before release and 
to allow us to pick the individual up, more--far more safely, 
at the detention facility.
    Senator Shaheen. Well, this is a longstanding 
congressionally-mandated formula grant program. Why does DOJ 
think it can place conditions on this program which has been 
operating for so many years based on the mandate that Congress 
has given it? Could you also address whether you plan to hold 
funding for fiscal year 2018 in the same way that you've been 
holding it for fiscal year 2017?
    Attorney General Sessions. Well, to the first part of your 
question, this is a statute Congress passed, 34 U.S.C. 
10102(a)(6), and it says, ``The Assistant Attorney General of 
OJP shall exercise such other powers and functions as may be 
vested in the Assistant Attorney General pursuant to this 
chapter or by delegation of the Attorney General, including 
placing special conditions on all grants and determining 
priority purposes for formula grants.'' So, we felt, when we 
went to court, that these minor conditions for receiving a 
Federal grant were very reasonable, and we're deeply 
disappointed that the court has not, at least to this moment, 
seen itself able to agree. And we'll, of course, abide by the 
law, but we do want to review the situation and see if we 
cannot improve it.
    Senator Shaheen. I'm out of time, but just briefly, I know 
DOJ filed another motion with the Seventh Circuit on April 23. 
Do you expect to continue to go all the way up to the Supreme 
Court with your motions if you're denied again the Seventh 
Circuit?
    Attorney General Sessions. I'll have to talk with our 
lawyers. They worked hard on this case. And we've not seen--so, 
one thing about it, it's one thing to deal with the merits, 
it's another matter to deal with a preliminary injunction. So, 
we have an injunction that I think went beyond the law, in the 
sense that--the case was first raised in Chicago. It has its 
own unique set of laws and policies. But, the judge issued an 
order, then bound the entire United States. Many of those are 
in--perfectly happy to comply with these requirements of the 
Department of Justice. So, it's a frustrating matter. It's a 
big deal. And I just would--I think--I have to say, I've been 
appreciative of our law enforcement leaders, who I think, by 
and large, agree that these minimum requirements are 
legitimate. So, they've been patient with us. But, I am worried 
about it. We're working hard to bring it to a conclusion.
    Senator Shaheen. Thank you. I appreciate that. For States 
like New Hampshire, where we have no sanctuary cities, it puts 
us at a special disadvantage.
    Senator Moran. Senator, thank you.
    I now recognize the Vice Chairman of the full committee, 
Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.

        ATTORNEY GENERAL RECUSAL AND MICHAEL COHEN INVESTIGATION

    Attorney General, last week I sent you a letter regarding 
your commitment to recuse from ``any existing or future 
investigations of any matters related in any way to the 
campaigns for President''. Are you recused from the Federal 
investigation of the President's attorney, Michael Cohen, which 
reportedly involves matters directly related to the campaign, 
including possible campaign finance violations?
    Attorney General Sessions. Senator Leahy, I am honoring the 
recusal in every case, in every matter that comes before the 
Department of Justice. I committed to that in my confirmation 
hearing, and I have honored that, and will continue to honor 
that. In----
    Senator Leahy. Did it include Cohen?
    Attorney General Sessions. It is the policy of the 
Department of Justice that those who've recuse themselves not 
state the details of it or any--or confirm the existence of a 
investigation, or the scope or nature of that investigation.
    Senator Leahy. I understand----
    Attorney General Sessions. And so, I feel like, following 
the rules of the Department, which I'm trying to teach all of 
our people to do, that I should not answer that question. It 
would be inappropriate for me to do so.
    Senator Leahy. I know the question was not a surprise to 
you, and nor is your answer a surprise to me, but recusal here 
is not discretionary. It's required by Justice Department 
regulations when you have a ``political relationship'' with the 
President, which you've already acknowledged, and the President 
has a ``specific and substantial interest'' in the 
investigation. Now, the Federal judge granted the President's 
request to formally intervene in this matter, which is here in 
Judge Kimba Wood's order. And I'll be glad to give you a copy 
of this if you like. But, Judge Wood allows the President to 
formally intervene in this matter, so he is a member--or he is 
part of that investigation. And I would suggest he has a 
``specific and substantial interest''. So, wouldn't--by Justice 
Department regulations, doesn't that require you to be recused?
    Attorney General Sessions. Senator Leahy, it--I am required 
to be recused from any matter involving the substance of the 
cases--matters you raised in your opening statement, 
absolutely. And I will comply with that. But, to--it is not--it 
is the policy of the Department that if you get into discussing 
the details of those matters, you can reveal the existence, 
scope, or breadth, or nature of a matter, they would be 
inappropriate.
    Senator Leahy. And so----
    Attorney General Sessions. So, I think the best answer for 
me, having given it some thought, is to say that I should not 
announce that. In fact, recusals that happen all the time in 
the Department are not made public, but they're internally 
binding.
    Senator Leahy. Have you sought any advice of career ethics 
officials about whether you should or should not recuse 
yourself in the Cohen matter?
    Attorney General Sessions. I have sought advice on those 
matters, and I have not met with the top ethics person on it, 
but I can assure you I have not violated my recusal.
    Senator Leahy. And you do agree that the Justice Department 
regulations require recusal when you have a ``political 
relationship'' with somebody who has a ``specific and 
substantial interest'' in the investigation. That is basically 
the regulation, is it not?
    Attorney General Sessions. That is the regulation, I 
believe, 600 some--part 1. But, that's the regulation that I 
felt required me----
    Senator Leahy. I know.
    Attorney General Sessions [continuing]. To recuse myself.

   ATTORNEY GENERAL RESIGNATION REGARDING FIRING OF DEPUTY ATTORNEY 
                           GENERAL ROSENSTEIN

    Senator Leahy. It was reported last weekend that you told 
the White House Counsel you would consider resigning as 
Attorney General if the President fired Deputy Attorney General 
Rosenstein. I'm not going to ask about that conversation. But, 
if the President were to improperly fire either the Deputy 
Attorney General who supervises the Russia investigation or the 
Special Counsel, would you resign in opposition?
    Attorney General Sessions. Senator Leahy, that calls for a 
speculative answer--or question calls for speculation. I just 
am not able to do that.
    Senator Leahy. And were you surprised by that question? You 
don't have to answer that. Your smile answers the question.

                       LEGAL ORIENTATION PROGRAM

    And, lastly, on the--you've been asked about the Legal 
Orientation Program (LOP). Whatever study is being done there, 
that will be open and transparent, will it not?
    Attorney General Sessions. We will do so. And, look, I have 
some doubts about that program. The committees believe in that 
program. We'll talk about it and--before any action occurs.
    Senator Leahy. Yes, because we have appropriated the money, 
and we have directed the program to go forward. So, I would 
hope that you do not take any action on it without being in 
touch with both the senior Republicans, senior Democrats of the 
committees that have instructed it.
    Thank you, Mr. Chairman.
    Senator Moran. Mr. Vice Chairman, thank you very much.
    Senator from Maine, Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. And let me, 
first, congratulate you. And I very much look forward to 
working with you and the Ranking Member.

                              ELDER FRAUD

    Mr. Attorney General, before I turn to my questions, I want 
to thank you for your leadership on an issue that matters 
greatly to me. And that is fraud and scams that are directed 
against our senior citizens. You've really taken a leadership 
role on this. I know the Department announced, in February, 
that more than 250 defendants had been charged with scamming 
more than a million Americans, for a total amount in excess of 
a half a billion dollars. It's an issue we've been trying to 
get the Justice Department to pay attention to for years, and I 
very much appreciate your leadership.
    I'd now like to turn to my questions, which may not be 
quite as pleasing to your ears as my thank you.

             DEFERRED ACTION FOR CHILDHOOD ARRIVALS (DACA)

    The administration has now lost its third Deferred Action 
for Childhood Arrivals (DACA) case in Federal court. That 
program and the fate of the group of young people for whom 
there is a pretty widespread consensus that we should try to 
help continues to be clouded by uncertainty. Given the repeated 
failures in court and the fact that the President has 
repeatedly indicated that border security remains a high 
priority for him, wouldn't it make sense for the administration 
to revisit the bipartisan DACA compromise that was proposed 
earlier this year, that received 54 votes on the Senate floor, 
which would have funded the President's border security program 
in its entirety while providing a pathway to citizenship for 
DACA young people who have good records?
    Attorney General Sessions. Senator Collins, I do believe 
there is an opportunity for legislation by Congress. I served 
20 years on your side of the table. My good--my feeling is that 
that's possible. I've said that in a number of hearings that 
I've been in since I've been Attorney General. So, I think 
that's possible.
    I would say that two district courts, one in New York and 
California, did issue injunctions stopping the simple removal 
of the memoranda, really, is all it was, of the Homeland 
Security to enact DACA. DACA was, basically, rejected by 
Congress. Congress did not pass it. And the President had said 
repeatedly he could not do it on his own. But, once he--it was 
not passed in Congress, then the President got his Homeland 
Security team to enact this matter. I think it was unlawful. 
It's pretty much the finding of the Fifth Circuit in a related 
case involving DACA. And there was a court in Maryland that 
rejected this kind of injunction. So, three courts ruled on 
this DACA, two said it was not sustainable, and one said it 
was.
    So, we believe that the right thing is legislation. I would 
like to see law--look, I'll be frank. My view is, a plan that 
will end the illegality along with some relief for the DACA 
young people is possible. It can be done. And the President has 
laid out a number of options, and it's been unfortunate that it 
hasn't come together.
    Senator Collins. Well, Mr. Attorney General, many of us on 
this panel worked very hard to try to get that done and to put 
DACA in law. And I think that, had the Department of Homeland 
Security not issued a very misleading press release the night 
before the vote, accompanied by a veto threat by the President, 
we were there. At one point, I could count the 60 votes.
    But, we want to legislate in that area. I agree with you 
that it should be legislated. And I hope that, with the court 
rulings, that there is an extra impetus for the administration 
to work with us. And it's also an opportunity for the President 
to get a very high priority of his in strengthening the border, 
which we also need to do.
    Attorney General Sessions. Yes.
    Senator Collins. So, I thank you.
    Attorney General Sessions. Senators, I--just let me say, I 
think this is doable, but it cannot be done if we haven't fixed 
the illegal immigration flow. And my concern about the bill 
that you referred to was, it did not sufficiently close the 
loopholes and fix some of the problems that we have. If we 
could get that done, I think the possibility of a successful 
legislation would be greater. That's what the President said. 
And I think you--I think it could be done.
    Senator Collins. Thank you, Mr. Chairman.
    Senator Moran. Senator from Hawaii, Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman. Congratulations, 
Mr. Chairman. I'm looking forward to working with you. I will 
miss you on the MILCON VA Subcommittee, but I understand and 
forgive you.

                      CENSUS CITIZENSHIP QUESTION

    But, Mr. Attorney General, thank you for being here. I want 
to follow up on a question that Chairman Moran asked about the 
citizenship question on the Census. Communities of color 
advocacies--excuse me--advocacy organizations around the Census 
are, frankly, worried that the presence of that question is 
going to discourage participation in immigrant communities. And 
I understand that it's on the long form, and I understand that 
it's not without precedent that we're doing that. But, I have 
two questions for you. First, how do you respond to those 
communities of color who are worried that this will simply 
scare people to not respond to the Census at all, number one? 
And number two is, you've indicated that the Civil Rights 
Division wants the data, and I'm wondering why.
    Attorney General Sessions. I'll be glad to send you the 
letter that they--we produced regarding this issue, detailing 
the advantages of it--having the information. I do note that it 
is being asked on the other survey. And I would suggest that--
I've learned it's the 12th question on the form--the last 
question, I believe. It shouldn't scare people. They don't have 
to answer it. And--really--and so, I would think that that's a 
very reasonable thing. And I believe the concerns over it are 
overblown.
    [The information follows:]

December 12, 2017

Dr. Ron Jarmin
Performing the Non-Exclusive Functions and Duties of the Director
U.S. Census Bureau
United States Department of Commerce
Washington, D.C. 20233-0001

Re: Request To Reinstate Citizenship Question On 2020 Census 
    Questionnaire

Dear Dr. Jarmin:

    The Department of Justice is committed to robust and evenhanded 
enforcement of the Nation's civil rights laws and to free and fair 
elections for all Americans. In furtherance of that commitment. I write 
on behalf of the Department to formally request that the Census Bureau 
reinstate on the 2020 Census questionnaire a question regarding 
citizenship, formerly included in the so-called ``long form'' census. 
This data is critical to the Department's enforcement of Section 2 of 
the Voting Rights Act and its important protections against racial 
discrimination in voting. To fully enforce those requirements, the 
Department needs a reliable calculation of the citizen voting-age 
population in localities where voting rights violations are alleged or 
suspected. As demonstrated below, the decennial census questionnaire is 
the most appropriate vehicle for collecting that data, and reinstating 
a question on citizenship will best enable the Department to protect 
all American citizens' voting rights under Section 2.
    The Supreme Court has held that Section 2 of the Voting Rights Act 
prohibits ``vote dilution'' by State and local jurisdictions engaged in 
redistricting, which can occur when a racial group is improperly 
deprived of a single-member district in which it could form a majority. 
See Thornburg v. Gingles, 478 U.S. 30, 50 (1986). Multiple Federal 
courts of appeals have held that, where citizenship rates are at issue 
in a vote-dilution case, citizen voting-age population is the proper 
metric for determining whether a racial group could constitute a 
majority in a single-member district See, e.g., Reyes v. City of 
Farmers Branch, 586 F.3d 1019, 1023-24 (5th Cir. 2009); Barnett v. City 
of Chicago, 141 F.3d 699, 704 (7th Cir. 1998); Negrn v. City of Miami 
Beach, 113 F.3d 1563, 1567-69 (11th Cir. 1997); Romero v. City of 
Pomona, 883 F.2d 1418, 1426 (9th Cir. 1989), overruled in part on other 
grounds by Townsend v. Holman Consulting Corp., 914 F.2d 1136, 1141 
(9th Cir. 1990); see also LULAC v. Perry, 548 U.S. 399, 423-442 (2006) 
(analyzing vote-dilution claim by reference to citizen voting-age 
population).
    The purpose of Section 2's vote-dilution prohibition ``is to 
facilitate participation . . . in our political process'' by preventing 
unlawful dilution of the vote on the basis of race. Campos v. City of 
Houston, 113 F.3d 544, 548 (5th Cir. 1997). Importantly, ``[t]he plain 
language of section 2 of the Voting Rights Act makes clear that its 
protections apply to United States citizens.'' Id. Indeed, courts have 
reasoned that ``[t]he right to vote is one of the badges of 
citizenship'' and that ``[t]he dignity and very concept of citizenship 
are diluted if noncitizens are allowed to vote.'' Barnett, 141 F.3d at 
704. Thus, it would be the wrong result for a legislature or a court to 
draw a single-member district in which a numerical racial minority 
group in a jurisdiction was a majority of the total voting-age 
population in that district but ``continued to be defeated at the 
polls'' because it was not a majority of the citizen voting-age 
population. Campos, 113 F.3d at 548.
    These cases make clear that, in order to assess and enforce 
compliance with Section 2's protection against discrimination in 
voting, the Department needs to be able to obtain citizen voting-age 
population data for census blocks, block groups, counties, towns, and 
other locations where potential Section 2 violations are alleged or 
suspected. From 1970 to 2000, the Census Bureau included a citizenship 
question on the so-called ``long form'' questionnaire that it sent to 
approximately one in every six households during each decennial census. 
See, e.g., U.S. Census Bureau, Summary File 3: 2000 Census of 
Population & Housing--Appendix B at B-7 (July 2007), available at 
https://www.census.gov/prod/cen2000/doc/sf3.pdf (last visited Nov. 22, 
2017); U.S. Census Bureau, Index of Questions, available at https://
www.census.gov/history/www/through_the_decades/index_of_questions/ 
(last visited Nov. 22, 2017). For years, the Department used the data 
collected in response to that question in assessing compliance with 
Section 2 and in litigation to enforce Section 2's protections against 
racial discrimination in voting.
    In the 2010 Census, however, no census questionnaire included a 
question regarding citizenship. Rather, following the 2000 Census, the 
Census Bureau discontinued the ``long form'' questionnaire and replaced 
it with the American Community Survey (ACS). The ACS is a sampling 
survey that is sent to only around one in every 38 households each year 
and asks a variety of questions regarding demographic information, 
including citizenship. See U.S. Census Bureau, American Community 
Survey Information Guide at 6, available at https://www.census.gov/
content/dam/
Census/programs-surveys/acs/about/ACS Information Guide.pdf (last 
visited Nov. 22, 2017). The ACS is currently the Census Bureau's only 
survey that collects information regarding citizenship and estimates 
citizen voting-age population.
    The 2010 redistricting cycle was the first cycle in which the ACS 
estimates provided the Census Bureau's only citizen voting-age 
population data. The Department and State and local jurisdictions 
therefore have used those ACS estimates for this redistricting cycle. 
The ACS, however, does not yield the ideal data for such purposes for 
several reasons:
  --Jurisdictions conducting redistricting, and the Department in 
        enforcing Section 2, already use the total population data from 
        the census to determine compliance with the Constitution's one-
        person, one-vote requirement, see Evenwel v. Abbott, 136 S. Ct. 
        1120 (Apr. 4, 2016). As a result, using the ACS citizenship 
        estimates means relying on two different data sets, the scope 
        and level of detail of which vary quite significantly.
  --Because the ACS estimates are rolling and aggregated into 1-year, 
        3-year, and 5-year estimates, they do not align in time with 
        the decennial census data. Citizenship data from the decennial 
        census, by contrast, would align in time with the total and 
        voting-age population data from the census that jurisdictions 
        already use in redistricting.
  --The ACS estimates are reported at a 90 percent confidence level, 
        and the margin of error increases as the sample size--and, 
        thus, the geographic area--decreases. See U.S. Census Bureau, 
        Glossary: Confidence interval (American Community Survey), 
        available at https://www.census.gOv/glossary/#term_
        ConfidenceintervalAmericanCommunitySurvey (last visited 
        November 22, 2017). By contrast, decennial census data is a 
        full count of the population.
  --Census data is reported to the census block level, while the 
        smallest unit reported in the ACS estimates is the census block 
        group. See American Community Survey Data 3, 5, 10. 
        Accordingly, redistricting jurisdictions and the Department are 
        required to perform further estimates and to interject further 
        uncertainty in order to approximate citizen voting-age 
        population at the level of a census block, which is the 
        fundamental building block of a redistricting plan. Having all 
        of the relevant population and citizenship data available in 
        one data set at the census block level would greatly assist the 
        redistricting process.
    For all of these reasons, the Department believes that decennial 
census questionnaire data regarding citizenship, if available, would be 
more appropriate for use in redistricting and in Section 2 litigation 
than the ACS citizenship estimates.
    Accordingly, the Department formally requests that the Census 
Bureau reinstate into the 2020 Census a question regarding citizenship. 
We also request that the Census Bureau release this new data regarding 
citizenship at the same time as it releases the other redistricting 
data, by April 1 following the 2020 Census. At the same time, the 
Department requests that the Bureau also maintain the citizenship 
question on the ACS, since such question is necessary, inter alia, to 
yield information for the periodic determinations made by the Bureau 
under Section 203 of the Voting Rights Act, 52 U.S.C. Sec. 10503.
    Please let me know if you have any questions about this letter or 
wish to discuss this request I can be reached at (202) 514-3452, or at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="85c4f7f1edf0f7abc2e4f7fcc5f0f6e1eaefabe2eaf3ab">[email&#160;protected]</a>

Sincerely yours,

Arthur E. Gary
General Counsel
Justice Management Division

    Senator Schatz. Okay. Let's move on.

                 OPIOID EPIDEMIC AND MEDICAL MARIJUANA

    I really appreciate what you're doing on opioids, and I am 
especially pleased that this subcommittee and others are 
working in a bipartisan fashion to solve this problem. And I 
want you to interpret the following line of questioning not in 
an adversarial way.
    I want to ask you about medical marijuana, and I want to 
tell you that I'm the son of a principal investigator, and I 
came to the question of medical marijuana with great 
skepticism. But, there are credible scientific studies that 
show that, where medical marijuana is legal, opioid overdose 
deaths have gone down. And these studies are published in the 
Journal of the American Medical Association and the RAND 
Corporation, with the input from the National Institute on Drug 
Abuse.
    The opioid epidemic is a major crisis. And I'm wondering 
whether you think, given your history as a successful 
conservative politician with a certain set of beliefs about 
marijuana, in particular, whether, given two things happening 
at once--there's all kinds of new data that shows an inverse 
correlation between the availability of medical marijuana and 
opioid deaths and opioid prescriptions and opioid illegal 
activity, and your commitment to try to reduce this opioid 
epidemic--do you have at least an aperture to look at these 
data and reconsider your opposition to medical marijuana and 
marijuana in general?
    Attorney General Sessions. Medical marijuana, as one 
physician told me, whoever heard of taking a medicine when you 
have no idea how much medicine you're taking and ingesting it 
in the fashion that it is, which is, in itself, unhealthy. 
However, I think there can be--there may well be some benefits 
from medical marijuana, and it's perfectly appropriate to study 
that. I do not believe, at this point, that--I think one study 
that suggested there's no--that there's some sort of inverse 
relationship between increased marijuana use and reducing of 
deaths. I did see that. I've asked my staff to take a look at 
it, because science is very important. And I don't believe that 
will be sustained, in the long run. The American Medical 
Association is absolutely resolutely opposed to marijuana use. 
I think so is the Pediatric----
    Senator Schatz. Mr. Attorney General----
    Attorney General Sessions [continuing]. Association. 
They've----
    Senator Schatz. Sure. My final----
    Attorney General Sessions [continuing]. Studied it over 
years. So, it's a matter of science. And----
    Senator Schatz. Sure.
    Attorney General Sessions [continuing]. I think we should--
--
    Senator Schatz. My final question----
    Attorney General Sessions [continuing]. Be free to discuss 
it.
    Senator Schatz. My final question. The DEA, in August of 
2016, called for applications to produce more federally-
approved research-grade marijuana. Since then, the Department 
of Justice has received 25 applications, but none of them have 
been responded to either with an approval or denial. What is 
the status of those applications?
    Attorney General Sessions. We are moving forward, and we 
will add--fairly soon, I believe, the paperwork and reviews 
will be completed, and then we will add additional suppliers of 
marijuana under the controlled circumstances. But, there is--a 
lot of people didn't know, I didn't know--a treaty--
international treaty of which we are a member, that requires 
certain controls in that process. And the previous proposal 
violated that treaty. We've now gotten language I believe 
complies with the treaty and will allow this process to go 
forward.
    Senator Schatz. If the Chair will indulge me, one final 
comment.
    We're all evolving on this issue, some quicker than others, 
maybe some too quick. And I really believe that we have to do 
this in the proper way. I think there are good civil rights 
reasons for decriminalizing and for pursuing a Federalist 
approach around this. But, if we're narrowly addressing the 
question of whether or not this is medicine, then we do need 
the Department of Justice, the FDA, and everybody to work 
together to pursue that question, double-blind studies and all. 
And I also think that we need to understand we are in a 
humanitarian crisis when it comes to the opioid epidemic, which 
means that we may have to cast aside some of the things that 
we've believed all of our lives as it relates to other drugs 
and look at harm reduction. I appreciate you keeping an open 
mind along those lines.
    Thank you.
    Attorney General Sessions. Thank you, Senator Schatz.
    Senator Moran. Senator, thank you.
    Senator from Oklahoma, Senator Lankford.
    Senator Lankford. Thank you, Mr. Chairman.
    Let me add to that conversation a little bit before we--
before I jump into a line of questions.

                           MEDICAL MARIJUANA

    I am one of the skeptical individuals that, so far, has not 
evolved on this issue of marijuana. I have a hard time 
believing that, if only more of our parents smoked more 
marijuana, our kids would be so much better and our families 
would be so much better, and employment would be so much better 
if more of our employees smoked more marijuana. I just have a 
hard time believing that.
    And, as far as medicinal issues, this is an area the NIH 
has done active work on. And NIH is--currently has several 
billion dollars that the Appropriations Committee has allocated 
to them to be able to study pain medications that are 
nonaddictive, to try to address that. And that was entirely 
appropriate to do. We have an opioid epidemic. I'd rather not 
swap an opioid epidemic with addiction to marijuana and just 
say we solved the problem. We didn't solve the problem, long 
term.
    And so, I'd love to be able to continue to maintain this. 
There are ways to be able to manage all kinds of different 
things to be able to manage pain. But, my preference would be 
that our Nation doesn't become more and more addicted to 
marijuana to be able to solve our opioid addiction.

                           ATF REORGANIZATION

    With that, let me mention a couple of things. Budget 
related. You have made some recommendations on combining some 
entities and moving some things around, specifically with ATF. 
And I'd like to get a chance to talk to you a little bit more 
about that. What proposals are you making with ATF, in 
particular, to be able to work on some efficiencies?
    Attorney General Sessions. Well, the Alcohol, Tobacco, and 
Firearms originally came out of the Department of Treasury. And 
when--because revenuers collected revenue, the old moonshining-
chasing ATF guys collected--because you weren't paying taxes on 
your moonshine. So, that's the history of it. But, over the 
years, ATF has shifted far more to being the front-line agents 
on violent crime, bombs, explosives, arson, and firearms. So, 
that's where the trend has gone. So, this agreement, I think, 
is a smart one. It moves the tax part of ATF that still exists 
back to Treasury and keeps a leaner, more focused ATF on 
firearms and explosives in the Department of Justice.

              BUREAU OF PRISONS AND COMPONENT REALIGNMENT

    Senator Lankford. How long do you think it would take to 
make that transition?
    Attorney General Sessions. I think we could do it within 
the year, and we would expect to, if Congress would approve it. 
ATF has accepted it. The--their leadership is supportive. So, I 
believe it's something that would be good, be efficient, and a 
smart realignment of resources.
    Senator Lankford. Okay. Any other areas of realignment of 
resources that you'd recommend with DEA, ATF, FBI, any of 
those, as well, that you would recommend that are similar to 
that?
    Attorney General Sessions. Well, we've made a number of 
recommendations for consolidation in the Bureau of Prisons. 
We've made some within some of the regional offices of 
Community Relations Service. We've had a number of other 
changes that we are proposing.
    Senator Lankford. All right. Well----
    Attorney General Sessions. We believe that every dollar 
that we can properly expend at the point of the spear 
effectively carrying out the taxpayer desire rather than 
feeding a bureaucracy is good for America. And that's our goal.

                       ATF AND FBI INVESTIGATIONS

    Senator Lankford. Okay. That would be helpful.
    Your predecessor, Eric Holder, and I had multiple 
conversations over several years about an issue between ATF and 
FBI and their processes of how they actually do an 
investigation. FBI has one set of processes, ATF has another 
set of processes. It came out most evident during the Fast and 
Furious time period, around 2010 and 2011, when there was a 
close examination of the processes that ATF went through to be 
able to do that investigation for Fast and Furious, and the FBI 
agents immediately stepped out and said, ``We would never be 
allowed to do what ATF did.'' So, during that time period, a 
lot of conversations that I had with Eric Holder was, Is there 
a study to be able to look at and try to figure out if these 
two processes need to be aligned, if ATF needs to have more 
similar structure to what FBI does? How does that work? Eric 
Holder, over and over again, told me, year after year, ``We're 
going to take a look at it. We're going to take a look at it,'' 
but I don't think they ever did. I never got a report back to 
try to finalize that. Could you help us take a look at that 
again? This is not trying to hurt ATF, but trying to figure 
out, if we've got good, established processes, why do we have 
two different sets of processes in two different entities 
there?
    Attorney General Sessions. I would be glad to discuss----
    Senator Lankford. Great.
    Attorney General Sessions [continuing]. That with you and 
see if--what kind of problems exist. I don't think there are 
any process--processes that should have justified Fast and 
Furious, where assault weapons are allowed to walk----
    Senator Lankford. Right.
    Attorney General Sessions [continuing]. As we call it, 
across the border to----
    Senator Lankford. Well, that was the number-one thing I 
heard from FBI----
    Attorney General Sessions. So, I don't know what--how that 
happened yet. I know you've dug into it as--probably as deeply 
as anybody in Congress. So, thank you for that.
    Senator Lankford. Okay.

                           CRIME VICTIMS FUND

    Let me ask one more strange question. Are we out of crime 
victim needs? So, the Crime Victims Fund is out there. It has 
about $10 billion sitting in it. Do we have that fully 
established, all crime victim issues are taken care of, and we 
don't need to allocate additional dollars towards that area?
    Attorney General Sessions. No.
    Senator Lankford. Well, that $10 billion has sat there and 
has been used as what's called a Changes in Mandatory Program, 
year after year.
    Attorney General Sessions. CHIMPS.
    Senator Lankford. And it's had this fake spending, year 
after year. I did notice, in your budget, that you're 
recommending that we not use that as a pay-for, that we set a 
ceiling on that spending, save that money for crime victims, 
and not try to shift that over to somewhere else.
    Attorney General Sessions. Our budget would eliminate that 
procedure. It's something I've opposed, but it's stuck. It's 
been--perhaps as a Member of this subcommittee, something might 
happen. But, it is a--it's something that's continued for a 
long time. We propose fixing that problem.
    Senator Lankford. Well, I met yesterday with a group of 
crime victims, and they had a real concern that that money is 
used, not for crime victims, but is used for a gimmick in 
Congress. And they'd love to see that money actually go to 
crime victim organizations and uses for that.
    With that, I yield back.
    Senator Moran. Senator, thank you.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. And 
congratulations to you. Look forward to working with you and 
the Ranking Member and others.
    Mr. Attorney General, welcome.

                                  DACA

    And I want to associate myself with the comments of Senator 
Collins with respect to DACA. And that's obviously part of an 
ongoing discussion, but we've got to address this critical 
issue.

                      ROLE OF THE PARDON ATTORNEY

    We all have an interest in protecting the integrity of the 
Justice Department. And, as a Member of the Senate Judiciary 
Committee, you made a statement at a hearing that I thoroughly 
agree with. And I'm quoting, ``The power to pardon is a 
legitimate power. It is one that ought to be exercised with 
great care.'' And then you end it, saying, ``I believe in the 
role of the Pardon Attorney,'' unquote. The Pardon Attorney is 
an office within the DOJ, is it not?
    Attorney General Sessions. It is a position in the 
Department of Justice.
    Senator Van Hollen. And can you think of any pardon, during 
the 8 years of the Obama administration, that did not go 
through the Office of the Pardon Attorney?
    Attorney General Sessions. I don't recall. I know the--a 
number did during the Clinton administration.
    [The information follows:]

    At the hearing on April 25, 2018, Senator Van Hollen asked: ``[C]an 
you think of any pardon during the 8 years of the Obama administration 
that didn't--that did not go through the Office of the Pardon 
Attorney?'' I was unable to recall during the hearing. I have since 
researched the matter and would like to supplement my testimony with 
the following answer:

          The Constitution provides the President with plenary power to 
        grant clemency by way of commutation, pardon, or remission of 
        restitution. The Office of the Pardon Attorney is a Department 
        of Justice component that processes clemency applications for 
        the President. There is, however, no requirement that the 
        President only grant clemency to individuals whose applications 
        have been processed by the Pardon Attorney. Senator Van Hollen 
        asked whether President Obama pardoned any individuals whose 
        applications were not processed by the Pardon Attorney. Based 
        on information provided by the Pardon Attorney, it is my 
        understanding that the Pardon Attorney did not process 
        applications for four Iranians (Nima Golestaneh, Bahram 
        Mechanic, Khosrow Afghahi, and Tooraj Faridi) who were pardoned 
        by President Obama in January of 2016.

    Senator Van Hollen. I--starting with the Obama 
administration.
    Attorney General Sessions. Okay.
    Senator Van Hollen. Two terms, 8 years.
    Attorney General Sessions. I don't----
    Senator Van Hollen. I don't think there was one.
    Attorney General Sessions. I don't know, actually.
    Senator Van Hollen. And I don't think there was a single 
pardon during the presidency of George W. Bush that did not go 
through the Office--the Pardon Office. And, you're right, the 
comment you made was in connection with pardons made by 
President Clinton. But, my question to you is, Do you stand by 
that statement that you made, back during that hearing, that 
the Pardon Attorney ought--the pardon power ought to be 
exercised with great care, and that you believe in the role of 
the Pardon Attorney in that process? Do you stand by that 
statement?
    Attorney General Sessions. I don't think that statement 
needs modifying, but it's obviously in context that the 
President of the United States clearly has a constitutional 
power to----
    Senator Van Hollen. I understand, Senator.
    Attorney General Sessions [continuing]. Execute pardons----
    Senator Van Hollen. I----
    Attorney General Sessions. Let me finish.
    Senator Van Hollen. No----
    Attorney General Sessions [continuing]. Execute pardons 
without inquiring of the Pardon Attorney.
    Senator Van Hollen. And I'm not----
    Attorney General Sessions. It's been done very frequently 
in history.
    Senator Van Hollen. Well, Mr. Attorney General, I'm not----
    Attorney General Sessions. But, we do have a----
    Senator Van Hollen. Mr. Attorney General--Mr. Chairman, if 
I could--Mr. Chairman--I'm not disputing the President's pardon 
authority. I'm----
    Attorney General Sessions. Well----
    Senator Van Hollen [continuing]. Actually--I'm just 
quoting--
    Attorney General Sessions. Well, let----
    Senator Van Hollen [continuing]. A statement you made that 
I agree with----
    Attorney General Sessions. I'll----
    Senator Van Hollen [continuing]. With respect to the role 
of the Pardon Attorney. And, at the time, you made comments in 
the hearings, saying that not going through that process was an 
abuse of power. So, my question to you is whether or not you 
think not going through the Pardon Attorney is an abuse of the 
power--not an unauthorized power, but do you think it's an 
inappropriate use of that power?
    Attorney General Sessions. I don't know that I used that 
phrase, ``abuse of power,'' because it's clearly not. It's 
clearly within the power of the President to execute pardons 
without the Pardon Attorney. If you're doing a lot of pardons, 
and you want to have a lot of cases, and you want to have them 
reviewed by independent force, the Pardon Attorney provides a 
real asset to a chief executive before executing a pardon.
    Senator Van Hollen. Did the pardon of Sheriff Joseph Arpaio 
go through the Pardon Attorney Office?
    Attorney General Sessions. I don't believe it did.
    Senator Van Hollen. Yes. Did the----
    Attorney General Sessions. Certainly----
    Senator Van Hollen [continuing]. Pardon of Scooter Libby go 
through that----
    Attorney General Sessions. The----
    Senator Van Hollen [continuing]. Office?
    Attorney General Sessions. I don't believe it did.
    Senator Van Hollen. Okay. But, do you agree with what you 
said earlier, that that is the appropriate course of action for 
a pardon? I'm not asking you what the President's authority is. 
I'm asking you what you think the appropriate course of action 
is to make sure that the public has confidence in the integrity 
of the process.
    Attorney General Sessions. There are opportunities that the 
Pardon Attorney can be utilized very effectively, and it has 
been, over time. But, I don't think it's in any way required 
that any President seek the opinion of----
    Senator Van Hollen. It's not a----
    Attorney General Sessions [continuing]. The Pardon 
Attorney.
    Senator Van Hollen [continuing]. Requirement. I'm just--
you're--I'm quoting from the statement you made, saying it was 
abuse of process in a particular case made by President 
Clinton.
    Let me ask you about something else that I also think we 
agree on, in part, which----
    Attorney General Sessions. Well, I would just say, the 
pardons President Clinton made were stunning, shocking, and 
unacceptable on the merits.
    Senator Van Hollen. And----
    Attorney General Sessions. But, the two--Arpaio was 80-some 
years of age, and he was convicted of a misdemeanor.
    Senator Van Hollen. Mr. Attorney General, I'm not----
    Attorney General Sessions. And Mr. Libby is a well known--
--
    Senator Van Hollen. In both cases----
    Attorney General Sessions [continuing]. Circumstances of 
that case.
    Senator Van Hollen. In both cases, as you know, they did 
not go----
    Attorney General Sessions. He contributed greatly to----
    Senator Van Hollen [continuing]. Through what you described 
was the appropriate process.

        NATIONAL PUBLIC SAFETY PARTNERSHIP AND CITY OF BALTIMORE

    Let me ask you about the National Public Safety 
Partnership, PSP, which is a program established by the 
administration to help fight violent crime, one that I support. 
The City of Baltimore was invited to apply in a letter from the 
Justice Department, back in 2017. The Justice Department said 
to the City, ``We've concluded that your jurisdictions have 
levels of violence that exceed the national average, and that 
you're ready to receive the intensive assistance from the 
Department.'' Then they got these three criteria that were 
listed by the Department with respect to what you refer to as 
sanctuary cities. And the City's application was denied.
    Here's what I want to say at this point in time. Baltimore 
City does not have jurisdiction over the detention centers in 
Baltimore City. That's a State of Maryland decision. So, we may 
have differences on the criteria you set out with. And, as 
Senator Shaheen said, the Seventh Circuit has reviewed this, 
and I think those decisions are going to apply also to your 
criteria in the National Public Safety Partnership Program. 
But, setting that aside, I hope you'll work with me on this--
Baltimore City. We have a violent crime problem, and the City 
of Baltimore does not have--the laws are State laws regarding 
DHS as--the access of the Department of Homeland Security to 
their jails. So, I'd just ask for your commitment to see if we 
can look for a way to see if they can qualify for the funds.
    Attorney General Sessions. I would be glad to do that. We 
have had some--I think more than one--at least one circumstance 
in which the jail was run by somebody else other than the 
jurisdiction that appeared to be. So, that created a problem 
and actually led to the approval on the grant. So, I'll be glad 
to look at that.
    Senator Van Hollen. Thank you.
    Senator Moran. Senator, thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. And, to both 
you and the Ranking Member, know that I look forward to working 
with you as you execute this appropriations bill through your 
committee and move it onto the floor. Look forward to that 
commitment.
    Mr. Attorney General, it's good to see you again. Thank you 
for the conversation last week.

                         MARIJUANA LEGALIZATION

    I wanted to raise again with you the subject of marijuana. 
Alaska is one of those States that has moved forward, not only 
with the medical marijuana, but also the sale and cultivation 
of recreational use, a very aggressive State regulation. This 
was not something that I had supported through that statewide 
initiative. In fact, I worked against it. But, it was passed 
resoundedly through the State. My constituents expect me to 
work to represent them.

                          ALASKA H.J. RES. 21

    Mr. Chairman, I'd like unanimous consent to enter into the 
record a resolution that was recently passed by the Alaska 
Legislature.
    Senator Moran. Without objection.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Murkowski. This is H.J. Res. 21. It was passed 
unanimously out of both houses, and it urges the Federal 
Government to respect the authority of the State of Alaska to 
regulate marijuana use, production, and distribution, and 
generally respect States' rights.
    Mr. Attorney General, we have talked about this in the 
aftermath of your decision to withdraw the Cole Memorandum. I 
had been disappointed with that, and expressed that I was 
concerned that the Department of Justice was less than a full 
partner with the States. I do understand that the White House 
has expressed support for legislation that will respect State 
supremacy when it comes to regulation, in the spirit of 
Federalism. I think that that--the comments that were made by 
my colleague from Hawaii, in terms of Members evolving on this, 
is important, but I do think, as we're seeing the States move 
forward, legislation like this is timely.
    The States are telling us, though, that they need the 
Department of Justice to be a partner in the orderly 
administration of States' regulatory regimes, and not standing 
in the way as an obstacle. So, I would--I understand your 
position on this. Again, we've had many conversations. But, I 
would hope that we could have your assurance that, within the 
Department of Justice, that the Department will not be an 
obstacle to the consideration of this sort of legislation that 
may move forward.
    Attorney General Sessions. Well, I can't make a commitment 
about what position we would take at this time, until we know 
exactly what's involved. But, it's not so much on a question of 
supremacy as a question of simple law. Alaska can pass laws 
about drugs that make certain drugs illegal that Washington 
does not make illegal and, therefore, can't be prosecuted in 
Federal court, but could be in Alaska. Likewise, the Federal 
Government has passed some laws regarding marijuana that I'm 
not able to remove from the books. The Congress--you--have 
passed them. They're on the books. And I just feel like that 
our priorities--look, I'll be frank--our priorities are 
fentanyl, heroin, methamphetamine, cocaine. People are dying by 
massive amounts as a result of those drugs. We have very few, 
almost zero--virtually zero small marijuana cases. But, if 
they're a big dealer and illegally acting and violating Federal 
law, we--our Federal agents may work that case. I don't feel 
like I'm able to give a pass, some protection, some sanctuary 
for it. That's maybe the only difference we have at this point 
on how----
    Senator Murkowski. And I----
    Attorney General Sessions [continuing]. It will play out.
    Senator Murkowski [continuing]. I do understand that. 
Again, I recognize that, if there is a venue or an opportunity 
for us to advance legislation on this, that there is that open 
door for conversation about, truly, the inherent conflicts that 
we're seeing coming out of the States and working with--on the 
Federal level.
    Let me ask you another----
    Attorney General Sessions. I would be glad to do that.

                        TRIBAL JUSTICE PROGRAMS

    Senator Murkowski [continuing]. Another issue that I raised 
with you earlier. And this is regarding support for Tribal 
justice programs. In the fiscal year 2018 budget, we were able 
to include a funding stream for victims of violent--Victims of 
Crime Act funds for Tribes. It's a set-aside--it's a 5 percent 
set-aside. It's about $130 million to help for victims on 
Tribal lands. We had completed a study in Alaska--well, 
actually, it was a broader study, it was a 2016 study from the 
National Institute of Justice. More than four out of five 
Alaskan Native and American Indian women report having 
experienced violence in their lifetime. More than half report 
having experienced sexual violence in their lifetime. Nearly 40 
percent have experienced violence in the past year, 14 percent 
who have experienced sexual violence in the last year. Our 
statistics when it comes to Alaskan Native women and American 
Indian women are horrible when it comes to domestic violence, 
when it comes to the sexual assault. And so, I think that we 
are making a small step forward with this small set-aside--
small set-aside--and first time ever to see anything going 
towards those on Tribal lands and in Alaska, where we have 
different issues, in the sense of not having Indian country, 
but a recognition that we must address this. So, 5 percent, I 
would like to see that increased. I would hope that we'd be 
able to work with the Department of Justice to address this 
issue, because we have not made a difference in reducing these 
horrible statistics.
    Attorney General Sessions. Senator Murkowski, thank you, 
actually, for raising that. I'm hearing--I heard that before I 
was confirmed. You and I talked about it. I've traveled the 
country, meeting with U.S. Attorneys. I hear it a lot in their 
districts. Just came back from Albuquerque, and we talked about 
the Navajo Tribal lands and the problems that they have.
    This budget, the President's budget, actually is frugal 
compared to--it's a frugal budget, but it has more for Tribal 
issues than the--even your 2018 budget. And it does it the way 
you suggested, through set-asides. A 7 percent set-aside is 
recommended for the Office of Justice Programs. All those 
programs, 7 percent would be set aside for Tribal individuals 
and 5 percent of the Crime Victims Fund. I believe Congress has 
not yet got to those numbers.
    But, I do agree with you that it is a very difficult 
situation, and Alaska has a particularly unusual situation 
without having specific Tribal lands that receive specific 
funds from the Government. So, I will be glad to continue to 
work with you on it.
    Senator Murkowski. Good. And that's why so many of these 
funds, whether it's the Byrne grants, the VAWA funding, the DNA 
backlog, the Victim of Crime Act, the Crimes Against Children, 
all of these grant fund opportunities are so significant for 
us. So----
    Attorney General Sessions. I did----
    Senator Murkowski [continuing]. Put that on your list.
    Attorney General Sessions. Let me--okay. I would note that, 
just yesterday, I had a meeting with your United States 
Attorney in--here in DC--Bryan Schroder. He's on our--my 15-
member Attorney Generals Advisory Committee. And he and U.S. 
Attorney from Oklahoma--northern Oklahoma--chair the 
Subcommittee on Indian Affairs. And they--we both talked about 
this specifically--they would like to see us do some things 
better than we have in the past. They're providing strong 
leadership. And I know he'll be glad to share his thoughts with 
you or your staff.
    Senator Murkowski. Good. They're good guys. Thank you.
    Thank you, Mr. Chairman.
    Senator Moran. Thank you, Senator.
    Senator from California, Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    And welcome back, Attorney General. I'm sure you've missed 
us terribly.
    [Laughter.]

             DEFERRED ACTION FOR CHILDHOOD ARRIVALS (DACA)

    Senator Feinstein. I want to follow up on something that 
Senator Collins said. Senator Collins and Senator Manchin 
essentially convened a large group of bipartisan Senators on 
the DACA situation to try to see if some proposal could be put 
together. Virtually everything went down on the floor. And, in 
conversations since, what I've learned is that, in negotiations 
with the President, Senator Schumer tried to consummate a deal, 
where the President essentially got what he wanted with respect 
to border security if the DACA bill went through. Well, that 
was clearly not successful. You referred to certain loopholes, 
in your conversation with Senator Collins. I'm wondering if you 
could be more precise, because we are really very interested 
and involved in trying to find a solution.
    Attorney General Sessions. Well, thank you. Your support 
for this would be very important. I think there's a bipartisan 
opportunity to join together and say, once and for all, we 
believe we should have a lawful system of immigration, and 
we're going to support things that actually work to help 
achieve that. I've not so jokingly said, for years, Congress 
will pass anything on immigration, as long as it doesn't work. 
If it works, somehow it never passes. But, we've got the Flores 
consent decree that's been in place for 20 years, that's 
causing monumental problems, particularly in California. We 
have the situation where you say, as the critics say, magic 
words and you're in, backlog case systems, people get released 
on bail, they don't show up for their hearings, and all of 
that. There's a whole host of problems like that, that I think 
most of----
    Senator Feinstein. DACA----
    Attorney General Sessions [continuing]. Members of Congress 
of both parties would probably work to fix.
    Senator Feinstein. Well, is it the number? In the number--
in the bill that Senator Graham and Senator Durbin were 
cosponsors of, I think the total number was 3.3 million. Was 
that the problem----
    Attorney General Sessions. That is a big----
    Senator Feinstein. I don't----
    Attorney General Sessions [continuing]. Number. Yes, 
that's----
    Senator Feinstein [continuing]. Believe the problem----
    Attorney General Sessions [continuing]. A problem.
    Senator Feinstein [continuing]. Was in the bill, because it 
was discussed and discussed and discussed, and then it all came 
a cropper in the votes. So, it would be very helpful if you 
could be helpful to us and just identify some specifics that we 
could look at and try to put something together.
    Attorney General Sessions. Well, I think that's----
    Senator Feinstein. Would you do that?
    Attorney General Sessions [continuing]. That's certainly a 
fair request, yes----
    Senator Feinstein. Okay.
    Attorney General Sessions [continuing]. I will.
    Senator Feinstein. Okay.

                              BUMP STOCKS

    Let me go on, then, to bump stocks. DOJ recently started 
the rulemaking process to ban bump stocks under the National 
Firearms Act. And I have it in my assault weapons bill, which 
has some 29-30 cosponsors right now. But, ATF has said, for 
years, it can't ban bump stocks because the National Firearms 
Act doesn't allow it. ATF repeated this position in April of 
2017, and has repeatedly stated in public that ATF cannot ban 
bump stocks under current law. That's why we have proposed 
legislation to do so. How long do you expect this rulemaking to 
take? And if you find out what we found out, will you support a 
legal ban?
    Attorney General Sessions. I would need to review the 
legislation, but we have done intensive legal research. It 
always seemed to me that a bump stock converts a gun to, 
effectively, a fully automatic weapon. How can this be a close 
call? However, I acknowledge that the lawyers at ATF did a lot 
research. It's a lot of complicated--it's a complicated matter. 
And they concluded it was not. And we've continued to review 
that. We believe we've changed that view in the Department of 
Justice. And we believe the regulation could be effective to 
solve the problem. And it's up for comment now, made public. 
Hopefully, that would move forward and would solve the problem.
    Senator Feinstein. By when do you expect the rulemaking 
will conclude?
    Attorney General Sessions. I think it won't be much longer. 
I'm not sure, but I think in just a few months--90 days, I 
believe, is what's left on the----
    Senator Feinstein. Okay.
    Attorney General Sessions [continuing]. Time.
    Senator Feinstein. Thank you.

 FBI NATIONAL INSTANT CRIMINAL BACKGROUND CHECK SYSTEM (NICS) DATABASE

    The Justice Department announced a policy change, 1 month 
ago, indicating that it would remove records of certain 
fugitives from the FBI's NICS gun background check databases. 
Now, previously, all fugitives were recorded in the NICS 
database so they couldn't buy guns. Now only fugitives who 
cross State lines are included in the database. I understand 
that local law enforcement organizations have strongly opposed 
the change. It's puzzling to me as to why the Department would 
do that, why you would want armed fugitives.
    Attorney General Sessions. Well, the issue I'm most 
familiar with is the one involving whether or not a warrant for 
your arrest, and a person is, therefore, a fugitive if they're 
running from arrest, but haven't been convicted. The statute is 
pretty clear, you have to be convicted before you can have a 
gun--your Second Amendment right to possess a----
    Senator Feinstein. Even in the----
    Attorney General Sessions [continuing]. Firearm.
    Senator Feinstein [continuing]. Case that the fugitive had 
committed a major felony?
    Attorney General Sessions. Apparently, that is the law. In 
other words, you lose your right if you've----
    Senator Feinstein. These are----
    Attorney General Sessions [continuing]. Been convicted----
    Senator Feinstein [continuing]. Fugitives who----
    Attorney General Sessions [continuing]. Of----
    Senator Feinstein [continuing]. Crossed State lines. I 
don't understand what the Department sees is the need to do 
this.
    Attorney General Sessions. Well, I am--I would just--
    Senator Feinstein. Why----
    Attorney General Sessions [continuing]. Say I will review 
the State----
    Senator Feinstein [continuing]. Has me worried.
    Attorney General Sessions [continuing]. Line question. I 
should know--be able to answer that, but I'm not able to. But, 
I do know the warrant problem is a product of statutory 
language.
    Senator Feinstein. Okay. I'm over my time.
    Thank you, Mr. Chairman.
    Senator Moran. Thank you, Senator Feinstein.
    Senator from Arkansas.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Moran. I--no, it's--I'm correct.
    Senator Boozman. Thank you, Mr. Chairman.
    And thank you, Attorney General Sessions, for being here. 
And we do appreciate your hard work and the great job that 
you're doing.
    Attorney General Sessions. Thank you.

                            BYRNE JAG GRANTS

    Senator Boozman. I'd like to talk a little bit about the 
Byrne JAG, also, in the sense that in Arkansas we are doing a 
good job of helping you in your efforts regarding following the 
law, you know, being helpful. As I go around the State, though, 
and I talk to my county sheriffs, I talk to my local law 
enforcement and individuals regarding the importance of this, 
this is not a whole lot of money, but it really is the 
difference in being able to stand up the Drug Task Force forces 
that they have. You know, these are small departments. I'm out 
and about as much as anybody, as were you when you were a 
Senator representing your folks. But, when you talk to the 
people that are on the ground, again, not having this funding 
really is making a big difference in a very negative way. Can 
you talk about, for those States, for those individuals that 
are doing a good job, when it's going to get released?
    Attorney General Sessions. Senator Boozman, it's just 
maddening to us that people who totally support our ICE 
officers and allow them to do the minimal things they ask of 
local law enforcement can't get this money. So, what happened 
was, a suit was filed in Chicago that said that they may or may 
not be in violation of our grant conditions. And they not only 
wanted to block us from denying Chicago, they denied the 
whole--the judge issued a nationwide injunction. And Chicago's 
law and circumstances are unique. All these other people who 
comply with the Department of Justice, all the other people 
that have other and different laws and backgrounds, are 
enjoined by the same single Federal judge, one out of 600. Now 
the whole process is stopped. And law enforcement has been 
impacted. And we are determined to try to deal with this issue 
in an appropriate way.
    It's painful for me not to see the money go out, 
particularly to the people who want to help us and work with us 
every day. But, they've been pretty supportive and 
understanding, I've got to say, although I know it's difficult 
for them. So, I hear you. We're working on it. It's a high 
priority of mine.
    Senator Boozman. Okay. We appreciate that. And it is 
important, an important issue.

                              DRUG COURTS

    Another thing that I'd like to talk to you a little bit 
about is the--when we look at the fiscal year 2019 budget 
request, it will reduce the Drug Court funding by more than 40 
percent, reduce Veterans Treatment Courts by 70 percent. When 
you look at the recidivism rate as a result of being in Drug 
Court, it's dramatically lower than those people being 
incarcerated. Also, when you put somebody in jail--they're 
required to work when they're in Drug Court, but when you put 
somebody in jail, not only are you--you're--the recidivism rate 
and all that, but also the family is going to wind up probably 
on some sort of public welfare assistance because you've lost 
an income earner. And so, I'd really appreciate it if you'd 
look at that and--just kind of review that, look at the 
statistics. I think those programs--if there's an answer, 
instead of reducing those programs, I think they should be 
increased dramatically.
    Attorney General Sessions. Well, Congress works its will. 
And the--we have a tight budget, and we--but, I do agree with 
you, Senator Boozman. I helped initiate the----
    Senator Boozman. Right.
    Attorney General Sessions [continuing]. Establishment of a 
Drug Court in Mobile, Alabama, in the early 1980s----
    Senator Boozman. Right.
    Attorney General Sessions [continuing]. One of the first in 
the country. And it's still in existence. And I think it's a 
positive thing, in general. I've kept up with it over the 
years. It's--it deals with the kind of State cases that are 
often--are smaller offenders, addicted offenders, single 
mothers, single fathers, whatever, that it's just a difficult 
time. And some of them can work their way through that Drug 
Court and stay with their families and save the cost of 
incarceration.
    Senator Boozman. You're exactly right. And, again, have to 
work, have to stay clean, with a drug test, where the judge has 
the hammer, you know, to actually----
    Attorney General Sessions. Right.
    Senator Boozman [continuing]. Put them in prison. So----
    Attorney General Sessions. If they misbehave, the judge----
    Senator Boozman. Exactly.
    Attorney General Sessions [continuing]. They come before 
the judge repeatedly, and he addresses them directly. It has a 
real impact.
    Senator Boozman. Well, thank you very much.
    Thank you, Mr. Chairman----
    Attorney General Sessions. Thank you.
    Senator Boozman [continuing]. Madam Chair.
    Senator Shaheen [presiding]. Thank you, Senator Boozman.
    Senator Manchin. Yes, Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman.
    Thank you, Mr. Sessions. Good to have you here.
    Let me say, first of all, I want to thank you. We had a 
major drug raid, and you all were very much involved in that 
and made it happen, and I personally want to thank you for the 
State of West Virginia. It was a major drug raid between 
Detroit and Huntington, West Virginia. You all led it, you were 
involved in it. We had all agencies working together. It made a 
big, big impression. It made a big help on us. So, thank you 
for that, sir.
    Attorney General Sessions. Thank you.

                            BOP AUGMENTATION

    Senator Manchin. Also, I want to say that the Bureau of 
Prisons routinely uses a process known as augmentation to 
assign custodial duties to noncorrectional staff--teachers, 
plumbers, fill gaps in staffing, and all that. At the Hazelton 
Federal Corrections Center--Hazelton Federal Corrections Center 
in West Virginia--there have been over 60 major security 
incidents since the beginning of this year, including one 
inmate--inmate's death earlier this month. Now, I shot--fought 
to ensure that the recently passed omnibus bill included 
language directing the Bureau of--to curtail its over-reliance 
on augmentation, people who then have these types of 
experiences, and instead hire additional full-time correctional 
staff before continuing to augment existing staff. So, despite 
all this, the Director of Bureau of Prisons, Mr. Mark Inch, 
sent a memo out last week stating that, ``Augmentation is an 
important mechanism used by our agency to operate safely and 
efficiently.'' So, only thing I can ask, Mr. Sessions, is, What 
do we have to do to get Mr. Inch's attention in that and ask 
for some help?
    Attorney General Sessions. Well, the augmentation has gone 
on for a long time, Senator Manchin.
    Senator Manchin. Yes.
    Attorney General Sessions. And it's established policy. And 
everybody that participates in augmentation is supposed to, and 
I believe is, also trained, and they--in the incarceration 
management, number one.
    Senator Manchin. This is----
    Attorney General Sessions. So, I think----
    Senator Manchin. This is a tough one.
    Attorney General Sessions [continuing]. That this really--
--
    Senator Manchin. This is a tough prison.
    Attorney General Sessions. What?
    Senator Manchin. This is a tough prison, here.
    Attorney General Sessions. Well, facts could be different--
--
    Senator Manchin. Sure.
    Attorney General Sessions [continuing]. In different 
situations, but the augmentation program, to eliminate that 
would be highly expensive. I mean, you would have to hire 
entirely new guard for one person to spend 2 hours through the 
lunchroom helping----
    Senator Manchin. I gotcha.
    Attorney General Sessions [continuing]. Keep an eye on 
things.
    Senator Manchin. We're just understaffed. I think that's 
it, in a nutshell, in that prison, with the amount of 
population base we have. If you could just look into that, sir, 
and if your staff could give us the attention we need, then 
we'd be greatly appreciative, because they're having serious 
problems there. And the staff morale is low. We're having a 
hard time keeping people now because of the danger. That's all 
we're asking for.
    Attorney General Sessions. All right.
    Senator Manchin. And I know you will do that, and I 
appreciate it.

             FBI AGENT/POLICE PAY AND BENEFITS DISPARITIES

    I have another one, too, which is important. I'm proud to 
have FBI presence in Clarksburg, West Virginia. As you know, 
the NICS unit is there. This facility performs a wide variety 
of functions, such as housing the Criminal Justice Information 
System, where the FBI's National Instant Criminal Background 
Check System is located, working in conjunction with WVU, 
implementing the cutting-edge study of biometrics in the field 
of criminal justice, being a resource for law enforcement, 
cybersecurity, and combating cybercrime. In order to protect 
the important work conducted at these facilities, there are 
approximately 75 police officers assigned to the site in 
Clarksburg. Additionally, there are about 173 other officers 
serving at sites in Washington, DC, Quantico, Virginia, and New 
York City. Because of an inadvertent error committed while 
drafting the legislation intended to establish the FBI police 
force, these officers, these 70--they're not being--receiving 
the same pay and benefits that they are entitled to with what 
jobs they're doing. I think it's a snafu when all this was 
written.
    I mentioned this to Director Wray yesterday, so he knows it 
and his staff has it, but I wanted to also put it on your radar 
screen, sir. So, I would just like to have the--you know, your 
help, if you will, on this, because it's just an unfairness in 
the system. We've been trying to correct--and this was done in 
2002. We have the code, the section, everything else that--
whoever you want us to work with on your staff, too, to check 
that out, I'd be happy to do.
    Attorney General Sessions. Well, that's a reasonable 
request, and we'll follow up with Director Wray. And if we can 
be of assistance, we will.

                            OPIOID EPIDEMIC

    Senator Manchin. The opioid addiction that we have--and 
we've talked about this before--trying to change the law back 
to where the DEA can do its job--you and I have talked about--
--
    Attorney General Sessions. Right.
    Senator Manchin. I think we've given--and you were telling 
me you need the language from us to do that. Or do you have the 
ability to change that?
    Attorney General Sessions. I appreciate the conversations 
we've had on it. I thought we were--had reached an accord on 
the language. But, if not, I'll be glad to follow up and see if 
we can't get that done.
    Senator Manchin. Yes. Okay.
    Attorney General Sessions. I appreciate your interest and 
leadership on it.
    Senator Manchin. Well, we're ground zero. West Virginia is 
number one. We had 909 deaths, out of a population of 1,800,000 
people. So, we're just off the charts. And--but, your attention 
is going to be greatly appreciated, but it's helping immensely. 
This drug raid made a big difference. And we can do more.
    Attorney General Sessions. U.S. Attorney Mike Stuart is----
    Senator Manchin. Mike's----
    Attorney General Sessions [continuing]. So excited. I got a 
letter from him, and it reminded me when I was young U.S. 
Attorney----
    Senator Manchin. You got a----
    Attorney General Sessions [continuing]. But he was on 
steroids, I told him, compared to me. He was so excited.
    Senator Manchin. We've got a good guy there.
    Attorney General Sessions. He is really fired up to do--
make some changes there. And we're going to support him.
    Senator Manchin. Yes, he's well liked. He's well liked, and 
he'll do a good job. We're really proud to have Mike.
    Thank you, sir.
    Attorney General Sessions. Thank you.
    Senator Moran [presiding]. Senator from South Carolina, 
Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Mr. Attorney General, I think you're doing a very good job 
for the country, and many of us up here have your back, and I 
want you to know that.
    Attorney General Sessions. Thank you.

                 BUDGET REDUCTION FOR FISCAL YEAR 2019

    Senator Graham. As to the budget, it's a 6-percent 
reduction over fiscal year 2018 levels. Do you think now is the 
time to reduce the Department of Justice's budget, given the 
threats we face?
    Attorney General Sessions. Well, we submitted a frugal 
budget. It comes through the Office of Management and Budget, 
in trying to achieve a total number for the government.
    Senator Graham. Well, let me ask you----
    Attorney General Sessions. I would just follow up to say it 
was submitted before the 2018----
    Senator Graham. Okay.
    Attorney General Sessions [continuing]. Appropriations, and 
did, in fact, raise--spent--raise--helped us give us----
    Senator Graham. Yes.
    Attorney General Sessions [continuing]. Some money extra.
    Senator Graham. So, the money you got extra, you think you 
can spend it wisely to make----
    Attorney General Sessions. We're going to work very hard to 
do that.
    Senator Graham. Okay, thank you.
    Attorney General Sessions. Absolutely.

                              THE WIRE ACT

    Senator Graham. All right. The Wire Act, I know you've 
recused yourself from reviewing the Wire Act. Is that correct?
    Attorney General Sessions. That's correct.
    Senator Graham. I talked to Mr. Rosenstein about that, 
months ago. And Senator Feinstein--are very worried that this 
bizarre interpretation of the Wire Act by the Obama 
administration is going to lead to holy hell ungoverned spaces 
when it comes to Internet gambling. Could you please tell him 
to give me an answer. Or do I have to tell him?
    Attorney General Sessions. Deputy Rosenstein?
    Senator Graham. Rosenstein, yes.
    Attorney General Sessions. I will pass----
    Senator Graham. Okay.
    Attorney General Sessions [continuing]. Along your----
    Senator Graham. Okay. Other than----
    Attorney General Sessions [continuing]. Request.
    Senator Graham [continuing]. That one glitch, do you agree 
with me he's doing a good job?
    Attorney General Sessions. He works every day to do the job 
that he is called upon to do that got dropped in his----
    Senator Graham. Do you have confidence in him?
    Attorney General Sessions. I do have confidence in him.
    Senator Graham. I do, too. Thank you.

                             GUANTANAMO BAY

    Guantanamo Bay (GITMO). The President issued an executive 
order saying he would use GITMO when appropriate. Do you agree 
with that?
    Attorney General Sessions. Yes.
    Senator Graham. Do you think we're ever going to use it in 
my lifetime?
    Attorney General Sessions. Nobody--well, you and I have 
spent a lot of time working on it together, since I've been 
Attorney General and before.
    Senator Graham. Right.
    Attorney General Sessions. So--I don't know.
    Senator Graham. Well, I just would----
    Attorney General Sessions. I'll just have to be honest with 
you.
    Senator Graham. You have been----
    Attorney General Sessions. It could be, certainly, if----
    Senator Graham. Yes.
    Attorney General Sessions [continuing]. We have a surge 
and----
    Senator Graham. Right.
    Attorney General Sessions [continuing]. Arrest these----
    Senator Graham. Well, we've got 489 prisoners that we've 
captured from our operations around Raqqa. They're going to get 
out of jail. They're in a makeshift prison held by the Syrian 
Democratic Forces. It's not a nation-state, and these are 
really hardcore killers, some of them. Two of them are with the 
Beatles. You've heard of the Beatles, right? Not the rock 
group, but the beheaders.
    Attorney General Sessions. I do know the Beatles.
    Senator Graham. Okay. Well, two of these people are in our 
custody. They're insisting on a fair process. I intend to give 
them one. But, they cut off the heads of an--of American 
citizens and our allies. And I know where you're at. I would 
appreciate it if you would push the administration to live up 
to the President's promise to use it wisely when it comes to 
GITMO. Would you please do that?
    Attorney General Sessions. I will remain focused on that.

                           THE WAR ON TERROR

    Senator Graham. Okay. Now, when it comes to the war on 
terror, Raqqa may have been taken back, but we've got to hold 
it. From your point of view, the threat streams that you're 
aware of, are they growing regarding radical Islam threat 
toward the homeland?
    Attorney General Sessions. We don't think there's been any 
significant reduction. I do believe General Mattis deserves 
credit for his tactics of crushing ISIS, and I think a lot 
fewer of them got out than perhaps they intended, which means 
there are fewer of them available to come to America to kill 
Americans. But, we'll--I think time will tell how many come out 
of that war zone and attack us.
    Senator Graham. Is this a priority----
    Attorney General Sessions. There's definitely many that 
prefer to do that, and desire to do that.
    Senator Graham. Is this a priority of your Department, to 
make sure that we--we're up and running when it comes to these 
threats?
    Attorney General Sessions. It is. The FBI may--almost a 
third of its budget is national security matters. I asked them, 
``Was that enough?'' some time ago, and I was told the right 
answer.
    Senator Graham. So----
    Attorney General Sessions. And the answer was, ``Well, 
we've got enough, because we'll assign anybody doing anything 
to focus on terrorism if it's a threat to us. It's our number-
one priority.''
    Senator Graham. One of the tools they use to recruit out of 
area, out of theater, is the social media outlets, like 
Facebook and other social media devices. They use it actively 
to recruit. I know you're aware of a recent dustup with 
Cambridge Analytica, but a terrorist organization using social 
media to recruit terrorism in our own backyard, would you 
support Congress weighing in and trying to find some control 
over this?
    Attorney General Sessions. Senator Graham, I think it's a 
growing, real problem. I--FBI has a great deal of insight into 
this program. We want to encourage them to be forthcoming about 
ideas to deal with the future. But, you are correct, it needs 
more attention.
    Senator Graham. Congratulations on the CLOUD Act. It really 
helps our ally, Great Britain. And your office was terrific. 
Thank you.
    Attorney General Sessions. And Senator Graham was the 
number-one advocate for that, which--it was one of our top 
priorities in Department of Justice, and will--and, without 
your help, it would not have passed.
    Senator Moran. Senator Coons.
    Senator Coons. Thank you, Chairman Moran. And welcome to 
your new position here at CJS. I look forward to working with 
you and with Ranking Member Shaheen.
    And, Mr. Attorney General, welcome. I enjoyed working with 
Senator Graham, and I'm glad we made progress on the CLOUD Act. 
I do think it was an important step forward.
    I have three questions I'd like to ask, if I might. I think 
I'm the last man standing, so we'll work through them, if we 
could. And then, I think we're at the end.
    Senator Moran. As long as they occur within 5 minutes----
    Senator Coons. I will do my----
    Senator Moran [continuing]. You're recognized.
    [Laughter.]
    Senator Coons [continuing]. Level best.

                      NICS DENIAL NOTIFICATION ACT

    First, as you know, Attorney General, my home community of 
Wilmington has faced significant levels of gun violence, 
something the Department has worked with us on in the past. 
I've tried to find ways that we, in the Federal Government, can 
help local law enforcement confront this challenge. So, I'm 
working with Senator Toomey, of Pennsylvania. We have crafted 
and introduced a bill, the NICS Denial Notification Act, which 
recognizes that if someone who is a person prohibited--
convicted felon, adjudicated mentally ill, convicted of 
domestic violence--goes into a gun shop, fills out their 
background check form, says, ``Yes, I can buy a gun,'' and 
they're denied, that's information that would be helpful for 
local law enforcement to know. Would you agree that that's 
helpful for State and local law enforcement?
    Attorney General Sessions. Yes, it could be.
    Senator Coons. There were 120,000 NICS denials last year. 
The State of Pennsylvania, State of Virginia, they run it 
through the--the State police run it, so they know when there's 
a NICS denial, and they have prosecuted hundreds of people. My 
home State, and about 30 others, it's run independently of 
State law enforcement. All this bill would do is to require 
notification to State law enforcement when there is a denial of 
a NICS application. Do you think that would be a constructive 
step forward, in terms of empowering State and local law 
enforcement to take timely action, where a person prohibited is 
trying to get access to a weapon?
    Attorney General Sessions. I would be pleased to review 
that. I'm aware that you are offering something of that nature, 
but I haven't studied it. I think it's got potential and would 
be pleased to do so. We also are directing our United States 
Attorneys to prosecute more aggressively people who lie to get 
a gun. And some of those are caught on the--well, most of them 
are--NICS denials are, basically, people who have lied when 
they----
    Senator Coons. That's right. The were lie-and-try----
    Attorney General Sessions [continuing]. Seek it.
    Senator Coons [continuing]. Offenses.
    Attorney General Sessions. We call it the lie-and-try----
    Senator Coons. Yes.
    Attorney General Sessions [continuing]. That's correct.
    Senator Coons. Well, I look forward to working with you on 
that.

              HIGH INTENSITY DRUG TRAFFICKING AREA (HIDTA)

    One other thing I wanted to ask is about HIDTA, the High-
Intensity Drug Trafficking Areas Program under ONDCP. I worked 
hard to make sure New Castle County, Delaware, which is our 
northernmost county, was included in the Philadelphia/Camden 
HIDTA area. And I'm concerned about changes you're proposing to 
the program that, as I understand it, would lead it to focus on 
enforcement activities, but not combating addiction. HIDTA and 
other ONDCP programs have balanced enforcement with community 
efforts to try and fight addiction. Why reinvent the wheel when 
ONDCP, in my view, has already been providing needed assistance 
to communities across the country?
    Attorney General Sessions. This has been a matter discussed 
for many years. We've been asked to reorganize the Government 
to make it more effective. The HIDTA investigative teams that 
are funded through this grant program have been a part of the 
ONDCP, the Office of Drug Control Policy. It was set up as a 
policy entity, and a little bit like the National Security 
Council that says, ``We're spending all this money. Let's make 
sure all these departments are doing it the right--in a 
coordinated way.'' So, we think that ONDCP needs to focus back 
on that, and that the actual management in the field of task 
forces that prosecute and investigate drug use is better 
coordinated with the DEA. But, the HIDTA officials, the people 
of the local communities that serve on the HIDTA boards would 
be retained. The grant money would simply be managed by DEA. 
And I think it would create a closer working relationship.
    Senator Coons. I look forward to looking into that further. 
We may disagree on exactly how to manage it, but I agree with 
you, it's a longstanding debate.

                      MICHAEL COHEN INVESTIGATION

    Let me close with just a few questions about the U.S. 
Attorneys Office in the Southern District and the investigation 
of Michael Cohen. If I understood correctly your exchange with 
Senator Leahy earlier--I just want to make sure I understand. 
If you discover any connection between this investigation into 
Mr. Cohen and the ongoing investigation into allegations of 
Russian interference or anything related to the 2016 election, 
would you recuse yourself?
    Attorney General Sessions. Yes.
    Senator Coons. Thank you. And have you discussed that 
investigation into Mr. Cohen with anyone outside of DOJ, 
including the President?
    Attorney General Sessions. I don't think in any 
significant--well, I'll just say this. The communications I 
might have to anyone in the White House, I believe are the kind 
of communications that should not be revealed. I believe I have 
the right to--and responsibility to maintain confidence in 
those. So, I just am not able to go down that road.
    Senator Coons. So, in exerting executive privilege there--
asserting executive privilege there, I'll move forward.
    A last question. Has the President or anyone in the 
administration discussed with you the possibility of President 
Trump pardoning Michael Cohen?
    Attorney General Sessions. I am not able to reveal the 
contents of any communications I might have with the President 
of the United States or his top staff.
    Senator Coons. Given the previous conversation you had with 
Senator Van Hollen, it's my hope that, if President Trump 
proceeded to pardon Michael Cohen, in violation of longstanding 
policy, and did not consult with the Pardon Attorney, did not 
consult with DOJ, that you would express strong objection to 
that and would consider resigning if that step were taken. 
Hopefully, it will not come to that.
    Thank you for the chance to question you today, and thank 
you for your service, Mr. Attorney General.
    Attorney General Sessions. Thank you, Senator Coons.
    Senator Moran. Mr. Attorney General, we're about to 
conclude our hearing. We're going to have a quick round. I was 
hoping that Senator Coons would leave before I indicated the 
potential of a second round, but--Senator Coons, anything you 
want to add to what you've questioned the Attorney General?
    Senator Coons. Thank you very much for the opportunity. No, 
I have completed my questions.
    Senator Moran. Very good.
    I'll recognize Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.

              TRIALS FOR INTERNATIONAL TERRORISM SUSPECTS

    I want to follow up on the issue that Senator Graham raised 
about Guantanamo. He specifically mentioned the Beatles. On 
March 5, I sent the Justice Department a letter based on 
discussions that we had with the families of the Americans who 
were killed, we think, by the Beatles, one of whom was a 
constituent of mine, James Foley, but also included Steven 
Sotloff and Kayla Mueller. One of the things that we heard very 
strongly from the families of those Americans murdered by those 
terrorists--executed, really--is that they wanted to see that 
the people who killed them were brought to justice. They didn't 
feel like putting them in Guantanamo, where no one would know 
and other terrorists would not be able to see that they were 
brought to justice and held accountable for their deeds, was an 
appropriate way to deal with them. So, I wonder if today you 
can tell me if you, as the Attorney General, and the Justice 
Department will advocate with this administration that those 
terrorists be brought to justice either in some international 
venue or in civilian courts in the United States.
    Attorney General Sessions. Well, I believe I can say with 
certainty they will be brought to justice. There has been a 
discussion. Senator Graham, for example, believes--and he's 
studied this for years; he's actually, on his military duty, 
spent time at prisons in----
    Senator Shaheen. Right.
    Attorney General Sessions [continuing]. Afghanistan and 
places, so he's an expert--but, he thinks the normal and best 
procedure is for people to be brought to Guantanamo, where 
they're not--they're--as prisoners of war, that they can be 
interrogated as normal prisoners of war, they're not provided 
attorneys, and they're not set for trial and don't get 
discovery and--of the government. And then, if a decision is 
made to bring them to the United States for trial or tried by 
military commission in Guantanamo, that's the best approach. I 
have advocated that with him in--when I was in the Senate. So, 
that's my general view of it.
    We have had success bringing--trying a lot of these cases 
in Federal court. Even though the rules of evidence are 
stricter, the discovery rules require the government to produce 
more evidence, sometimes could tend to reveal the--how they got 
caught and our techniques of catching them, and our 
intelligence that way.
    So there's no dispute about these individuals being brought 
to trial. I have been disappointed, frankly, that the British--
they were British citizens, they renounced their citizenship, 
or rejected, had it pulled, but that they are not willing to 
try the cases, but tend to want to tell us how to try them. 
So--and they have certain evidence----
    So, it's a complex matter. We are spending a good deal of 
time on it. I believe you can say with confidence that we 
expect to have these individuals tried and held accountable for 
their horrific acts.
    Senator Shaheen. Thank you. As you point out, we've been 
successful in Federal court when we've brought those terrorist 
cases. In fact, we've been more successful in civilian courts 
than in military tribunals. I would urge you and the 
administration to take into account the wishes of the families, 
who lost their loved ones because of those terrorists, and not 
provide another opportunity for terrorists to be able to use 
Guantanamo as a recruiting tool. I certainly hope you will do 
that.

                  SPECIAL COUNCIL AND FIRING AUTHORITY

    I would like to change the subject now. There have been a 
number of questions here regarding your recusal from issues 
relating to the 2016 presidential campaign and the work of 
Special Counselor Mueller. I have a couple of general questions 
that I hope you can answer despite your recusal from questions 
regarding the Mueller investigation.
    Outside of misconduct, dereliction of duty, incapacity, 
conflict of interest, or other good cause, the conditions 
outlined in 28 C.F.R. 600, can the Attorney General, or his 
designee, fire a Special Counsel?
    Attorney General Sessions. Well, let me just say this. I 
expected somebody would press this, but I am recused from that 
matter, and this thing--one matter at stake, and I'm recused 
from that. So, I believe it is not appropriate for me to opine 
or give my thoughts at this point, given the fact that I'm 
recused. So, I appreciate your inquiry, but I think it is not 
appropriate for me to comment.
    Senator Shaheen. Will you also not comment on whether, in 
your legal view, the President can fire a Special Counsel 
appointed under the same regulation?
    Attorney General Sessions. I feel the same way about that 
question.
    Senator Shaheen. Okay.
    Mr. Chairman, if I can just ask one more question. I know 
I'm over my time.
    Senator Moran. Please continue.

                      CENSUS CITIZENSHIP QUESTION

    Senator Shaheen. I want to go back to the Census questions. 
There have been some questions about the citizenship question 
that is to be included in the next Census. Now, my 
understanding is that the last time this question was included 
in the Census was in 1950. And so, I have a question about why 
now the Justice Department feels like it needs to include that 
question. The answer that I've been given is that it's used in 
enforcing the Voting Rights Act. Since we haven't used it since 
1950, why is it necessary now? Does the Justice Department plan 
on using the information from the question for immigration 
enforcement?
    Attorney General Sessions. Well, we've submitted a written 
statement about that. The matter is under litigation today, and 
I am reluctant--and it's really--wouldn't be appropriate for me 
to discuss the merits and argue the pros and cons about it, if 
you'll forgive me on that. But, we have a written document to 
the Census Bureau, and they are--we are representing them in 
court.
    Senator Shaheen. Thank you, Mr. Chairman.
    Senator Moran. Thank you, Senator Shaheen.
    Senator from Louisiana, Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    General, I think you're doing a wonderful job. I wanted to 
tell you that first.
    Attorney General Sessions. Thank you.
    Senator Kennedy. You're a better man than I am. I can tell 
you, I--you've shown a lot of patience. You know, first they 
want you to recuse yourself, and then they want you to answer 
questions about it.

                        IMMIGRATION ENFORCEMENT

    You and I have talked about this before. You know, we are a 
nation of immigrants, which we're proud of. You know, I think 
we've let in more folks from other countries in our--into our 
country than any other nation. And it's--I'm flattered that 
people want to come here. I mean, when's the last time you read 
about somebody trying to sneak into China? You know, they want 
to come here. And that's great. But, we're a nation of laws, 
and we're not following our laws on immigration. Is there 
anything we can do about sanctuary cities, in terms of 
legislation, that would help you?
    Attorney General Sessions. Absolutely. For example, there--
I think we could authorize explicitly--I didn't--I thought it 
was already sufficiently authorized, but you'd explicitly 
authorize or pass legislation that mandates a cooperative 
relationship with State and local areas. Also----
    Senator Kennedy. I would have thought that would be 
implicit.
    Attorney General Sessions. I----
    Senator Kennedy. No?
    Attorney General Sessions. But, you know, Senator Kennedy, 
there's nothing like the improvement we've seen in law 
enforcement. You have--in Louisiana, you've got cities, you've 
got parishes in cities, in all these--jurisdictions each have 
their borders and their jails, and we honor each other's holds 
and hold people til somebody can come over and pick them up 
because they've got charges in another jurisdiction or another 
State or to the Federal Government. And this is an ideological, 
open-borders, radical policy that a city or a county refuses--
after they've apprehended somebody who's entered the country 
unlawfully, who's committed perhaps a major crime, they refuse 
to honor the ICE officers when they come to pick them up. And 
that means the ICE officers have to go out in the community, 
place themselves and maybe neighbors at risk to try to 
apprehend sometimes dangerous criminals. And I cannot agree to 
that. I cannot accept having our officers placed at that kind 
of risk. And it's important matters, not a little matter. And I 
think these cities need to reevaluate what they're saying. I 
don't think they know what they're saying. I don't think they 
understand the implications of their refusal to cooperate with 
brother and sister law officers like our ICE officers. We 
cooperate with them. And that's why we've been so--that's been 
a part of the 30-year decline in crime, is this partnership 
between Federal and State officers. This is the biggest breach 
of that relationship I've seen in my 40 years of law 
enforcement.

                    SPECIAL COUNSEL AND RULE OF LAW

    Senator Kennedy. Well, it just strikes me--I mean, we've 
talked a lot lately about the rule of law and the Mueller 
investigation, which I'm not going to ask you to comment on, 
because you did correctly recuse yourself. We talked a lot 
about the rule of law, but it doesn't seem to apply when we 
talk about immigration laws. I mean, there are parts of 
immigration law I don't agree with, but I'm going to follow it. 
Now, I'm going to try to help my colleagues in Federal, State, 
or local government to follow it until we change it, if we ever 
change it. And I just don't get it. I'm sorry, I don't. I mean, 
I understand the politics of it. But, when you have the mayor 
of a city pick up the phone and, you know, tip off some folks 
who are in violation of Federal law, that they may be arrested, 
you know, the Federal agents are coming in, I don't understand 
a world like that. I don't.
    Attorney General Sessions. Well, if a person can cross the 
border on Monday and end up in San Francisco on Wednesday, 
hauling dope and gets arrested with cocaine or heroin, why 
would the city not want ICE, after they've served their time, 
to take them out of the country like the law contemplates? I 
find, like you, that's amazing.
    Senator Kennedy. We're----
    Attorney General Sessions. I also want to thank you----
    Senator Kennedy [continuing]. Spending billions and 
billions--I think I saw a figure of 36 billion--I'm sure that--
that may be inaccurate; I'm--my memory's bad, but--that we 
spend on border enforcement. But, if you get through--and, I'm 
sorry, I'm not saying if you can make it to New Orleans, you're 
home free. And I know our mayor disagrees with us on that, but 
it's an attitude.
    But, anyway, if there's--I'll call you separately. I want 
to stay within my time. But, thank you for your service.
    Attorney General Sessions. Thank you. And thank you for 
being alert to this issue and helping us, and raising it.
    Senator Moran. General Sessions, I think we're about to 
conclude. Let me ask just a couple of followup questions, if--
that I have.

                           IMMIGRATION JUDGES

    The Department has requested funding for 75 new immigration 
judges and support staff to help alleviate the immigration 
court system backlog. As you would know, this subcommittee 
provided funding for 100 additional immigration judges in the 
fiscal year 2018 omnibus. Can you explain how these additions 
will enable the court to decrease that backlog? And also, speak 
to the expedited hearing process that the Department has 
developed.
    Attorney General Sessions. We've had a real problem for a 
number of years. In 2014, we only had 284 judges. With this 
funding, we believe we'll hit 559. That still may not be the 
optimum number, but it is a monumental improvement. We simply 
have more and more individuals who are making facial claims for 
asylum or other relief that justifies hearings. And it just--
it's placing more and more stress on it. We have to be able to 
have prompt hearings, give people fair adjudication. And 
really, they need to be held in custody until the hearing is 
over, because, when you release them from custody because you 
can't bring them to speedy trial that they're entitled to, you 
can be ordered by the courts to release them, and they aren't 
coming back for trial. It's a loophole of monumental 
proportions, and there are a number of them. But, that's one of 
the biggest. And the judge--more judges will--I can't tell you 
how appreciative we are to the Congress for doing that. It also 
helps the legitimate immigrant claimant to get his--his or her 
case heard promptly.

     EXECUTIVE OFFICE FOR IMMIGRATION REVIEW CASE MANAGEMENT SYSTEM

    Senator Moran. Well, General, I have a lot to learn in this 
new capacity. One of the surprises was to learn that the 
Executive Office of Immigration Review utilizes a management 
system that's based on paper. And your request includes $25 
million to develop an electronic case management system. Can 
you tell us about how this will work and what a difference it 
will make?
    Attorney General Sessions. We are looking to get more 
productivity and more legitimate and a better decisionmaking 
process from our judges. And we think the $25 million will pay 
for itself many times over. And we would appreciate that 
reform. And I believe it will help the system considerably.
    Senator Moran. Is this a onetime request, or there'll be 
requests for additional funding for this purpose in the future?
    Attorney General Sessions. I think the initial cost will be 
the most significant. Whether we'll have the annual cost in the 
budget line item or not, I don't know. Probably so.
    Senator Moran. Are you aware of other places within your 
Department in which you're still operating off of a paper-based 
system?
    Attorney General Sessions. I think the--we're working to 
improve the ATF process by which firearms and their serial 
numbers are noted. That's not sufficiently computerized, 
either. And it slows that down and costs money, we think, in 
the long run. So, we'd like to be able to get a much quicker 
turnaround on that. And we are planning to improve that system, 
also.
    [The information follows:]

    At the hearing on April 25, 2018, Chairman Moran asked: ``Are you 
aware of other places within your Department in which you're still 
operating off--off of a paper-based system?'' I responded: ``I think 
the--we're working to improve the ATF process by which firearms and 
their serial numbers are noted. That's not sufficiently computerized 
either. And it slows down, and costs money, we think, in the long run. 
So we'd like to be able to get a much quicker turnaround on that. And 
we--we're planning to improve that system also.'' I believe this 
response requires further clarification as to the ATF process to which 
I was referring, and as to the steps the Department is taking to 
improve the efficiency of that process. Consequently, I would like to 
supplement my testimony with the following information:

          The paper-based ATF process that the Department is working to 
        make more efficient is the crime gun tracing process. ATF is 
        the only U.S. law enforcement agency with the authority to 
        trace firearms; it fulfils this duty through its National 
        Tracing Center in Martinsburg, West Virginia. The NTC receives 
        an average of 20 million paper records per year from Federal 
        Firearms Licensees. These records consist primarily of FFL Out 
        of Business Records (OBR), OBR records are critical to the 
        firearms tracing process, and ATF images these records as a 
        ``picture'', which is not searchable using automated 
        technology. As a result, when a trace is conducted, ATF 
        manually searches these records to look for the relevant serial 
        number. The process of manually searching images for firearm 
        serial numbers is obviously inefficient, and can result in 
        incomplete traces due to manual error.
          To improve the efficiency and accuracy during a crime gun 
        trace, the Department is exploring ways to use new technologies 
        to ``tag'' the serial number field in the image of those 
        records, so that automated (computerized) means may be used to 
        assist solely in the review of the serial number field of the 
        record image. If we are able to develop this technology, 
        significant cost savings would be realized, human error would 
        be reduced, and trace results on crime guns would be more 
        quickly provided to law enforcement.
          Consistent with long-standing appropriations restrictions on 
        consolidation or centralization of FFL records, the use of 
        ``tag'' technology would be strictly limited to the serial 
        number field of an image, and would not allow for the automated 
        or computerized search of record fields containing firearm 
        owner information. The Department does not intend to seek any 
        change to the current appropriations restrictions as they apply 
        to consolidation or centralization of records used in the 
        firearm tracing process.

           DEPARTMENT OF JUSTICE FISCAL YEAR 2018 SPEND PLAN

    Senator Moran. Let me ask, finally, about a spend plan. I 
look forward to receiving the Department's spend plan that's 
required by Section 532 of the CJS bill. As you know, several 
programs within the Department, such as veteran courts and 
Tribal assistant grants programs, received a significant 
increase. We talked a bit about that in the conversation that 
you had with one of my colleagues. They received a $14 million 
increase and $35 million increase, respectively. As we also 
indicated, there's a--Fix NICS and STOP Act were passed in the 
omnibus bill, and--which I hope will be outlined in your spend 
plan how you intend to spend and implement those laws. And 
additionally, the Appropriations Committee included 3.3 billion 
to fight against opioid and prescription drug abuse crisis. Of 
this amount, 299.5 million was specifically included for the 
Department to fund anti-opioid grant programs. Can you speak to 
the type of comprehensive planning and initiatives the 
Department has undertaken to ensure those--these investments 
will have a maximum benefit?
    Attorney General Sessions. I can. We're excited about that. 
I will share to you, Chairman and Ranking Member, we are 
determined to use that money quickly. We don't need New 
Hampshire waiting--or without having this deaths reduced. And 
we've got a series of ideas with DEA how to improve it, such 
as, we can extend people from 57 to 60, age 60. If we just go 
through the normal hiring process, we may be 2 or 3 years 
before we get to the numbers that we are authorized to get to. 
So, we could do that. We can take--even people who have already 
retired can work 20 years--20 hours a week. We're thinking 
about contracting with State and local police departments to--
with people who have retired from them--experienced narcotics 
officers, many of them highly trained and very experienced--we 
could contract with them. And the DEA has, at my request and 
meeting with Ron Patterson and--Rob Patterson, he's on top of 
it. Well, we're going to have 400 added to task forces that 
we'll be able to fund that.
    So, I guess what I--we, by--May 7, I believe is the day, we 
are--intend to have you a plan. Deputy Rosenstein and I have 
talked about it. Lee Loftus, our JMD leader, is behind me and 
helping me. He's been at this for many years. We're determined 
to try to meet that goal and have plans that we can use the 
money you've given us, and not 3 years from now, but now, 
because we face a crisis.
    Senator Moran. General, thank you. I had expected that--
perhaps a more pro forma response to my question. And I'm 
pleased to see that you're moving with alacrity. That's a--an 
encouraging development. Let us know how we can be of help. We 
want to see the results when we authorize the spending.
    Attorney General Sessions. Thank you.

                            OPIOID EPIDEMIC

    Senator Moran. I think--oh, let me ask just this final 
question about that. On this opioid battle, how well can you 
assure me of the cooperation and coordination between the 
Department of Justice and other Federal agencies in this 
battle?
    Attorney General Sessions. Well, the President reached a 
bipartisan solution, I understand, to spend 6 billion 
additional dollars on the opioid crisis. That is a sizable 
increase, no doubt about it. We are getting only a small part 
of it. I don't know exactly what percentage, but it's certainly 
not the major. I expect that the prevention program, which I 
totally support, will be funded. But, it doesn't need an 
unlimited amount of money. You can run a very good prevention 
program for a reasonable amount of money. And you've got 
treatment, which is very expensive. And I'm sure that will get 
more money. There'll be some research--and I'm talking about 
FDA, the Department of Homeland Security, the Department of 
Health and Human Services, VA--all of them have roles to play, 
and others, in the drug matters. And I would say you're 
entitled to keep an eye on all of us, and probably need to, 
because when you run a massive department, and you get some 
more money for a certain project, and the Secretary's got a 
million challenges to deal with, and sometimes things don't get 
done with the alacrity we'd like to see.
    Senator Moran. We have a funding responsibility, as a 
Congress. We have an oversight of equal value, in my view. And 
we need do both better.
    General, thank you very much. I appreciate your testimony. 
It's been a long afternoon, I'm sure, for you, but I appreciate 
the responses that you've given.
    I always ask a--when I chair a hearing, the witnesses if 
they have anything they'd like to add for the record, something 
they want to correct, something they want to add, a question 
that they didn't feel like they were--that they'd been asked, 
that they'd like to answer. You may feel like you've been asked 
everything.
    Attorney General Sessions. Well, I don't have much to add, 
except I would appreciate it, if I have misspoken in any way, 
I'll try to correct that. And I thank you, because really the 
2018 appropriations was beneficial, and it provided us 
additional resources, and we are going to do our best to use 
them as you would like us to.
    Senator Moran. General, thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions this afternoon--the 
Senators may submit additional questions to the subcommittee's 
official for the--for the subcommittee's official hearing 
record. We request the Department of Justice respond within 30 
days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. Jeff Sessions
            Questions Submitted by Senator Richard C. Shelby
                           madoff victim fund
    Question 1a. Attorney General Sessions, last year I asked Deputy 
Attorney General Rod Rosenstein about the delay in issuing and the 
methodology used to determine distribution amounts from the Madoff 
Victims Fund. I also followed up with a letter on this matter on July 
20, 2017. The Fund was created by the Department in 2012 to recompense 
victims of the Madoff Ponzi scheme. Despite recovering approximately $4 
billion, up to this point only roughly $1.3 billion has been 
distributed to victims. The delay in distribution is concerning, and 
even more troubling in light of the fees paid to the Special Master, 
who is tasked with administering payments to victims.
    Please explain, in detail, the process for approving; disapproving; 
reconsidering disapproved claims; and the payment of approved claims 
from the Madoff Victims Fund.

    Answer.  In order to return seized funds to victims of crime, the 
Department of Justice (Department) follows the Petition for Remission 
process set forth at 28 C.F.R. Part 9. Pursuant to those regulations, 
the Department, the Criminal Division, the Money Laundering and Asset 
Recovery Section (MLARS) and the United States Attorney's Office for 
the Southern District of New York (SDNY) selected Richard C. Breeden 
Fund Services, LLC to serve as Special Master to administer the Madoff 
remission process. The District Court for the Southern District of New 
York granted the government's motion to forego restitution in favor of 
remission, agreeing that calculation of restitution would be 
impracticable and that the government's appointment of a special master 
to review individual victim claims would be more efficient and cost-
effective.
    MLARS and SDNY worked with the Special Master to develop the Madoff 
Victims Fund (MVF) and a distribution plan. Claim forms and a website 
were developed and published in 2013, and an April 2014 deadline for 
filing petitions with MVF was set. Since that time, the Special Master 
and Department personnel have been hard at work evaluating more than 
65,400 petitions claiming approximately $78 billion in losses on 
Madoff-related investments. Petitions came from individuals and 
entities in 137 countries. As part of that process, the Special Master 
and his team have reviewed more than 403,000 individual Madoff 
transactions in 13 currencies, and evaluated approximately 4.5 million 
pages of back-up documentation. As part of that review, the Special 
Master identified almost 31,000 petitions (for losses totaling 
approximately $27 billion) that were incomplete--meaning that nearly 
half of the petitioners were notified of the deficiencies and given an 
opportunity to address the deficiency and file an eligible claim. While 
this took more time, it ensured the process was available to more 
eligible victims.
    The extensive review process is necessary to confirm which 
petitions are eligible and that the amount claimed is accurate. Because 
the total amount available to compensate victims is only about $4 
billion--and petitioners claimed $78 billion in losses--ineligible or 
overstated petitions pose a serious risk of diluting the potential 
recoveries of eligible victims. Similarly, if the Department had begun 
making payments before potentially eligible victims had been given an 
opportunity to address deficiencies, it would have risked running out 
of funds before paying some eligible victims.
    The Department has now largely completed its review, and has issued 
rulings on approximately 62,000 petitions, approving over 39,000. To 
date, MLARS has approved transfer of over $1.3 billion from the U.S. 
Marshals Service for distribution to approved victims with an eligible 
loss. It is important to note that sufficient reserves must be withheld 
from distribution to account for any pending appeals, collateral 
recovery adjustments, and claims that remain under review. Additional 
information regarding the ongoing MVF remission review can be found at 
www.madoffvictimfund.com.

    Question 1b. Please provide the total amounts recovered by the 
Department, paid to the victims, and paid to the Special Master. If 
payments to the Special Master are not distributed solely from the 
Fund, please describe the source of these payments and provide the 
total amount of fees paid to date.

    Answer.  The Department has recovered approximately $4 billion 
dollars through various civil and criminal forfeiture actions related 
to the Madoff fraud scheme. Over $1.31 billion has been distributed to 
victims, and the Department intends to distribute billions more. The 
special master has been paid $51.4 million from the forfeited funds--
representing under 4 percent of the total paid to victims to date.

    Question 1c. What processes and mechanisms does the Department have 
in place to oversee the distributions to the victims?

    Answer.  The Department is well-versed in implementing the 
remission process and rendering decisions under the remission 
regulations. Career attorneys at MLARS review hundreds of individual 
victim remission petitions each year and manage multiple claims 
administration contracts that cover tens of thousands of additional 
petitions.
    When the Department hires a claims administrator, it also imposes 
additional oversight. MLARS coordinates with the administrator to 
ensure the distribution plan comports with the regulations, and any 
documents or information provided by the administrator to petitioners 
are approved by MLARS. No decisions are conveyed to a petitioner until 
MLARS issues a decision on the petition. Ultimate responsibility for 
the remission decisions rests with the Department, not the 
administrator.
    MLARS attorneys and financial personnel conduct site visits at both 
the contractor's offices and the bank selected to make payments. In the 
Madoff matter, MLARS staff conducted site visits at the Special 
Master's office and the bank at various stages throughout the remission 
process. MLARS also conducts audits at various stages of the remission 
process to review the recommendations and cleared checks.

    Question 1d. What processes and mechanisms does the Department have 
in place to oversee and assess the reasonableness of the fees paid to 
the Special Master?

    Answer.  In accordance with the Federal Acquisition Regulation 
(FAR), a warranted Department of Justice Contracting Officer makes the 
determination that the rates associated with the Special Master 
contract are fair and reasonable prior to any contract action. As part 
of each determination, the Contracting Officer is responsible for 
conducting price analysis that clearly demonstrates that the proposed 
price is reasonable in comparison with current or recent prices for the 
same or similar services.

    Question 1e. How has the Department factored in potential future 
distributions to victims that will based on settlements distributed 
from the SIPA Trustee?

    Answer.  The Department and the Special Master have coordinated 
with the SIPA Trustee from the onset of the remission process. Data 
regarding the bankruptcy claims and subsequent payments has been shared 
with the Special Master on multiple occasions to ensure that no 
petitioner receives a payment from MVF funds if his total recovery from 
any source exceeds the MVF approved pro rata amount--which is currently 
40 percent. In addition, the Department is holding funds in reserve for 
approved petitioners who are awaiting potential future distributions 
from the SIPA Trustee, intermediary funds, or other pending litigation. 
If future SIPA Trustee distributions occur, the petitioners will 
receive a payment from MVF only to the extent necessary to provide 
recovery up to the approved pro rata amount. MVF also requires 
petitioners to provide collateral recovery updates prior to each 
distribution of MVF funds.

    Question 1f. How are the Department and the SIPA Trustee 
communicating to avoid double costs or payments? Please describe in 
detail the processes and mechanisms in place to ensure this line of 
communication is open and adequately used.

    Answer.  The remission petitioners and the bankruptcy claimants do 
not, for the most part, overlap. MVF has already approved over 39,000 
petitions, while only approximately 2,600 bankruptcy claims have been 
approved. The legal standards for remission and SIPC recoveries are not 
the same and eligibility for filing differs. To the extent there is 
overlap, the Special Master has reviewed data from the SIPA Trustee to 
streamline MVF's claim process and ensure no double recovery occurs.
    As explained above, the Department and the Special Master have 
coordinated with the SIPA Trustee from the onset of the remission 
process. Data regarding the bankruptcy claims and subsequent payments 
has been shared with the Special Master on multiple occasions to ensure 
that no petitioner receives a payment from MVF funds if his total 
recovery from any source exceeds the MVF approved pro rata amount--
which is currently 40 percent. If future SIPA Trustee distributions 
occur, the petitioners will receive a payment from MVF only to the 
extent necessary to provide recovery up to the approved pro rata 
amount. MVF also requires petitioners to provide collateral recovery 
updates prior to each distribution of MVF funds.
                    atf--american table of distances
    Question 2a. It is my understanding that the Bureau of Alcohol, 
Tobacco, Firearms and Explosives (ATF) uses the American Table of 
Distances (ATD) to determine where explosives storage magazines can be 
located.
    Does the ATF use the American Table of Distances to determine where 
explosives storage magazines may be located? If so, please explain the 
Bureau's current measurement process and list any other metrics the ATF 
may use to determine safe distances for the storage of explosive 
magazines.

    Answer.  ATF adopted the American Table of Distances (developed by 
the Institute of Makers of Explosives (IME)) for the storage of 
explosive materials in 1971. The table is used by ATF to determine 
required distances from magazines containing high explosives or 
blasting agents to potential receptors such as other magazines, 
inhabited buildings, highways, and passenger railways. This table uses 
the weight of explosive materials in storage on one axis, and the type 
of receptor on the other axis.
    ATF subsequently adopted the IME's appendix to the American Table 
of Distances, designed to calculate appropriate separation distances 
between high explosives, blasting agents, and stores of ammonium 
nitrate. In addition, ATF has adopted a Department of Defense table of 
distances for low explosives storage and a display fireworks table of 
distances modeled after a National Fire Protection Association table.

    Question 2b. What other metrics are used by the explosives industry 
to measure safe storage distances? As technology improves and continues 
to advance, is ATF looking to alternative metrics or more efficient 
models, such as quantitative risk assessment, to measure how explosives 
will react?

    Answer.  In recent years, individuals in the explosives industry 
have explored the use of quantitative risk assessment (QRA) for siting 
explosives storage magazines. The IME has involved ATF in discussions 
about the testing, modeling, and development of a QRA tool called the 
Institute of Makers of Explosives Safety Analysis for Risk (IMESAFR). 
Based upon such discussions, ATF has approved variances for use of the 
tool, and ATF continues to explore the possibility of adopting a QRA 
process for siting explosives magazines.
    The IMESAFR program has its roots in the Safety Analysis for Risk 
(SAFR) software originally developed for the U.S. Department of Defense 
for assessing risk in its explosives operations. IMESAFR incorporates 
statistical analysis, computer modeling, and test data to provide, in 
part, a risk level to persons occupying buildings and traveling in 
vehicles near explosives operations. The IMESAFR model calculates risk 
in terms of the statistical expectation for loss of life from an 
explosives event. IMESAFR is currently the only explosives quantitative 
risk assessment program that ATF is aware of.

    Question 2c. Would a change in measuring method require a statutory 
or regulatory modification?

    Answer.  Yes. In order for ATF to change or add methods used to 
calculate required distances from magazines to receptors, a regulatory 
change would be required. Currently, the regulations at 27 CFR, Part 
555 (Commerce in Explosives) contain specific references to the tables 
described above, and offer no alternative, except by variance.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
    Question 1a. On December 12, 2017, The Modernizing Government 
Technology (MGT) Act was signed into law by the President of the United 
States. This Act authorizes CFO Act agencies (including DOJ) to 
establish IT working capital funds which may be used to streamline IT 
systems, replace legacy products, and support transitions to cloud 
computing for up to 3 years in order to further modernization efforts. 
This Act also creates a separate centralized Technology Modernization 
Fund (TMF) within the Department of the Treasury, to be managed by the 
General Services Administrator, as well as the government wide 
Technology Modernization Board (Board). The fiscal year 2018 omnibus 
appropriated $100 million to the TMF, and the Board has received 
applications from nine agencies to use this funding.
    The Department of Justice's fiscal year 2019 budget request 
included $31.7 million for Justice Information Sharing Technology 
(JIST). The Department's CIO uses these appropriated dollars to ensure 
that IT investments are well-planned and align with the Department's 
overall strategy.
    Please explain how outdated, legacy IT systems have impacted the 
Department's ability to execute its mission? Has this hindered the 
Department's law enforcement role?

    Answer.  The Department continues to effectively carry out its 
mission objectives through leveraging all operational IT assets. The 
Department remains committed to modernizing and replacing key mission 
and business IT systems. Similar to the challenges identified in the 
Report to the President on Federal IT Modernization, legacy IT systems, 
built with unsupported code, contain inherent vulnerabilities, such as 
out-of-support software, that increase an agency's risk for cyber-
attacks and impede innovation.
    Legacy IT systems do not hinder the Department's law enforcement 
role generally, though outdated IT systems and reliance on paper 
processes results in significant inefficiencies in processing cases at 
EOIR. The Department continues to make progress by leveraging multiple 
mechanisms for investing and maintaining IT infrastructure. Some of the 
key system replacement and modernization projects underway within the 
Department's law enforcement components are:

  --FBI: National Crime Information Center (NCIC) modernization is 
        delivering new search capabilities and name-matching algorithms 
        to the system deployed nearly 20 years ago. Enhancements to the 
        National Instant Background Check System (NICS) enable faster 
        and more accurate determination of gun purchase eligibility. 
        Modernization of Next Generation Identification (NGI) 
        infrastructure will improve response, biometrics analysis, and 
        identity confirmation.
  --USMS: Capture program is replacing multiple end-of-life case 
        management systems for custody management, prisoner transport, 
        and fugitive case management built on custom code. The new 
        system uses a modern, industry standard business process 
        management system (BPMS) platform that enables system-to-system 
        interoperability and information sharing.
  --ATF: Spartan is a business process modernization effort that 
        includes the development of a case management system to replace 
        a suite of applications, originally deployed in 1998, for 
        criminal investigations and industry regulatory inspections. 
        This single solution designed to replace the current systems 
        will more effectively bring together ATF elements to carry out 
        its mission. Spartan is being developed using the same BPMS 
        technology platform being employed on six projects across the 
        Department, including USMS Capture program and FBI New NICS. 
        This technology platform simplifies solution support within 
        ATF, and enables code sharing and cost avoidance for the 
        Department.
  --EOIR: The $25 million enhancement request submitted in the 
        President's fiscal year 2019 budget for the EOIR Courts and 
        Appeals System (ECAS) will enable electronic filing of 
        documents, create an electronic record of proceeding, and 
        integrate state-of-the-art information management capabilities 
        for Immigration Judges. These updates will reduce EOIR's 
        reliance on paper processes, ensure that all parties can 
        readily access official documents, leading to greater 
        efficiencies that will reduce the backlog of immigration court 
        cases.
  --BOP: The BOP is conducting market research to modernize its Sentry 
        prisoner management system, by analyzing options for migrating 
        from a mainframe-based system to a micro-services architecture 
        compatible with a cloud platform.

    Question 1b. If so, how does the Department plan to replace these 
problematic systems?

    Answer.  Please see my response to question 1c.

    Question 1c. Given the recent enactment of the Modernizing 
Government Technology Act, has the Department considered submitting an 
application to the centralized Technology Modernization Board or 
establishing a Working Capital Fund with the sole mission of replacing 
legacy IT systems? If not, why?

    Answer.  The Department does not plan to establish a new 
Modernizing Government Technology Act (MGT) working capital fund (WCF). 
Currently, the Department funds IT modernization through three primary 
means: (1) component requested appropriations; (2) the Justice 
Information Sharing Technology (JIST) appropriated account; and (3) 
special use accounts, such as the Working Capital Fund.
    Component requested appropriations are the principal funding source 
for mission- specific IT modernization requirements. An example is the 
fiscal year 2019 request from the Executive Office for Immigration 
Review for a $25 million IT modernization program increase to develop 
an electronic filing, case management, document management, and 
schedule management system.
    The JIST account is the principal source for capitalizing 
enterprise-oriented and shared-service IT capabilities, as well as for 
cybersecurity investments. The JIST account is an annual, no-year fund 
under the direct control of the DOJ CIO. Funds are used to support 
multiyear projects for strategic investments critical to the 
Department's federated IT enterprise. Further, the JIST appropriation 
account currently includes a provision authorizing the Attorney General 
to transfer up to $35.4 million into this account from other Department 
sources to fund enterprise IT investments. The House Appropriations 
Committee, Subcommittee on Commerce, Justice, Science, and Related 
Agencies, in its fiscal year 2019 appropriations mark-up proposes 
increasing this transfer authority to $50 million.
    Finally, special use funds such as Unobligated Balance Transfers 
(UBT) enable remaining balances on DOJ expiring appropriations to be 
deposited into a special account. Funding may be withdrawn and applied 
toward priority IT investments and modernization with congressional 
notification. UBT allocations are currently capped at $30 million per 
fiscal year.
    JIST transfer authority, and the use of UBT allocations, enhance 
the Department's ability to address IT modernization needs through 
existing accounts.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question 1a. Under the terms of your March 2017 recusal, you are 
recused ``from any existing or future investigations of any matters 
related in any way to the campaigns for President.'' As I stated to you 
at the April 25, 2018, hearing, recusal is not discretionary; it is 
required by the clear terms of 28 C.F.R. Sec. 452.
    You have acknowledged that your March 2017 recusal was required 
under the regulations. Do you thus confirm that you have a ``political 
relationship'' with President Trump and/or then-candidate Trump?

    Answer.  This question calls for the personal knowledge of and is 
specifically directed to former Attorney General Jeff Sessions. As 
such, it would be inappropriate for the Department to respond to this 
question at this time.

    Question 1b. Yes or no: Given that he has successfully intervened 
in the case, and it stems from an investigation involving his campaign, 
does President Trump have a specific and substantial interest in the 
criminal case against Michael Cohen?

    Answer.  Consistent with longstanding policy, the Department is 
unable to answer this question as it relates to an ongoing 
investigation.

    Question 2a. In March, you fired the 21 year veteran and non-
political Deputy Director of the FBI for lacking candor. I have seen 
the underlying reports and understand the seriousness of the 
allegations. Yet the President was goading you to fire him, counting 
down the days until his retirement. The President has attacked Mr. 
McCabe no less than 17 times on Twitter. He even reportedly told Mr. 
McCabe on the phone to ask his wife what it felt like to be a loser, 
referring to her failed run for State Senate in Virginia.
    You fired Mr. McCabe just 26 hours before he was going to retire. 
It was also just hours after he was able to present his side of the 
story to the FBI. Are you aware of any other example of an Attorney 
General terminating a career employee on the same day that employee was 
able to present his or her case for leniency?

    Answer.  After an extensive and fair investigation and according to 
Department of Justice procedure, the Department's Office of the 
Inspector General (OIG) provided its report on allegations of 
misconduct by Mr. McCabe to the FBI's Office of Professional 
Responsibility (OPR). The FBI's OPR then reviewed the report and 
underlying documents and issued a disciplinary proposal recommending 
the dismissal of Mr. McCabe. Pursuant to Department Order 1202, and 
based on the report of the Inspector General, the findings of the FBI 
Office of Professional Responsibility, and the recommendation of the 
Department's senior career official, then Attorney General Jeff 
Sessions followed the recommendation made by FBI's Office of 
Professional Responsibility. The timing was a result of the 
Department's receipt of the previously listed materials. To the extent 
this question is specifically directed to or calls for the personal 
knowledge of former Attorney General Sessions, it would be 
inappropriate for the Department to respond further.

    Question 3a. In January, the Departments of Justice and Homeland 
Security released a report on foreign-born individuals convicted of 
international terrorism since 9/11. The report has since been widely 
misused to instill fear of immigrants to justify the President's 
immigration agenda. In an interview on Fox News to discuss the release 
of the report, you said, ``We know 73 percent of people arrested for 
terrorism were born abroad. So, if they had been properly screened and 
rejected, we wouldn't have had these attacks in our country.''
    Do you stand by that statement?

    Answer.  The Department stands by the content of the report, which 
is accurate and based on a sound statistical foundation. Undoubtedly, 
proper vetting and screening are critically important to our national 
security. To the extent this question is specifically directed to 
former Attorney General Jeff Sessions, it would be inappropriate for 
the Department to respond further.

    Question 3b. That statement is misleading for three reasons: (1) 
you refer to ``terrorism'' generally, but the report in fact somehow 
omits the very real threat of domestic terrorism; (2) the report 
includes U.S. citizens; and (3) the report includes foreign defendants 
who never stepped foot in this country except when they were extradited 
here to face trial. Extradition is not immigration.
    The White House still has that same misleading claim on its website 
today. Will you commit to telling the White House to take it down?

    Answer.  Please see my response to question 3a above.

    Question 4. Acknowledging bipartisan concerns over the Department's 
plans to temporarily pause the Legal Orientation Program (LOP), you 
testified before us that LOP would instead continue to operate while 
the Department studies its cost-effectiveness. However, there are still 
serious concerns that the Department will attempt to skew the findings 
of this new study in order to justify a more permanent downsizing or 
termination of LOP.
    Question 4a. Will the Department be conducting this new cost-
effectiveness study, or will it be conducted by an independent third 
party?
    Question 4b. If an independent third party is conducting the study, 
will it be empowered to gather and analyze raw data about LOP, or will 
it be instructed to analyze LOP data provided to it by the Department?
    Question 4c. Will the Department commit to providing updates, on 
demand, to the Senate Appropriations Committee and the Senate Judiciary 
Committee about methodology, interim findings, or any other information 
related to the new study?

    Answer.  The study, broken into phases, is being conducted by a 
team consisting of both contractors and career Federal employees within 
EOIR, all of whom are trained analysts, statisticians, or operations 
researchers. In carrying out the study, EOIR requested data from the 
LOP contractor and from the Department of Homeland Security (DHS) that 
it believed would make the study more analytically robust. The 
Department repeatedly requested raw data from the LOP contractor since 
its review commenced in November 2017 but did not receive all of the 
data it requested. It also did not receive data from the Department of 
Homeland Security (DHS) until the review of Phase I was almost 
finished. Accordingly, Phase I of the review proceeded with the data 
available to EOIR at the time, and EOIR is currently re-running its 
analytics from Phase I based on the data it received from DHS. The 
results of the review will be provided to Congress.

    Question 5a. Last year I offered an amendment to the CJS 
appropriations bill--which was adopted by voice vote and had been 
included in previous years--to ensure that the Justice Department would 
not waste its finite enforcement resources on medical marijuana users 
who are compliant with State law. You opposed my amendment, claiming 
that it would let money launderers evade prosecution--which I find odd, 
since I do not know of any State that allows money laundering.
    In United States v. McIntosh, the Ninth Circuit held that 
defendants asserting compliance with State laws are entitled to an 
evidentiary hearing. Has your Department ever lost such a hearing? That 
is, is there any example of a suspected money launderer or other bad 
actor who successfully convinced a Federal judge he could not be liable 
because he was compliant with a State medical marijuana law?

    Answer.  In 2016, over one of my predecessor's objections, the U.S. 
Court of Appeals for the Ninth Circuit interpreted an appropriations 
rider regarding medical marijuana broadly to apply both to Department 
actions that prevent States from implementing their laws regarding 
medical marijuana and to Department prosecutions of certain individuals 
and organizations that operate under those laws. United States v. 
McIntosh, 833 F.3d 1163 (9th Cir. 2016). The court held that the 
Department may not prosecute violations of the CSA with respect to 
marijuana unless a court concludes that the individuals or 
organizations are not in compliance with State medical marijuana law. 
Then Attorney General Sessions wrote to congressional leaders last year 
reiterating his predecessors' opposition to this rider, on the grounds 
that he, like his predecessors, thought it would be ``unwise for 
Congress to restrict the discretion of the Department to fund 
particular prosecutions'' and that ``the Department must be in a 
position to use all laws available to combat the transnational drug 
organizations and dangerous drug traffickers who threaten American 
lives.'' Although this letter did not explicitly refer to money 
laundering (as does your question), it did provide an example of an 
individual who held an active Colorado license for operating a medical 
marijuana business but who also was the ringleader of a criminal 
organization that shipped marijuana out of State. The letter also 
stated that, ``in the Ninth Circuit, many individuals and organizations 
that are operating in violation of the CSA and causing harm in their 
communities may invoke the rider to thwart prosecution.''
    That has come to pass. Numerous defendants have invoked this rider 
and courts throughout the Ninth Circuit have held so-called ``McIntosh 
hearings.'' In one particular case, United States v. Pisarski, two 
defendants pleaded guilty to growing 32 kilograms, or 327 plants, and 
intending to sell it to others. As the briefs and decisions in that 
case explain, the defendants had $416,125 in cash, multiple firearms, 
gold, silver, and an 18-foot tandem axle trailer on his property, all 
of which, by the defendants' admissions, were derived from the 
defendants' marijuana activities or intended to be used to facilitate 
those activities. Some of the cash was bundled in $10,000 stacks and 
wrapped in vacuum-sealed black plastic. The firearms and ammunition 
consisted of a loaded Smith and Wesson .357 revolver, a Glock 21 .45 
caliber pistol with a loaded magazine, an extra magazine, a Springfield 
.22 caliber bolt-action rifle, and a high-capacity magazine. After the 
guilty pleas, the district court halted the prosecution even though (1) 
a California government official testified that the defendants had not 
obtained required sellers' permits or reported sales taxes, (2) the 
defendants' claimed they only sold small, excess amounts of marijuana 
and yet provided no documentation that the $416,125 in cash and the 
precious metals they possessed were offsets for their costs, as 
required by State law, (3) the defendants failed to establish that the 
members of the collectives to which they sold marijuana were qualified 
patients, and (4) the California State attorney general had previously 
issued guidelines stating that the circumstances under which the 
defendants operated were indicia of unlawful operations. The government 
has appealed.

    Question 6a. You and I were prosecutors before we entered politics. 
We both know better than most how courts work. Which is why I was taken 
aback when the Department announced that it would impose numeric quotas 
on immigration judges as part of their annual performance reviews. As a 
former prosecutor, you should know that if proceedings become tainted 
with even the appearance of unfairness because of quotas, there will be 
surely be an uptick in appeals.
    Has the Department considered the unintended consequence of 
mounting appeals as a result of these quotas? Wouldn't that directly 
undermine their purported efficiency-based rationale?

    Answer.  The performance measures reflect a considered policy 
judgment regarding the efficiency that an experienced immigration judge 
working a regular schedule should reasonably be able to achieve. 
Similar measures are used for administrative judges at the Merit 
Systems Protection Board, the Department of Interior, the Board of Land 
Appeals, the Pension Benefit Guaranty Corporation, and the Railroad 
Retirement Board. In fact, immigration courts themselves have operated 
under case completion goals for years. Further, these measures are not 
quotas, which are fixed numbers with no deviation. Rather, the measures 
will be evaluated subject to six discrete factors, along with a seventh 
catch-all factor, before making a determination about an immigration 
judge's performance.
    By regulation, immigration judges are required to adjudicate cases 
``in a timely and impartial manner,'' and the Department expects 
immigration judges to meet this responsibility. Suggestions that 
immigration judges cannot render both timely and impartial decisions 
create a false dichotomy that discredits the integrity and 
professionalism of the entire immigration judge corps, including the 
many immigration judges who can meet the performance measures. 
Accordingly, because the Department expects immigration judges to 
fulfill their duty to adjudicate cases both timely and impartially, we 
do not expect that the performance measures will provide a valid basis 
for appeal.

    Question 7a. According to The Independent, the United Kingdom 
government is considering agreeing to the transfer of Alexanda Kotey 
and El Shafee Elsheikh to Guantanamo Bay, from their current reported 
detention by U.S.-backed Kurdish groups in northern Syria.\1\
---------------------------------------------------------------------------
    \1\ https://www.independent.co.uk/news/uk/politics/isis-jihadists-
the-beatles-latest-alexanda-kotey-el-shafee-elsheikh-donald-trump-
guantanamo-bay-a8205286.html.
---------------------------------------------------------------------------
    What plans, if any, does the Department have to bring these two 
individuals to face trial in the United States, to incarcerate them in 
Guantanamo Bay, or to otherwise transfer them from northern Syria?

    Answer.  The Department of Justice and our partners in the 
interagency are considering options for these individuals and will seek 
the option that best protects the national security of the United 
States.

    Question 8a. On October 25, 2017, you appeared before the Senate 
Judiciary Committee at an oversight hearing, after which you were asked 
a number of written questions for you to answer under oath. Among these 
questions, I asked you about 28 U.S.C. Sec. 540C, the provision 
authorizing the establishment of the FBI Police. Senator Manchin and I 
sent you a letter on February 9, 2018, which reiterated these 
questions. I have yet to receive your response to either my October 
2017 questions or my February 2018 letter with Senator Manchin. 
Accordingly, please refer to the February 2018 letter and answer the 
following:
    Are there legislative or other impediments preventing the 
Department from complying with Section 540C as written?

    Answer.  Please see my response to Question 8c.

    Question 8b. What steps is the Department taking to ensure that 
uniformed FBI Police officers are not unfairly penalized through the 
denial of salary and benefits (including pension) to which they would 
be entitled if the FBI had established the FBI Police under Section 
540C, as Congress intended?

    Answer.  FBI Police are paid in accordance with the current law.

    Question 8c. Has the Department, or any other component of the U.S. 
Government, examined issues related to providing salary and benefits 
(including pension) to uniformed officers of an FBI Police force 
established under Section 540C? If so, please provide any conclusions 
and any reports or other documentation produced thereby.

    Answer.  Yes, the FBI has examined this issue. Normally, employees 
engaged in protective duties, such as the FBI Police, are not 
considered law enforcement officers for purposes of early retirement 
under either the Civil Service Retirement System (CSRS) or the Federal 
Employees Retirement System (FERS). Statutory exceptions have been made 
for other groups of employees engaged in protective duties, such as the 
Secret Service Uniformed Division. The U.S. Code (at 28 U.S.C. 
540C(b)(5)) requires that pay and benefits of FBI Police be equivalent 
to members of the Secret Service Uniformed Division. However, the 
definition of a law enforcement officer in FERS (5 U.S.C. 8401(17)) 
does not extend to members of the FBI Police.

    Question 9a. Last month, the Seventh Circuit issued a ruling 
effectively ending the Department's attempt to withhold law enforcement 
funds from cities and States that declined to cooperate with Federal 
immigration enforcement authorities. A unanimous panel concluded that 
the Department could not lawfully impose conditions on funds that 
Congress--with the power of the purse--has not imposed. As Vice 
Chairman of the Committee that appropriated these funds, I can tell you 
the court was correct. Yet your Department is now seeking a stay of the 
decision not because it was wrongfully decided on the merits, but 
instead on grounds that the nationwide injunction was too broad.
    Is the Department's position that--in order to obtain these 
critical law enforcement resources that Congress has appropriated to 
keep our communities safe--you would force every impacted jurisdiction 
to independently file suit?

    Answer.  Many jurisdictions throughout the country readily provide 
the modest law enforcement cooperation required by the reasonable Byrne 
JAG conditions.
    While Byrne JAG is still the subject of active, ongoing litigation, 
the Department has released the vast majority of Byrne JAG awards for 
fiscal year 2017. As of October 11, 2018, the Department has awarded 
859 fiscal year 2017 Byrne JAG awards to jurisdictions with no 
unresolved questions regarding their cooperation with the relevant 
conditions. The Department is reviewing the remaining jurisdictions 
that have not received awards and is working to resolve outstanding 
expeditiously.

    Question 10a. In response to Chairman Moran's question regarding 
your Department's proposal to transfer the High Intensity Drug 
Trafficking Area (HIDTA) Program to the Drug Enforcement Administration 
(DEA), you said that the Office of National Drug Control Policy (ONDCP) 
was probably not created to or expected to administer a grant of this 
kind. However, Congress first established ONDCP in 1988 with the HIDTA 
program deliberately under its jurisdiction. Congress reauthorized the 
HIDTA Program and made its authority permanent as part of ONDCP in 
1998. I do not accept your argument that ONDCP was not meant to be a 
grant making agency when Congress clearly and deliberately authorized 
it as such. In contrast, the DEA is not a grant making agency and would 
need to adjust administratively to take on the task of managing and 
administering a very large grant program. DEA is an operational law 
enforcement entity that works alongside and in coordination with 
HIDTAs, which serve as a coordination mechanism--a major reason why the 
HIDTA Program has thrived at ONDCP. You concede that it is ONDCP's role 
to coordinate and DEA's role to enforce.
    Why does your budget, in direct contrast to Congress' 
authorization, suggest funding HIDTAs through DEA even though DEA is 
not a grant making entity and ONDCP has effectively administered HIDTA 
for decades?

    Answer.  While the Department's original intent had been to move 
HIDTA into the DEA to consolidate drug enforcement efforts, we 
understand that the fiscal year 2019 committee marks subsequently have 
not funded the program within DOJ. This being the case, the Department 
and the DEA will continue to work in close coordination with HIDTA to 
combat drug trafficking.

    Question 10b. Your budget includes no new positions or funding in 
DEA to manage and administer the HIDTA grants, which, if transferred, 
would be one of the largest grant programs at the Justice Department. 
How do you expect DEA to properly and responsibly oversee those grants 
with no dedicated staff or additional M&A funding? Do you intend to 
have current DEA staff--who lack grant-making expertise--administer the 
program and, if so, how many staff do you propose to dedicate to this? 
What is the M&A cost estimate to effectively oversee the program?

    Answer.  The fiscal year 2019 budget includes $254 million for the 
HIDTA program, which includes $3.6 million for the National HIDTA 
Assistance Center to assist in the administration of the HIDTA program. 
Additionally, the Department of Justice has a well-established grant 
program expertise, and DEA will draw on the tremendous experience of 
these experts to further enhance the HIDTA program's effectiveness as a 
powerful enforcement tool to combat drug trafficking in the United 
States.

    Question 10c. What evidence do you have that HIDTAs would be better 
administered through DEA? What practical and applicable data can you 
provide to this Committee in support of such a sweeping change?

    Answer. The United States is in the midst of the worst drug 
epidemic in history. The solution to this epidemic will not come from 
one level of government alone, rather it will take the coordinated 
efforts and resources of Federal, State, local, and Tribal governments 
working together, and DEA offers such a coordination opportunity. While 
the Department's original intent had been to move HIDTA into the DEA, 
we understand that the fiscal year 2019 committee marks subsequently 
have not funded the program within DOJ. This being the case, the 
Department will continue to work in close coordination with HIDTA to 
combat drug trafficking.

    Question 10d. What evidence does DOJ have that the current HIDTA 
program structure is insufficient, inefficient, or in need of any 
changes?

    Answer.  The Department's original intent had been to move HIDTA 
into the DEA to take advantage of operational synergies at DEA, however 
we understand that the fiscal year 2019 committee marks subsequently 
have not funded the program within DOJ. This being the case, the 
Department will continue to work in close coordination with HIDTA to 
combat drug trafficking.
                                 ______
                                 
          Questions Submitted by Senator Shelley Moore Capito
    Question 1a. In March I sent a letter to your office regarding the 
decision to delay distribution of Byrne JAG Grants for fiscal year 2017 
and the impact that this is having on localities in my State. While I 
certainly agree with the Department's efforts to implement robust 
enforcement of our Nation's immigration laws, my concern is that 
withholding these funds from States like mine, who have no sanctuary 
cities and have remained compliant with all relevant statutes, runs the 
risk of disrupting local law enforcement's ability to protect public 
safety. For instance, the city of Nitro, West Virginia employs a school 
resource officer to protect the high school using Byrne JAG funding. 
The delay in distributing these funds has resulted in a lot of 
uncertainty from city officials as to how they are going to continue 
funding this important resource. Additionally, my office has heard from 
the West Virginia State Police, who have expressed similar concerns 
regarding their ability to continue vital public safety programs, which 
include efforts to combat the opioid epidemic ravaging our State.
    Please provide some insight as to whether the Department has 
considered resuming distribution of these funds and if so what the 
timeline for that might be?

    Answer. While Byrne JAG is still the subject of active, ongoing 
litigation, the Department has released the vast majority of Byrne JAG 
awards for fiscal year 2017. As of October 11, 2018, the Department has 
awarded 859 fiscal year 2017 Byrne JAG awards to jurisdictions with no 
unresolved questions regarding their cooperation with the relevant 
conditions. The Department is reviewing the remaining jurisdictions 
that have not received awards and is working to resolve outstanding 
issues expeditiously.

    Question 2a. The Department's budget calls for the elimination of 
nearly 1,200 positions, 400 correctional officers, and the closure of 
two standalone minimum security camps within the Bureau of Prisons. 
Over the last few months I have heard from a number of BOP officials in 
my State expressing their concerns over what they describe as dangerous 
levels of understaffing. They argue that the positions being eliminated 
have been intentionally left unfilled which has resulted in inmate-to-
staff ratios that jeopardize officer and inmate safety alike. Just a 
few weeks ago an inmate was murdered during an altercation at USP 
Hazelton in West Virginia. BOP has had to rely on wide-spread 
augmentation of staff without adequate preparation and while staffing 
levels continue to decrease, inmate levels remain relatively unchanged.
    How does the Department reconcile these staffing cuts with the fact 
that prison officials on the ground are characterizing staff shortages 
as a direct threat to their safety?

    Answer. The first priority of the Bureau of Prisons (BOP) is the 
safety of staff, inmates, and the public. Over the past few years, the 
number and rate of serious assaults on staff have declined by more than 
33 percent. Additionally, the inmate population continues to decline, 
from a high around 220,000 in 2013, to approximately 183,000 today. 
Thus far in fiscal year 2018, the population has decreased by almost 
3,000. At the minimum security level, BOP facilities have approximately 
2,000 empty beds. In light of the significant decrease in the inmate 
population that BOP has experienced over the last several years, BOP 
has identified approximately 5,100 vacant authorized staff positions. 
Many of the positions identified have been unfunded by Congress for a 
number of years, including prior to the Federal hiring freeze imposed 
in January 2017. The administration's proposed fiscal year 2019 budget 
for BOP would eliminate 1,168 of the vacant positions. Therefore, the 
proposed elimination of these positions will not result in the loss or 
displacement of any staff members, or impact actual staffing levels at 
BOP facilities.
    Although prosecutions are on the rise for major crime categories 
(such as weapons and drug trafficking offenses), it takes several 
months, if not longer, for offenders to go through criminal proceedings 
and ultimately get designated to Federal prisons after they are 
convicted and sentenced. Accordingly, there are a significant number of 
vacant positions that BOP is currently seeking to fill. The new hires 
will further reduce the need for augmentation and overtime, and will 
ensure that BOP facilities continue to operate safely.

    Question 3a. The Office of National Drug Control Policy represents 
a critical resource to my State with regards to the High Intensity Drug 
Trafficking Areas Program and the Drug Free Communities Program. The 
Department's budget calls for moving programs under the purview of 
ONDCP into other agencies, and my concern is that doing so would 
negatively alter the structure of these programs by reducing their 
visibility on the State and local levels and possibly subjecting grant 
distributions to bureaucratic delays.
    Has the Department considered the impact of this move in light of 
these concerns?

    Answer. The Drug Enforcement Administration (DEA) is actively 
involved in High Intensity Drug Trafficking Areas (HIDTAs) throughout 
the Nation. This involvement includes close coordination with State and 
local law enforcement officers to identify and investigate the most 
significant drug traffickers and suppliers threatening local 
communities.
    While the Department's original intent had been to, and enhance 
their close working relationships with State and local counterparts, we 
understand that the fiscal year 2019 committee marks subsequently have 
not funded the program within DOJ. This being the case, the Department 
and the DEA will continue to work in close coordination with HIDTA to 
combat drug trafficking.
                                 ______
                                 
             Questions Submitted by Senator James Lankford
    Question 1a. Currently, there are two primary State and Local Law 
Enforcement Assistance programs that provide grant funding to State and 
local law enforcement to assist with DNA kit and sexual assault kit 
(SAKs) backlogs--the statutorily authorized Debbie Smith DNA Backlog 
Reduction grants administered by National Institute of Justice (NIJ) 
and the statutorily unauthorized Sexual Assault Kit Initiative (SAKI) 
administered by the Bureau of Justice Assistance (BJA).
    Please provide the following financial data for funds appropriated 
to the Debbie Smith DNA Backlog Grant Program in fiscal year 2015, 
fiscal year 2016, and fiscal year 2017:
    Appropriated amount spent on/awarded for testing DNA and sexual 
assault kits.

    Answer.  The Department of Justice (DOJ) appropriations acts for 
the specified fiscal years (2015, 2016, and 2017) did not contain any 
funds appropriated pursuant to 34 U.S.C. Sec. 40701, the ``Debbie Smith 
DNA Backlog Grant Program'' statute.\2\ Accordingly, the Department 
awarded no grants under that statutory authority in those years. 
Statutory authority for the National Institute of Justice's (NIJ) DNA 
capacity enhancement and backlog reduction programs and activities, and 
for the Bureau of Justice Assistance's (BJA) Sexual Assault Kit 
Initiative (SAKI), respectively, has come--solely--from two, separate 
appropriations line items enacted in the DOJ appropriations acts for 
each of the fiscal years mentioned.
---------------------------------------------------------------------------
    \2\ In fact, no appropriations have been enacted (and no grants 
have been made) to date pursuant to this statutory authority. The 
enacted language--enacted in annual DOJ appropriations acts--that 
provides the statutory authority for NIJ's backlog reduction and 
capacity enhancement activities, in particular, has remained 
substantially similar in each year over the past decade.
---------------------------------------------------------------------------
    The fiscal year 2017 statutory authority for NIJ's DNA capacity 
enhancement and backlog reduction programs and activities (enacted via 
language substantially similar to the language enacted in the two 
preceding fiscal years) makes funds available ``for a DNA analysis and 
capacity enhancement program and for other local, State, and Federal 
forensic activities, including the purposes authorized under [34 U.S.C. 
Sec. 40701]'' (the ``DNA and forensic program appropriation'') 
(Department of Justice Appropriations Act, 2017, Public Law No. 115-31, 
131 Stat. 135, 204).
    NIJ publishes an annual report, which it also provides to Congress, 
on the activities it funds with the DNA and forensic program 
appropriation. The report in each year includes a detailed discussion 
and breakdown of activities funded for the covered fiscal year, 
including the total amounts awarded by fiscal year under NIJ programs 
that make funds available for DNA testing (including evidence from 
sexual assault kits), among other things. Links to these reports for 
fiscal years 2015 through 2017 are provided below.
    Fiscal Year 2015 Funding for DNA Analysis, Capacity Enhancement And 
Other Forensic Activities: https://www.ncjrs.gov/pdffiles1/nij/
249905.pdf
    Fiscal Year 2016 Funding for DNA Analysis, Capacity Enhancement, 
And Other Forensic Activities: https://www.ncjrs.gov/pdffiles1/nij/
250552.pdf
    Fiscal Year 2017 Funding for DNA Analysis, Capacity Enhancement, 
And Other Forensic Activities: https://www.ncjrs.gov/pdffiles1/nij/
251445.pdf

    Question 1b. Appropriated amount spent on/awarded for each of the 
authorized purposes for use of the funds under 34 U.S.C. Sec. 40701(a)

    Answer.  Please see my response to Question 1a.

    Question 1c. Appropriated amount spent on/awarded for each other 
section of 34 U.S.C. Sec. 40701.

    Answer.  Please see my response to Question 1a.

    Question 1d. Appropriated amount spent on/awarded for all other 
costs not included in 34 U.S.C. Sec. 40701.

    Answer.  Please see my response to Question 1a.

    Question 1e. Each amount under question 1a-1d, represented as a 
percentage of total amount spent on the Debbie Smith DNA Backlog Grant 
Program.

    Answer.  Please see my response to Question 1a.

    Question 2a. Please provide the following financial data on funds 
used for the Sexual Assault Kit Initiative in fiscal year 2015, fiscal 
year 2016, and fiscal year 2017:
    Amount spent on/awarded for testing DNA and sexual assault kits.

    Answer.  Between fiscal years 2015 and 2017, SAKI appropriations 
have been authorized by each year's Department of Justice 
appropriations act. This includes Public Law (Public Law) 113-235 in 
fiscal year 2015, Public Law 114-113 in fiscal year 2016, and Public 
Law 115-31 in fiscal year 2017. For example, the appropriations 
language that supports SAKI in fiscal year 2017 makes funds available 
``for a grant program for community-based sexual assault response 
reform.'' (Department of Justice Appropriations Act, 2017, Public Law 
No. 115-31, 131 Stat. 135, 204).
    SAKI supports the Department's criminal justice priorities of 
reducing violent crime and supporting law enforcement officers and 
prosecutors by: (1) providing jurisdictions with resources to address 
sexual assault kits (SAKs) in their custody that have not been 
submitted to a forensic laboratory for testing with Combined DNA Index 
System (CODIS)-eligible DNA methodologies; and (2) improving 
investigation and prosecution in connection with evidence and cases 
resulting from the testing process.
    The goal of SAKI is the creation of a coordinated community 
response that ensures just resolution to these cases, whenever 
possible, through a victim-centered approach, and to build 
jurisdictions' capacities to prevent the development of conditions that 
lead to high numbers of unsubmitted SAKs. SAKI funding is intended to 
help law enforcement and prosecutors address all of the challenges 
associated with reducing the number of unsubmitted SAKs in their 
jurisdictions. This will give these jurisdictions the evidence and 
tools to solve and reduce violent crimes associated with sexual 
assault, while achieving the long-term goal of improving the criminal 
justice response to cases of sexual assault.
    Unlike NIJ's backlog reduction efforts, SAKI is focused on locating 
and testing previously unsubmitted evidence, rather than addressing 
backlogs in the testing process. Grantees are permitted to spend up to 
50 percent of their awards on testing of unsubmitted SAKs; their 
remaining funds support other elements of the holistic SAKI approach 
discussed above. Based on the amounts awarded to SAKI jurisdictions 
between fiscal years 2015 and 2017, BJA estimates \3\ that:
---------------------------------------------------------------------------
    \3\ These amounts are estimates due to awards being made for a 
holistic approach that supports multiple programmatic activities in 
addition to testing of SAK evidence. These estimates were calculated by 
determining the maximum amount allowed to be used for testing (50 
percent of all site based awards).

  --$15.1 million (41.6 percent of total SAKI awards) was spent on 
        testing of unsubmitted SAKs in fiscal year 2015;
  --$15.7 million (38.9 percent of total SAKI awards) was spent on 
        testing in fiscal year 2016; and
  --$17.6 million (47.4 percent of total SAKI awards) was spent on 
        testing in fiscal year 2017.

    BJA's SAKI program webpage provides detailed information on SAKI 
awards and activities funded in fiscal years 2015 through 2017: https:/
/www.bja.gov/ProgramDetails.aspx?Program_ID=117#horizontalTab1.

    Question 2b. Amount spent on/awarded for all other uses than 
testing sexual assaults kits--accounted for by use.

    Answer.  Please see my response to Question 2a.

    Question 2c. An identification of source and authority of funds for 
each spend/award under questions 2a-2b.

    Answer.  Please see my response to Question 2a.

    Question 2c. Each amount under question 2a-2b, represented as a 
percentage of total amount spent on SAKI.

    Answer.  Please see my response to Question 2a.

    Question 3a. Has DOJ explored the possibility of consolidating 
these programs?
    Why or why not?

    Answer.  Please see my response to Question 3b.

    Question 3b. Are there economies of scale, or otherwise 
implementable best practices based on commonality of purpose, scope, or 
practice, which can be pursued in the Debbie Smith DNA Backlog Grant 
Program and the Sexual Assault Kit Initiative?

    Answer.  The Department has explored the possibility of program 
consolidation (with respect to programs and activities in relation to 
sexual assault evidence kits) under both the current and previous 
administrations and has determined that the various programs serve 
different needs and are complementary. NIJ and BJA have engaged in 
deliberate coordination with respect to these initiatives to avoid 
unintentional program overlap. Therefore, though the two programs both 
have components that can address DNA testing of sexual assault 
evidence, the respective programs engage and focus on somewhat 
different criminal justice system stakeholders--and on different stages 
of the criminal justice process--and address distinct and separate 
issues. In the event that future enactments may result in a 
consolidation of activities, the Department would continue to strive to 
ensure that it leverages program resources in this area to maximize 
impact.
    NIJ's DNA Capacity Enhancement and Backlog Reduction (DNA CEBR) 
grants program has different objectives and purposes than BJA's Sexual 
Assault Kit Initiative (SAKI). The DNA CEBR program funds States and 
units of local government with existing crime laboratories that conduct 
DNA analysis to process, record, screen, and analyze forensic DNA and/
or DNA database samples, and to increase the capacity of public 
forensic DNA and DNA database laboratories to process more DNA samples, 
thereby helping to reduce the number of forensic DNA and DNA database 
samples awaiting analysis. The cases DNA CEBR grants fund have already 
been submitted by the law enforcement agency to the crime laboratory 
for DNA analysis. These cases include violent crime cases (such as 
homicides and other violent assaults) and property crimes, not just 
sexual assault kits (SAKs). As individual crime laboratory resources 
and demands vary across the Nation, DNA CEBR grant recipients use their 
own discretion to spend the funding for DNA laboratory capacity 
enhancement purposes, for DNA analysis of evidence from all types of 
casework (including sexual assault evidence, DNA database samples from 
convicted offenders and, in applicable jurisdictions, arrestees), or 
for any combination of the two, based on the recipient jurisdiction's 
specifically-identified needs.
    The main objectives of BJA's SAKI program are to (1) provide 
jurisdictions with resources to address SAKs in their custody that have 
not been submitted to a forensic laboratory for testing and (2) improve 
investigation and prosecution in connection with evidence and cases 
resulting from the testing process. The SAKI program ensures a 
coordinated community response that seeks just resolutions to these 
cases, whenever possible, through a victim-centered approach and to 
build jurisdictions' capacities to prevent the development of 
conditions that lead to high numbers of unsubmitted SAKs. And, unlike 
DNA CEBR, SAKI funds can be used to analyze forensic evidence 
associated with sexual assault cases besides DNA.
    The overall goal of DNA CEBR, as stated above, is to enhance DNA 
testing capacity in State and local crime laboratories while reducing 
the numbers of forensic-DNA- and DNA-database samples awaiting testing. 
SAKI is a resource intended to help law enforcement and prosecutors 
address all of the challenges associated with SAKs that have never been 
submitted to a forensic laboratory for testing.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                         lack of atf resources
    Question 1a. I strongly believe that ATF is consistently 
understaffed and underfunded, despite your assertions that DOJ will 
prioritize investigating and prosecuting gun crimes.
    What is also difficult is that year after year, the bills produced 
by this subcommittee and its House counterpart include a number of 
policy riders that limit the Federal Government's ability to enforce 
existing gun laws. These provisions do everything from limiting ATF's 
ability to make commonsense updates to its definitions, to requiring 
sellers to report suspicious transactions, to properly classifying 
dangerous ammunition.
    Can you describe how these appropriations riders and the 
underfunding of ATF impact the Department's ability to protect public 
safety?

    Answer. ATF is subject to several specific restrictions on its use 
of appropriated funds. Some of these restrictions impose limits on 
ATF's regulatory authority. Examples include riders that prohibit ATF 
from using appropriated funds to require a physical inventory of 
firearms held by a Federal Firearms Licensee (FFL), consolidate or 
centralize FFL firearm acquisition or disposition information, 
electronically retrieve FFL out of business record information by name 
or personal identification code, or to change the definition of 
``curios or relics'' in 27 C.F.R. 478.11. ATF exercises its existing 
lawful authority to carry out its mission, including regulating 
firearms in a manner consistent with statutory mandates. ATF has a 
crucial public safety mission of reducing firearms violence, combating 
firearms trafficking, and decreasing the risk posed to the public from 
explosives, bombs and arson. To fulfill its mission, ATF must 
continuously strive to maximize its limited resources. ATF is a lean, 
efficient organization, and has consistently adapted to tight budgetary 
circumstances. The Department's budget requests for ATF seek funding at 
a level sufficient to sustain existing operations while enhancing 
programs that most effectively combat violence related to firearms and 
explosives.

    Question 1b. How can you actually enforce existing laws when 
Congress puts all of these obstacles in your way?

    Answer. Notwithstanding these limits on its use of appropriated 
funds, ATF exercises its existing lawful authority to carry out its 
mission. In fiscal year 2018, the Justice Department charged more than 
15,300 defendants with Federal firearms offenses, which is 17 percent 
more than the previous record.
                      census citizenship question
    Question 2a. On March 26, Commerce Secretary Ross issued a 
memorandum directing the Census Bureau to add a question on citizenship 
status on the 2020 Census. The memo stated that the citizenship 
question was being included at the request of the Justice Department 
because DOJ argued that census-level data on citizenship is needed to 
enforce the Voting Rights Act.
    This data has never been required on census forms sent to all 
Americans since the passage of the Voting Rights Act. Why is it now 
needed?

    Answer. The Department made this request to reinstate a citizenship 
question on the census in furtherance of its commitment to fair and 
consistent enforcement of the Nation's voting rights laws. As explained 
in the Department's letter, accurate citizenship data is ``critical to 
the Department's enforcement of Section 2 of the Voting Rights Act and 
its important protections against racial discrimination in voting. To 
fully enforce those requirements, the Department needs a reliable 
calculation of the citizen voting-age population in localities where 
voting rights violations are alleged or suspected.''

    Question 2b. What steps is your Department taking to protect voting 
rights now and how would DOJ's voting rights actions change if this new 
data is collected?

    Answer. The Department of Justice is resolutely committed to the 
robust and evenhanded enforcement of the Nation's civil rights laws and 
to free and fair elections for all Americans. In February 2018, the 
Department filed and resolved a voting rights case involving the State 
of Arizona. Since January 2017, the Department has participated as a 
party in three cases brought under Section 2 of the Voting Rights Act. 
The Department has also successfully resolved three statewide cases and 
under the National Voter Registration Act. Each of those resolutions 
guarantees that Americans across the country will have a full and fair 
opportunity to register to vote and to remain registered. Additionally, 
the Department has filed three amicus curiae briefs in voting rights 
cases, including a case alleging unconstitutional denials of the right 
to vote and a case seeking equal access at polling places for members 
of a language minority group in one of America's largest cities.
    The Department also has continued our election monitoring program 
as well as our outreach and enforcement work under Section 203 of the 
Voting Rights Act.
    Section 203 of the Voting Rights Act protects the rights of members 
of language minority groups to participate in elections. The Department 
is also protecting the rights of military and overseas voters under the 
Uniformed and Overseas Citizens Absentee Voting Act (UOCAVA). The 
Department has assisted several States in achieving UOCAVA compliance 
in special elections in 2017 and 2018, and worked with States to 
achieve UOCAVA compliance through the 2018 midterm elections.
    The Department is working to ensure that all of this year's 
elections are conducted in accordance with Federal law requirements. We 
are actively working with States and localities to ensure that members 
of language minority groups and our brave men and women in uniform have 
a full and equal opportunity to cast their ballots.
    With regard to how the Department will use this census data, the 
Department's letter explained why ``the decennial census questionnaire 
is the most appropriate vehicle for collecting [citizenship] data, and 
reinstating a question on citizenship will best enable the Department 
to protect all American citizens' voting rights under Section 2.'' As 
you may know, ``[t]he Supreme Court . . . held that Section 2 of the 
Voting Rights Act prohibits `vote dilution' by State and local 
jurisdictions engaged in redistricting[.]'' Vote dilution can occur 
``when a racial group is improperly deprived of a single-member 
district in which it could form a majority.'' As many Federal courts of 
appeals have held, ``where citizenship rates are at issue in a vote-
dilution case, citizen voting-age population is the proper metric for 
determining whether a racial group could constitute a majority in a 
single-member district[.]'' Thus, ``[t]hese cases make clear that, in 
order to assess and enforce compliance with Section 2's protection 
against discrimination in voting, the Department needs to be able to 
obtain citizen voting-age population data for census blocks, block 
groups, counties, towns, and other locations where potential Section 2 
violations are alleged or suspected.''

    Question 2c. Were you involved in making this recommendation? Did 
the Department discuss this with the White House? If so, with whom?

    Answer. Since the Department submitted its letter, at least six 
lawsuits have been filed against the Department of Commerce challenging 
its decision to reinstate a question regarding citizenship to the 2020 
Census questionnaire. The Justice Department is defending these 
lawsuits. In deference to the courts charged with hearing and resolving 
pending litigation involving the United States, it is longstanding 
Department policy not to comment on or discuss matters involved in 
active litigation. To the extent this question is specifically directed 
to former Attorney General Jeff Sessions, it would be inappropriate for 
the Department to respond further.
                      doj rule to ban bump stocks
    Question 3a. DOJ recently started the rulemaking process to ban 
bump stocks under the National Firearms Act.
    However, ATF has repeatedly said for years that it cannot ban bump 
stocks, because the National Firearms Act does not allow it.
    The ATF repeated this position as recently as April 2017, and the 
ATF Director has repeatedly stated in public that the ATF cannot ban 
bump-fire stocks under current law. That's why I proposed legislation 
to change the law.
    Do you expect that DOJ's bump stock rule will be challenged in 
court?

    Answer. On December 18, 2018, Acting Attorney General Matthew 
Whitaker announced that the Department of Justice has amended the 
regulations of the Bureau of Alcohol, Tobacco, Firearms, and Explosives 
(ATF), clarifying that bump stocks fall within the definition of 
``machinegun'' under Federal law, as such devices allow a shooter of a 
semiautomatic firearm to initiate a continuous firing cycle with a 
single pull of the trigger. The final rule will go into effect March 
26, 2019; 90 days from the date of publication in the Federal Register. 
A lawsuit challenging the rule was filed following the announcement in 
December.

    Question 3b. If DOJ's bump stock rule were struck down by the 
courts, would you support legislation to ban bump stocks?

    Answer. Should Congress choose to propose legislation on this 
issue, the Department would be pleased to review it.
                   domestic violence crimes and guns
    Question 4a. Domestic violence abusers who have been convicted of a 
misdemeanor crime of domestic violence or who are subject to a 
protection order are supposed to be prohibited from possessing firearms 
or ammunition under Federal firearms law.
    However, I understand that many domestic violence abusers are, 
nevertheless, able to buy guns.
    Local domestic violence programs often attempt to help victims by 
seeking removal of the firearms, but they are unable to get assistance 
from the DOJ and other Federal agencies. Similarly, local law 
enforcement is often overwhelmed by the sheer numbers of firearms in 
the possession of domestic violence offenders.
    How will the DOJ improve their response to cases like these, which 
are likely to lead to homicides?

    Answer. ATF will continue to work with State and local law 
enforcement to ensure that prohibited persons do not acquire or possess 
firearms and ammunition. ATF will also continue to educate individuals 
and organizations engaged in the business of the sale of firearms and 
ammunition of their responsibilities under the law. ATF's authority to 
seize firearms in such instances is limited to circumstances where it 
can establish probable cause that the firearms are possessed in 
violation of Federal law. ATF works closely with State and local 
partners on a case-by-case basis to determine if sufficient Federal 
seizure authority exists, and from that determination ATF proceeds 
accordingly.
    In addition, the Department's Office on Violence Against Women has 
funded two technical assistance projects that address the safety 
concerns associated with domestic violence involving firearms. First, 
the National Resource Center on Domestic Violence and Firearms provides 
information for communities on best practices to address the safety of 
domestic violence victims where firearms are involved. Additionally, 
the Firearms Safety Enhancement Project provides specific technical 
assistance to identified communities to help them develop coordinated 
community responses that enhance safety in domestic violence cases 
involving firearms.
                            methamphetamine
    Question 5a. In 2017, the vast majority of the nearly 29,000 
kilograms of methamphetamine seized at the Southwest Border was seized 
by the San Diego Sector.
    Not surprisingly, San Diego has been especially hard hit by 
methamphetamine abuse. In 2016, there were 377 meth-related deaths in 
the county. This is the equivalent of one death every 23 hours.
    That is why the COPS Anti-Methamphetamine Task Force grants--a 
program I helped establish in 2014--is so important. This program 
currently provides approximately $8 million to State law enforcement 
agencies in 6 States to participate in meth-related investigative 
activities.
    Given the significant increase in methamphetamine use and 
associated deaths, why does your budget propose eliminating funding for 
this program?

    Answer. The Department remains committed to its methamphetamine 
related investigative and prosecutorial efforts. The budget does not 
fund these grants to State and local level task forces; however, it 
does include $10 million for DEA to continue its clandestine 
methamphetamine laboratory cleanup. DEA also continues to train State 
and local law enforcement personnel from across the Nation through its 
clandestine lab course. Finally, DEA is committed to its robust 
engagement and partnership with the Government of Mexico. Through this 
partnership, we seek to stop the production and trafficking of 
methamphetamine and to support clandestine lab training for Mexican law 
enforcement personnel.
                    firing of deputy director mccabe
    Question 6a. Last month, the Justice Department allowed the Senate 
Judiciary Committee to review the Office of Professional Responsibility 
report on former FBI Deputy Director Andrew McCabe that led to his 
firing.
    It's my understanding that Mr. McCabe submitted a response to the 
allegations against him, but his response was not included in the 
materials provided to the Senate Judiciary Committee.
    It's important that we have the full record. Will you commit to 
providing the Committee Mr. McCabe's response?

    Answer. On June 6, 2018, the Department provided the Senate 
Judiciary Committee with the FBI Office of Professional Responsibility 
report on former FBI Deputy Director McCabe, the Memorandum to the 
Attorney General from an Associate Deputy Attorney General, and the 
decision by then Attorney General Sessions. On June 12, 2018, less than 
one week later, Mr. McCabe's attorney filed a lawsuit against the 
Department, the Department's Office of Inspector General, and the FBI. 
In light of the pending litigation and to the extent this question 
calls for the personal knowledge of former Attorney General Jeff 
Sessions, it would not be appropriate to provide further comment or 
documentation regarding this matter.

    Question 6b. Can you give me another example where an employee has 
been given just 7 days to respond to serious allegations of misconduct?

    Answer. Federal law provides that when an agency has reasonable 
cause to believe that an employee has committed a crime for which a 
sentence of imprisonment may be imposed, and the agency is proposing 
removal (or suspension), a shortened 7-day period applies in which the 
employee may respond to the agency's proposed action. See 5 U.S.C. 
Section 7513(b); 5 C.F.R. 752.404. This provision may be invoked even 
in the absence of judicial action.

    Question 6c. Is there another instance where an employee was fired 
the same day that he or she responded?

    Answer. The Department does not as general matter comment on 
personnel decisions. Through an extraordinary accommodation in light of 
the enormous public interest in this matter the Department made 
available to the Senate Judiciary Committee the FBI Office of 
Professional Responsibility report on former FBI Deputy Director 
McCabe, the Memorandum to the Attorney General from an Associate Deputy 
Attorney General, and the decision by then Attorney General Sessions.
               disclosure of law enforcement information
    Question 7a. Department officials have explained that providing the 
public or Congress with information during an active investigation 
``could compromise the reputational or privacy rights of uncharged 
parties, undermine any ongoing investigations of those parties, and 
give the misimpression that the Department's investigative steps are 
susceptible to political influence.
    What are the risks of Congress requiring the Department to report 
on factual findings or investigative steps during an open 
investigation?

    Answer. Over many years and many changes of administration, the 
Department has consistently articulated a concern that Congressional 
involvement in ongoing criminal investigations could politicize the 
criminal justice system or give the appearance of such, thus 
threatening the integrity of those investigations. The Department's 
longstanding policy of investigatory independence was more fully set 
forth in a January 27, 2000 letter from Robert Raben, Assistant 
Attorney General for the Office of Legislative Affairs, to John Linder, 
then-Chairman of the Subcommittee on Rules and Organization of the 
House Committee on Rules.
              recusal from trump or clinton investigations
    Question 8a. You previously committed to recusing yourself from 
``any matters related in any way to the campaigns for President of the 
United States,'' as well as issues related to Hillary Clinton's emails 
or the Clinton Foundation.
    In March, however, you announced that you had asked the Inspector 
General and the U.S. Attorney in Utah to look into various matters 
related to Uranium One and the Clinton Foundation.
    How is your referral of these matters consistent with your previous 
commitment to recuse from any matters involving the 2016 presidential 
campaigns or the Clinton Foundation?

    Answer. Mr. Huber was asked to look into a number of matters and to 
report back to the Attorney General or Deputy Attorney General as 
appropriate. Mr. Huber will report to the Department consistent with 
the rules of professional responsibility and government ethics 
regulations that govern Department attorneys. To the extent this 
question is specifically directed to former Attorney General Jeff 
Sessions, it would be inappropriate for the Department to respond 
further.
                  handling of sexual harassment claims
    Question 9a. A June 2017 Inspector General report found systemic 
problems with how allegations of sexual misconduct were handled by the 
Justice Department's Civil Division. The report details several serious 
incidents of sexual misconduct.
    In one instance, a senior male attorney groped two of his female 
colleagues without their consent. Shortly thereafter, he was 
transferred to another division and received no suspension or reduction 
in pay.
    What steps have you personally taken to ensure the Department of 
Justice is free from sexual harassment and misconduct in the workplace?

    Answer. On April 30, 2018, the Department issued a memorandum 
directing heads of components to address sexual harassment and sexual 
misconduct allegations with vigilance and seriousness. See https://
www.justice.gov/policies-and-
directives-effect-relating-and-duty-conduct-including-sexual-
misconduct. The directive was the result of the Department's intensive 
efforts to address 2017 findings by Inspector General Horowitz 
regarding how the Department handles claims of sexual harassment and 
sexual misconduct. Components were directed to address such allegations 
through:

  --Enhancing the management, investigation, and tracking of 
        allegations of sexual harassment and sexual misconduct;
  --Informing employees of how they can report allegations of sexual 
        harassment or sexual misconduct;
  --Ensuring that allegations are reported to component management, 
        security offices, and OIG under applicable policies;
  --Keeping employees informed of the progress of the component's 
        reviews of their allegations;
  --Proposing and imposing consistent and serious discipline for 
        substantiated allegations;
  --Considering ongoing investigations of sexual harassment and 
        misconduct allegations or prior disciplinary actions for sexual 
        harassment or misconduct when making decisions about awards 
        (monetary and otherwise), public recognition, or favorable 
        personnel actions (such as promotions); and
  --Ensuring that employees are aware of the Department's policies 
        regarding harassment, sexual misconduct, and other related on-
        and off-duty conduct.

    With respect to disciplinary actions, the directive urges 
components to propose strong and meaningful disciplinary action to 
address substantiated allegations. For example, a penalty of at least a 
15-day suspension (up to removal, including a demotion) should be 
proposed where a substantiated incident of sexual harassment or 
misconduct involves aggravating factors (such as sexual assault, 
stalking, repetition, quid pro quo for official actions, any form of 
voyeurism such as peeping, or retaliation for reporting prior 
misconduct); or where the subject has a supervisory role
vis-a-vis the victim or was previously disciplined for sexual 
harassment or misconduct.
    Finally, the directive provides for annual reporting and 
accountability, which will provide Department leadership greater 
visibility into how allegations of sexual harassment and sexual 
misconduct are handled.
    With greater awareness of our policies prohibiting sexual 
harassment and misconduct, as well as renewed vigilance for reporting, 
investigating, and initiating consistent and decisive action on 
substantiated allegations, the Department continues to strive for a 
workplace free of sexual harassment and misconduct.

    Question 9b. What are the penalties for employees who are involved 
in sexual harassment or misconduct? Are they sufficient?

    Answer. Please see my response to 9a.

    Question 9c. A June 2017 DOJ IG report on sexual harassment found 
the Civil Division engaged in a practice called ``pass the trash,'' 
where an employee accused of sexual misconduct would be transferred to 
another division and not reprimanded or punished. The IG concluded that 
this is in conflict with the Department of Justice's zero tolerance 
policy for sexual harassment.
    Are you familiar with the practice at DOJ called ``pass the 
trash''?

    Answer. Please see my response to 9a.

    Question 9d. Are you aware of any Division at DOJ still engaging in 
the ``pass the trash'' practice?

    Answer. Please see my response to 9a.

    Question 9e. Can you assure the Committee it is no longer in 
practice anywhere in DOJ?

    Answer. Please see my response to 9a.

    Question 9f. Earlier this year, the Civil Rights Division launched 
an initiative to combat sexual harassment in workplace.
    What enforcement actions will the Civil Rights Division begun to 
pursue under this Initiative?

    Answer. In February 2018, the Division announced the launch of its 
Sexual Harassment in the Workplace Initiative (Initiative). This 
Initiative, which will be implemented by the Division's Employment 
Litigation Section, is intended to tackle sexual harassment in public 
sector workplaces. The Initiative focuses on local, State, and Federal 
Government employers. Specifically, the Initiative seeks to assist 
agencies with implementing policies and procedures designed to more 
quickly and efficiently identify potential sexual harassment or 
misconduct. The Initiative will also assist employers in the 
enforcement of standing policies and procedures, and will initiate 
interventions when necessary to improve the workplace for all 
employees. As part of the Initiative, the Division will prioritize the 
review and acceptance for litigation of sexual harassment charge 
referrals from the Equal Employment Opportunity Commission (EEOC).
    Since the start of the Initiative, the Division has filed one 
enforcement action based on a charge of sex discrimination, and has 
received a favorable verdict in the bench trial of a sexual harassment 
case brought in Wyoming. In addition, the Division is conducting 
several sexual harassment investigations, and pursuant to long-standing 
Department policies, all information relating to these investigations 
is confidential.

    Question 9g. What new resources are being provided to this 
initiative?

    Answer. The Division will redirect existing attorney, paralegal, 
and paraprofessional resources to staff the Sexual Harassment in the 
Workplace Initiative. The Initiative staff members will work in 
conjunction with the United States Attorney's Offices. The Division's 
Employment Litigation Section has formed an internal taskforce that 
will focus on implementing the goals of the Initiative.

    Question 9h. According to the Department, this Initiative will also 
develop policies for public sector employers to ensure that sexual 
misconduct allegations are properly reported and that the perpetrators 
face consequences.
    Can you expand on the Department's plans for developing and 
implementing these policies?

    Answer. Division staff will work with employers, civil rights 
advocates, and other Federal agencies, including the EEOC, to develop 
model anti-sexual harassment policies and trainings for State and local 
employers. The Division anticipates that these newly developed policies 
and tailored, interactive trainings will promote transparency and 
accountability within workplaces to prevent illegal harassment. The 
model policies and trainings also seek to provide safeguards against 
retaliation for persons who report sexual harassment. Additionally, the 
Division's outreach efforts will provide information to employers about 
their Title VII responsibilities and information to their employees 
about their Title VII rights and remedies.
      ``engaging in the business'' investigations and prosecutions
    Question 10a. The Department released a new guidance a couple of 
years ago outlining how and when a gun seller is ``engaging in the 
business'' of dealing firearms--and must therefore get a Federal 
license and run background checks on all buyers.
    The ATF and DOJ committed to a more robust enforcement of dealers 
who illegally engage in the business without a license.
    What has the Department done to fulfill this commitment since last 
year? Please share any tangible statistics or anecdotes indicating an 
increase in investigations.

    Answer. Please see my response to Question 10b.

    Question 10b. How has the Department changed its approach in order 
to fulfill this commitment? Has there been an uptick in arrests made 
for the ``engaging in the business'' charge?

    Answer. ATF is committed to protecting our communities from violent 
criminals, criminal organizations, the illegal use and trafficking of 
firearms, and other Federal violations over which ATF has jurisdiction.
    ATF has Criminal Enforcement groups enforcing Federal criminal laws 
and Industry Operations Investigators (IOIs) regulating the firearms 
industry. Special Agents and IOIs work collectively to accomplish our 
mission. Special Agents and IOIs participate in many gun shows across 
the Nation, educating the public on firearms laws and the requirements 
to obtain a Federal Firearms License. Special Agents attempt to 
identify and interdict any illicit firearms transfers. Special Agents 
also attempt to identify individuals who are suspected of dealing in 
firearms without the required Federal Firearms License. When these 
individuals are identified, ATF takes all possible measures to stop any 
further criminal activity.
    Statistics indicate that the number of prosecutions for violations 
of Title 18 USC 922(a)(1)(A), Dealing Firearms without a license, has 
increased from 178 during fiscal year 2017 to 253 for fiscal year 2018.
                    handguns that fire rifle rounds
    Question 11a. Over the past two decades, the gun industry has 
developed handguns that can fire rifle rounds, penetrating the standard 
body armor worn by law enforcement officers. This is extraordinarily 
concerning to our law enforcement officers.
    Do you believe such handguns represent a threat to law enforcement?

    Answer. Handguns firing rifle cartridges produce and utilize a 
higher chamber pressure than typical handgun ammunition and therefore 
fire projectiles at a greater velocity. When compared to traditional 
handguns keeping all other variables equal, Kevlar vests are less 
likely to stop these projectiles. However, the likelihood of any 
projectile penetrating a soft Kevlar vest is dependent on numerous 
variables, including distance, type of projectile, barrel length, and 
propellant powder load, among others.

    Question 11b. Are such handguns generally subject to the National 
Firearms Act?

    Answer. No. These handguns are not NFA firearms.

    Question 11c. What will be the Department's plan to address this 
new type of weapon?

    Answer. The Department will continue to regulate the production of 
these firearms under the Gun Control Act.
                    ongoing lawsuits defended by doj
    Question 12a. I understand that your budget request includes 
additional funds for attorneys in the Federal Programs Branch of DOJ, 
which defends against lawsuits. Can you please provide a status on the 
additional amount of resources you would need going forward to defend 
the following?
    Lawsuits defending against DHS' Travel Ban?

    Answer. The litigation challenging the President's Executive Orders 
and Memoranda designed to protect the American people from terrorist 
attacks by foreign nationals admitted to the United States is now 
winding down at the district court level.

    Question 12b. Lawsuits challenging the President's alleged 
acceptance of ``emoluments,'' in violation of the ``emoluments clause'' 
in the Constitution?

    Answer. There are currently three lawsuits alleging violations of 
the Foreign and Domestic Emoluments Clauses of the Constitution 
whenever the President's businesses receive any benefit from foreign 
and domestic government instrumentalities. One case is currently on 
appeal to the U.S. Court of Appeals for the Second Circuit, after a 
U.S. District Court dismissed the complaint. The remaining two cases 
are pending before district courts in Maryland and the District of 
Columbia. In both cases, dispositive motions have been fully briefed 
and arguments on the pending motions were held in early June.

    Question 12c. Lawsuits challenging the bump stock ban rule that the 
DOJ is proposing?

    Answer. On March 29, 2018, the Department of Justice issued a 
notice of proposed rulemaking to amend the Bureau of Alcohol, Tobacco, 
Firearms, and Explosives regulations to clarify that ``bump fire'' 
stocks, slide-fire devices, and devices with certain similar 
characteristics (bump-stock-type devices) are ``machineguns'' as 
defined by the National Firearms Act of 1934 (NFA) and the Gun Control 
Act of 1968 (GCA), because such devices allow a shooter of a 
semiautomatic firearm to initiate a continuous firing cycle with a 
single pull of the trigger. The comment period closed at midnight on 
June 27, 2018. ATF thoroughly assessed all comments received during the 
comment period before determining the content of a final rule. On 
December 18, 2018, Acting Attorney General Matthew Whitaker announced 
that the Department of Justice had amended the necessary regulations 
and that the final rule would go into effect March 26, 2019; 90 days 
from the date of publication in the Federal Register. With respect to 
fiscal year 2019, the Civil Division does not anticipate needing 
additional resources beyond our current fiscal year 2018 base budget, 
which funds necessary Automated Litigation Support (ALS) services, and 
the fiscal year 2019 request for the purpose of defending any actions 
challenging any final regulation promulgated thereafter.

    Question 12d. Lawsuits involving border wall ``takings''--where the 
Federal Government will have to ``take'' real property from landowners 
on the Southern Wall?

    Answer. Eminent domain proceedings to acquire real property are 
coordinated through the Department's Environment and Natural Resources 
Division (ENRD). Notably, ENRD has worked on land acquisition for 
border security projects since the 1990s. At this time, the Department 
anticipates supporting acquisition efforts for this fiscal year 
primarily in the Southern District of Texas, and ENRD is closely 
coordinating with that District to ensure adequate staffing to support 
those activities. ENRD is examining options for addressing these needs 
using existing appropriations and staffing levels, while also seeking 
to hire at least 2 new personnel during this fiscal year to support 
this work.

    Question 12e. FOIA lawsuits brought against Federal agencies, 
particularly with respect to ethics violations and the receipt of 
improper benefits by the EPA Administrator, the HUD Secretary, and the 
Interior Secretary?

    Answer. In 2017, more than 560 cases were filed against Federal 
agencies under the Freedom of Information Act (FOIA). This represents 
an increase of approximately 29 percent over the prior calendar year, 
and an increase of more than 123 percent compared to 10 years ago. The 
Federal Programs Branch handled approximately 23 percent of the new 
FOIA suits brought in 2017, an increase of 17 percent over the prior 
year and a 99 percent increase compared to 10 years ago. The rising 
caseload of FOIA litigation is a major driver for the fiscal year 2019 
Federal Programs increase in the President's Budget. If this budget 
increase is granted, the Civil Division will be better positioned to 
address these cases.
                   funding for direct victim services

    Question 13a. Many victim service providers that receive Victim of 
Crime Act (VOCA) assistance funds have stated they need training and 
technical assistance to manage funds they receive to comply with 
auditing requirements, on top of the important work they do in 
providing direct assistance to victims.
    What is DOJ doing to ensure that they have the appropriate training 
and technical assistance to manage the funds?

    Answer. The Department, through the Office for Victims of Crime 
(OVC), works to ensure that every victim has access to a well-trained, 
knowledgeable service provider.
    Recognizing the responsibility as a steward of public funds, the 
Department provides numerous opportunities to improve management and 
monitoring of Crime Victim Funds awarded to grantees. Grantees can use 
a portion of their administrative funds, up to 5 percent of their total 
funding, to provide training and technical assistance. Further, the 
Department has given other grants specifically for training and 
technical assistance. For example, in 2015, State VOCA Victim 
Assistance agencies received a discretionary grant to be used for 
training. OVC recently posted a fiscal year 2018 solicitation (OVC 
fiscal year 2018 Discretionary Training and Technical Assistance 
Program for VOCA Victim Assistance Grantees) for a total of $12 million 
that makes training funds available to the State agencies again.
    In addition, the Department facilitates training through the OVC 
Training and Technical Assistance Center. Cooperative agreements with 
partner organizations and grantees further assist the field in building 
its collective capacity to serve crime victims. The Department 
continues to build service capacity by offering a schedule of regional 
training and developmental support in critical areas such as needs 
assessment, program design, strategic planning, and evaluation. OVC 
continues to expand its outreach through in-person and Web-based 
trainings. OVC also manages State and national conference support 
programs that assist nonprofit organizations interested in hosting 
conferences on victim-related issues. Further, OVC operates a 
professional development scholarship program and maintains a speaker's 
bureau and a database of consultants who are available to support OVC's 
initiatives nationwide.

    Question 13b. We have heard from victim service providers in 
California and elsewhere that providing ``matching funds'' for 
increased VOCA funds is a challenge and therefore prevents quality 
service providers from applying for funds.
    What is the Department doing to expedite match waivers to ensure 
that victim service providers can apply for increased funds and provide 
important victim services?

    Answer. OVC routinely receives requests for match waivers for the 
VOCA State Victim Assistance Formula Grant Program from State agencies. 
It reviews these requests promptly and frequently grants them. The 
waivers are typically processed within a few weeks of receipt.
    Additionally, while many VOCA grant funds require a match by the 
subgrantee, there are many options available beyond a cash match. For 
example, in-kind and volunteer hours are options available to 
subgrantees in lieu of a cash match.
                       unsustainable prison costs
    Question 14a. Mr. Sessions, your Department's Budget requests $8.5 
billion for Prisons and Detention Operations, which represents nearly 
30 percent of the Department's total budget.
    Do you believe that the continued growth of prison and detention 
operations is sustainable going forward?

    Answer. The Department will continue to monitor the inmate 
population level and work with the administration and Congress to 
ensure that BOP and USMS have adequate resources to continue to operate 
safe and secure facilities. To the extent this question is specifically 
directed for former Attorney General Sessions, it would be 
inappropriate for the Department to respond further.

    Question 14b. You issued a charging memorandum to all Federal 
prosecutors, directing them to charge all of their cases with the most 
punitive chargeable offense. This change in policy takes discretion 
away from prosecutors, and I worry that it could lead to even higher 
prison costs in the future.
    How do you expect that this recent policy change will affect future 
resource requirements for the Bureau of Prisons and Marshals Service?

    Answer. The Department, BOP, and USMS continue to analyze the 
impacts of these policies. The Department will continue to monitor the 
inmate population level and work with the administration and Congress 
to ensure that BOP and USMS have adequate resources to continue to 
operate safe and secure facilities.
    Over the past year, the USMS detention population has increased by 
approximately 5,631 prisoners or 10.4 percent, from 53,991 on February 
7, 2018 to 59,622 on February 7, 2019. Based on the number of prisoners 
received and the increase in the detention population over the past 
year, the USMS expects the number of prisoners to continue to increase 
over the next 18-30 months.
    The Department is monitoring these changes closely and is assessing 
what effect these changes may have on resource allocation. To the 
extent this question is specifically directed for former Attorney 
General Jeff Sessions, it would be inappropriate for the Department to 
respond further.
            victim reporting of crimes in their communities
    Question 15a. I have heard concerns from local police officers that 
witnesses of violent crimes, and victims themselves, are reluctant to 
come forward to assist in criminal investigations because of some of 
the rhetoric that the President and this administration have used with 
respect to the immigration status or religious affiliation of an 
individual.
    What is your strategy to make sure that all witnesses and victims 
feel safe in reporting crimes?

    Answer. Combating hate crimes is among the highest priorities for 
the Department of Justice and the Civil Rights Division. The Department 
is working with law enforcement and affected communities to investigate 
and prosecute bias-motivated violence. We are also working to improve 
our training and outreach regarding identification, reporting, 
investigations, prosecutions of hate crimes.
    Last year, the FBI participated in numerous hate crime trainings 
and outreach events. The FBI also developed the National Training 
Initiative (NTI), which aims to strengthen civil rights education 
throughout the Nation by providing standardized training and materials 
that field offices may provide their law enforcement partners, non-
governmental organizations (NGOs), and community groups. As part of the 
NTI, the FBI conducts hundreds of seminars, workshops, and training 
sessions for local law enforcement, minority and religious 
organizations, and community groups to promote cooperation, reduce 
civil rights abuses, and provide education about civil rights statutes.
    Our U.S. Attorney's Offices have also engaged in direct outreach to 
affected communities so that community leaders and others know who in 
each office is responsible for carrying out the Department's commitment 
to fighting hate crimes.
    Earlier this year, the National Institute of Justice (NIJ) at the 
Office of Justice Programs issued a solicitation for proposals for 
research and evaluation to fill gaps in hate crimes research. 
Applications were accepted through May 2018. NIJ made one award of 
$840,649 to the University of New Hampshire to conduct a national 
survey of hate crime incidents and victimization. The study will 
provide detailed data about hate crimes, analyze local policies that 
impact hate crime reporting, and identify successful investigation and 
prosecution strategies.
    Additionally, the September 2017 issue of the Community Policing 
Dispatch, the e-newsletter by the Department's Office of Community 
Oriented Policing Services (COPS Office), consolidated some of COPS' 
most popular resources for combating bias-related crimes.
               human trafficking and injunction authority
    Question 16a. I want to congratulate the Department and all of its 
law enforcement partners for recently taking down Backpage, a website 
that has facilitated sex trafficking for years now. I have long urged 
the Department to act--and was pleased to hear about the recent 
takedown and guilty pleas.
    While significant attention has been paid to the supply side of 
human trafficking (breaking up trafficking rings, monitoring websites 
like Backpage, and rescuing girls), I am concerned that we are still 
not doing enough to reduce the demand, and address the problem of 
trafficking over the Internet.
    What is your strategy to address human trafficking over the 
Internet?

    Answer.  The Department shares your concern about human trafficking 
over the Internet. According to the 2017 Federal Human Trafficking 
Report prepared by the Human Trafficking Institute (available at 
https://www.traffickingmatters.com/wp-content/uploads/2018/05/2017-
Federal-Human-Trafficking-Report-WEB-Low-Res.pdf), in 2017, the 
overwhelming majority (84.3 percent) of pending Federal criminal sex 
trafficking cases involved traffickers who used the Internet to 
advertise victims and solicit purchasers for commercial sexual 
services.
    To address this, the Department is working in a variety ways to 
combat Internet- facilitated sex trafficking, including sex trafficking 
of minors and sex trafficking of adults by force, fraud, or coercion. 
Sex traffickers utilize the Internet and social media in multiple ways, 
not only to advertise victims to customers, but also to recruit and 
groom vulnerable victims, and to intimidate victims and witnesses in an 
effort to obstruct investigations and prosecutions of the traffickers' 
enterprises. Experience has demonstrated that traffickers utilize 
multiple websites and social media platforms for all of these wide-
ranging recruitment, advertising, and witness intimidation tactics. The 
Department is actively working to combat all forms of Internet-
facilitated sex trafficking. Its strategies include:

  --proactive investigations and enforcement operations to disrupt sex 
        traffickers' social media-based recruitment activities;
  --intelligence-driven targeting, investigations, and enforcement 
        operations to detect trafficking indicators in the context of 
        Internet commercial sex advertising;
  --proactive investigation of evolving trends in Internet commercial 
        sex advertising, including migration of advertising activity to 
        new platforms;
  --prosecution of commercial sex purchasers;
  --public awareness, prevention efforts, and innovative partnerships 
        aimed at protecting at-risk populations including children in 
        foster care, adults in drug rehabilitation facilities, and 
        individuals with intellectual disabilities;
  --intensive training of Federal, State, local, Tribal, and 
        international law enforcement partners on advanced strategies 
        for detecting, investigating, and prosecuting Internet-
        facilitated sex trafficking, including investigation and 
        prosecution of purchasers, advertisers, and facilitators;
  --financial investigations that trace the proceeds of sex trafficking 
        and asset forfeiture to seize the proceeds of sex trafficking 
        and remove the tools of the trade; and
  --working with survivor advocates to develop victim-centered, trauma-
        informed strategies for identifying, stabilizing, and 
        protecting victims to prevent re- victimization.

    The Department's comprehensive approach brings prosecutorial, 
policy, and public awareness resources to bear and includes: 
consolidating, sustaining and better deploying existing online tools 
and intelligence aimed at identifying trafficking offenders and 
victims, including children in the foster care system and other at-risk 
individuals; augmenting and improving the efficiency of targeted 
operations aimed at rescuing victims of sex trafficking and 
apprehending those who exploit them, including customers; targeting 
online advertisers who knowingly facilitate sex trafficking; using 
asset forfeiture to seize websites domains used to enable sex 
trafficking and take away the proceeds of sex trafficking; and 
supporting an awareness campaign that encourages the public to assist 
in interdicting these offenses.

    Question 16b. I have worked on legislation to update trafficking 
laws to include civil injunction authority to allow DOJ to bring civil 
cases against traffickers to prevent them from trafficking young 
victims, will you commit to using such authority?

    Answer.  The Department will utilize all available tools to combat 
the scourge of human trafficking.
             human trafficking and restitution for victims
    Question 17a. In a 2015 law review article, the Human Trafficking 
Pro Bono Legal Center reported on the low rates of restitution orders 
in human trafficking prosecutions. In a study of Federal human 
trafficking cases brought over a four period, Federal courts failed to 
order restitution in nearly two-thirds of cases involving sex 
trafficking offenses.
    They also found that the victims least likely to obtain restitution 
orders were children trafficked in the sex industry. Less than one-in-
three defendants who commit sex trafficking offenses against children 
were ordered to pay restitution to their victims.
    Can you discuss your efforts to ensure that prosecutors are trained 
to ensure that trafficking victims' receive restitution?

    Answer.  As the NGO found, prosecutors requested restitution in 63 
percent of human trafficking cases, while courts granted it in only 36 
percent of cases. The Department remains committed to ensuring 
prosecutors are trained to seek restitution orders from courts on 
behalf of victims of human trafficking. In November 2016 and November 
2017, the Department led human trafficking trainings at the National 
Advocacy Center for Federal prosecutors, which contained specialized 
segments that emphasized strategies for securing restitution orders. In 
2018, the Department conducted trainings at the National Advocacy 
Center that included presentations on restitution and forfeiture in 
child exploitation cases. Additionally, restitution and forfeiture were 
addressed at the 2017 National Law Enforcement Training on Child 
Exploitation, which was attended by approximately 1,200 Federal, State, 
local, and Tribal personnel. Federal prosecutors and law enforcement 
participating in the Anti-trafficking Coordination Team (ACTeam) 
Initiative also received training on mandatory restitution as part of 
their Advanced Human Trafficking Training Program (AHTTP).
    The Department includes presentations on enforcement of mandatory 
restitution provisions in multiple training events each year for Human 
Trafficking Task Forces, and Federal, State, local, and Tribal law 
enforcement partners and prosecutors. In March 2017, the Department 
held webinars entitled ``An Overview of Restitution in Human 
Trafficking Cases'' and ``Common Obstacles to Obtaining Restitution in 
Human Trafficking Cases.'' Additionally, in November 2017, the U.S. 
Attorneys' Bulletin published an article entitled Mandatory 
Restitution: Complying with the Trafficking Victims Protection Act'' 
and another entitled ``Follow the Money: Financial Crimes and 
Forfeiture in Human Trafficking Prosecutions.''
    In 2018, the Department produced forthcoming web-based on-demand 
training resources accessible to Federal prosecutors nationwide to 
disseminate best practices in enforcing the TVPA's mandatory 
restitution provisions. Also in 2018, the Department created a working 
group to refine strategies for successfully enforcing the TVPA's 
mandatory restitution provision.
            laundering money through real estate investments
    Question 18a. Law enforcement have recently described ongoing 
investigations into foreign buyers who use shell companies to buy 
luxury real estate in America to launder money.
    Can you describe whether this is a growing trend, how it is a 
growing trend, and whether you are concerned about this trend going 
forward?

    Answer.  The pervasive use of front companies, shell companies, 
nominees, or other means to conceal the true beneficial owners of 
assets is one of the greatest loopholes in this country's anti-money 
laundering (AML) regime. We consistently see bad actors using these 
entities to disguise the ownership of dirty money derived from criminal 
conduct.
    The Financial Action Task Force's (FATF's) 2016 review of the 
United States' AML/counter-terrorist financing (CTF) system highlighted 
this issue as one of the most critical gaps in the United States' AML 
regime.The result, FATF said, is that U.S. law enforcement authorities 
``must often resort to resource-intensive and time-consuming 
investigative and surveillance techniques.'' These techniques include 
grand jury subpoenas, witness interviews, or foreign legal assistance 
to unveil the true ownership of shell or front companies associated 
with serious criminal conduct. This process can sometimes take years, 
and, in some cases, law enforcement may never be able to determine the 
owners of illicit proceeds.
    With respect to real estate more specifically, the Department's 
ongoing civil asset forfeiture action to recover more than a billion 
dollars allegedly stolen from the Malaysian sovereign wealth fund, 
1MDB, highlights how bad actors may use shell companies to buy luxury 
properties in an effort to launder and hide their illegal gains. Our 
publicly filed complaints in that matter allege that in 2014, the co-
conspirators misappropriated approximately $850 million in 1MDB funds 
and diverted it to several offshore shell entities. From there, the 
complaints allege, the funds stolen in 2014, in addition to money 
stolen in prior years, were used to purchase, among other things, high-
end properties, as well as a 300-foot luxury yacht valued at over $260 
million, certain movie rights, tens of millions of dollars of jewelry, 
and artwork. See also the response below regarding Geographic Targeting 
Orders.

    Question 18b. What steps do you think law enforcement should take 
to address this growing trend?

    Answer.  The U.S. Department of the Treasury's (Treasury) Financial 
Crimes Enforcement Network (FinCEN) has issued and expanded Geographic 
Targeting Orders (GTOs) in recent years focusing on the real estate 
sector. The Department looks forward to learning more about the 
information gathered by FinCEN, as well as to discussions on whether 
additional steps may be warranted to address the money laundering risks 
emanating from this and other at-risk sectors. In addition, the 
Treasury's Customer Due Diligence Final Rule is a critical tool that 
will make it more difficult for criminals to circumvent the law. The 
Department looks forward to continued discussions with Treasury 
regarding the effects of the CDD Rule since its implementation this 
May.
    Other steps are needed to ensure that criminals cannot hide behind 
nominees, shell corporations, and other legal structures to frustrate 
law enforcement. When law enforcement is able to obtain information on 
the identities of the persons who ultimately own or control these legal 
entities, it can better see the full network of criminal proceeds as 
bad actors try to move money through our financial system. With proper 
law enforcement access to beneficial ownership information, the 
Department could bring more cases, more quickly, with more impact.

    Question 18c. What steps do you think lawmakers should take to 
address this trend?

    Answer.  The Department looks forward to continued discussions with 
its interagency partners, Congress, and industry members regarding 
stronger laws that target individuals who seek to mask the ownership of 
companies, accounts, and sources of funds.
                                 ______
                                 
          Questions Submitted by Senator Christopher A. Coons
    Question 1a. On April 9, 2018, the F.B.I. executed searches of the 
office, residence, and hotel room of Michael Cohen. It has been 
reported that these searches and related investigation are being run 
out of the U.S. Attorney's Office for the Southern District of New 
York. During the hearing you indicated that you would recuse yourself 
from any involvement or oversight of this investigation if you learned 
of any connection to the matters you have already recused yourself 
from, namely any events surrounding the 2016 election.
    Have you consulted with any career ethics officials at the 
Department of Justice to determine if your recusal is warranted in the 
ongoing Southern District of New York investigation into Mr. Cohen? 
Please provide the dates of these discussions.

    Answer. This question calls for the personal knowledge of and is 
specifically directed to former Attorney General Jeff Sessions. As 
such, it would be inappropriate for the Department to respond to this 
question at this time.

    Question 1b. Since the hearing, have you discovered any connection 
between the investigation into Mr. Cohen and Special Counsel Mueller's 
investigation that would cause you to recuse yourself?

    Answer. Please see my response to Question 1a.

    Question 2a. In your letter to President Trump dated May 9, 2017, 
recommending the firing of FBI Director Comey, you stated, ``It is 
essential that this Department of Justice clearly reaffirms its 
commitment to longstanding principles that ensure the integrity and 
fairness of Federal investigations and prosecutions.''
    Do you agree with me that it would run counter to longstanding 
Department of Justice practices that ensure integrity and fairness of 
ongoing criminal investigations to discuss any aspect of an ongoing 
criminal investigation with anyone outside of the Department?

    Answer. The Department's long-standing policy is to keep 
confidential all aspects of an ongoing investigation. Consistent with 
this well-established policy, the Department's longstanding practice is 
to decline to respond to all inquiries made during the pendency of a 
matter, as to disclose non-public information relating to an ongoing 
investigation would pose an inherent threat to the integrity of the 
Department's law enforcement and litigation functions.

    Question 2b. Since the hearing, have you discussed the ongoing 
investigation into Mr. Cohen with the President or anyone outside of 
the Department of Justice?

    Answer. This question calls for the personal knowledge of and is 
specifically directed to former Attorney General Jeff Sessions. As 
such, it would be inappropriate for the Department to respond to this 
question at this time.

    Question 2c. Since the hearing, has the President or anyone in the 
administration discussed with you the possibility of President Trump 
pardoning Mr. Cohen?

    Answer. Please see my response to Question 2b.

    Question 2d. If you elect to not answer any of the questions above, 
as you did during the hearing, please cite the specific justification 
you are relying upon for your decision to not answer.

    Answer. Please see my response to Question 2b.

    Question 3a. The Violence Reduction Network (VRN) proved to be an 
effective program for cities like Wilmington, Delaware to address 
violent crime and to connect local police with cutting-edge law-
enforcement resources. For example, the clearance rates on homicides in 
Wilmington jumped to the 50-54 percent range, from a 20 percent 
clearance rate prior to VRN.
    Moving forward, what is the Department going to do for cities, like 
Wilmington, that made progress combatting violent crime with the help 
of the Federal Government now that its participation in the VRN program 
has ended?

    Answer. The Department is continuing to provide training and 
technical assistance through the National Public Safety Partnership 
(PSP), administered by the Bureau of Justice Assistance (BJA). Twelve 
PSP sites were announced in June 2017, and the Department announced 
five PSP sites in August 2018.
    Both the former VRN and current PSP engagements are time-limited. 
This is partially because both programs' goal is to develop locally 
based resources and create a sustainable and enduring capacity to 
combat violent crime at the local level. Nevertheless, the Department 
has many additional resources to offer jurisdictions in need of 
continuing support. For example, the Department offers a broad array of 
training, technical assistance, and grant programs to support State, 
local, and Tribal partners. BJA's National Training and Technical 
Assistance Center provides no-cost training and technical assistance on 
a wide- variety of criminal justice topics for criminal justice 
practitioners, agencies, elected officials, community organizations, 
and citizen advocates.
    The BJA also provides training and technical assistance to eligible 
law enforcement agencies through the National Resource and Technical 
Assistance Center for Improving Law Enforcement Investigations on a 
wide range of topics that are directly related to improving 
investigatory practices. Through the Collaborative Reform Initiative 
for Technical Assistance, the Office of Community Oriented Policing 
Services provides tailored technical assistance and resources to State, 
local, Territorial, and Tribal law enforcement. This Initiative is 
conducted in collaboration with national law enforcement membership 
associations and facilitates State and local law enforcement trainings 
lead by experts in a range of public safety, crime reduction, and 
community policing topics.
    Additionally, the Department has reinvigorated and recommitted to 
the Project Safe Neighborhoods (PSN) program, a nationwide violent 
crime reduction program that uses evidence-based practices, targeted 
enforcement, and community-based prevention programs to reduce violent 
crime alongside State, local, and Tribal law enforcement and the 
communities we serve.
    Project Safe Neighborhoods (PSN) was originally created in 2001. 
Within the first 5 years of PSN's implementation, violent crime was 
reduced overall by 4.1 percent, with reductions of up to 40 percent in 
certain areas. PSN is effective because it is an evidence-based program 
that strategically deploys resources consistent with the specific 
problems and needs of individual communities. One year into the 
commencement of PSN's reinvigoration and its success has already began. 
Public data from 60 major cities show that violent crime decreased by 
nearly 5 percent in those cities in the first 6 months of 2018 compared 
to the same period 1 year earlier. The Department is confident that the 
funding provided to PSN will directly lead further decreases in violent 
crime and ultimately increase the safety of Americans.

    Question 3b. Can you commit to keeping critical staffing and 
resources in place in cities like Wilmington to ensure any recent 
improvements in metrics are preserved?

    Answer. Reducing violent crime has been one of the top priorities 
of the Department. In support of this priority, the Department has 
redirected resources toward programs and positions that will strengthen 
our efforts to improve the safety of communities across the country. 
For example, the Department has expanded the Organized Crime and Drug 
Enforcement Task Forces (OCDETF) Program to support local gang 
investigations aimed at identifying connections between local gangs and 
drug trafficking organizations at the national-level. The Department 
has also prioritized the investigation and prosecution of the violent 
criminal members of MS-13 by designating MS-13 as a ``priority 
organization'' for its OCDETF Task Forces and by spearheading increased 
international coordination between domestic law enforcement and its 
partners in El Salvador, Honduras, and Guatemala. This prioritization 
and coordination has resulted in the arrest of thousands of MS-13 
members and their affiliates.
    The Department has also greatly increased the number of Federal 
prosecutors directed to focus on violent crime. In May 2018, the 
Department announced the creation of 311 new Assistant United States 
Attorney (AUSA) positions, the largest addition of Federal prosecutor 
positions in decades. Of these new positions, 190 AUSAs across the 
country will focus on violent crimes. This announcement follows the 
creation of 40 additional AUSA positions in 27 locations across the 
country in December 2017. All 40 of these previously created positions 
are directed to focus on violent crime.
    In addition to expanding the Department's own programs and 
staffing, the Department continues to provide critical resource support 
to State, local, and Tribal law enforcement partners. In fiscal year 
2017, the Department awarded over $207 million in grants to support 
State, local, and Tribal law enforcement, and violent crime reduction 
efforts across the country. These grants provided funding to hire 
additional officers, promote community policing, create additional 
Crime Gun Intelligence Centers, enhance law enforcement technology and 
information sharing, reduce the backlogs of DNA evidence in crime labs, 
and provide needed training and technical assistance. These measures 
will help ensure that every district, including the District of 
Delaware, has access to the resources, technology, and training they 
need to be successful.
    The Department's National Institute of Justice (NIJ) is funding 
research to continue development and improvement of violence reduction 
strategies at the State and local levels. This includes research and 
evaluation of strategies to reduce street gangs and gang violence, gun 
violence, and persistent violence in communities.

    Question 4a. Last month, there were several news reports that Ezra 
Cohen-Watnick, who formerly worked at the White House National Security 
Council, was hired at the Department of Justice to serve as your 
national security adviser.
    Was Mr. Cohen-Watnick hired to serve as your national security 
advisor?

    Answer. Mr. Cohen-Watnick is not a current employee of the 
Department of Justice.

    Questions 4b. Given Mr. Cohen-Watnick's prior involvement with 
matters involving Congressman Nunes, has Mr. Cohen-Watnick recused 
himself, like you have, from any involvement in the ongoing Special 
Counsel's investigation?

    Answer. Mr. Cohen-Watnick is not a current employee of the 
Department of Justice.

    Question 4c. Has Mr. Cohen-Watnick consulted with any career ethics 
officials at the Department of Justice to determine if his recusal is 
warranted? Please provide the dates of these discussions.

    Answer. Mr. Cohen-Watnick is not a current employee of the 
Department of Justice.

    Question 5a. Former F.B.I. Director Comey has testified that, on 
several occasions, President Trump went outside traditional Department 
of Justice policies and channels to directly ask the director about 
ongoing F.B.I. investigations.
    What have you done to ensure that the President and other White 
House officials use established channels and do not take actions that 
may violate existing policies and/or seek to influence ongoing 
investigations?

    Answer. While the Department cannot speak to the specific event 
referenced in your question as it calls for the personal knowledge of 
former Attorney General Jeff Sessions, the Department of Justice is 
governed by procedures that place limits on the communications between 
the White House and the Department concerning ongoing investigations, 
criminal prosecutions, and civil litigation. The Department is 
committed to ensuring the integrity of its investigations, 
prosecutions, and litigation and strives to prevent undue political 
influence or the appearance thereof from compromising its core 
functions.
                                 ______
                                 
            Questions Submitted by Senator Chris Van Hollen
         repeal or modification of special counsel regulations
    Question 1a. What is the Department of Justice's position on 
whether the Administrative Procedure Act's rulemaking requirements for 
public notice and comment apply to the regulations governing the 
special counsel--28 CFR part 600?

    Answer.  When the current regulations in Part 600 of 28 C.F.R. were 
promulgated as a final rule, they were not subjected to notice-and-
comment rulemaking. The Department identified several reasons why the 
usual requirements of the Administrative Procedure Act (APA) for prior 
notice and public comment were inapplicable. See 64 Fed. Reg. 37,038, 
37,041 (July 9, 1999).

    Question 1b. Do you have the authority to repeal or modify the 
special counsel regulations unilaterally?

    Answer.  The current regulations were promulgated by the Attorney 
General as an exercise of his authority to, among other things 
``prescribe regulations for the government of his department, the 
conduct of its employees, [and] the distribution and performance of its 
duties.'' 5 U.S.C. Sec. 301; see also 28 U.S.C. Sec. 509 (vesting in 
the Attorney General nearly all functions of officers, employees, and 
agencies of the Department of Justice); 28 U.S.C. Sec. 510 (authorizing 
the Attorney General to ``make such provisions as he considers 
appropriate authorizing the performance by any other officer, employee, 
or agency of the Department of Justice of any function of the Attorney 
General''). Consistent with the above listed statutory authority and 
the APA, the special counsel regulations may be repealed or amended by 
the Attorney General.

    Question 1c. Does your recusal from ``campaign-related matters'' 
prohibit you from repealing or modifying the special counsel 
regulations?

    Answer.  This question calls for the personal knowledge of and is 
specifically directed to former Attorney General Jeff Sessions. As 
such, it would be inappropriate for the Department to respond to this 
question at this time.

    Question 1d. Does the president have the authority to repeal or 
modify the special counsel regulations unilaterally?

    Answer.  Please see my response to Question 1b.

    Question 1e. Could you, or another administration official, 
unilaterally repeal or modify the provision stipulating that the 
Attorney General may only remove a special counsel for ``misconduct, 
dereliction of duty, incapacity, conflict of interest, or for other 
good cause, including violation of Departmental policies''?

    Answer.  Please see my response to Question 1b.

    Question 1f. Could you, or another administration official, 
unilaterally change who has the authority to remove the special 
counsel?

    Answer.  Please see my response to Question 1b.

                          SUBCOMMITTEE RECESS

    The subcommittee now stands adjourned.
    [Whereupon, at 4:48 p.m., Wednesday, April 25, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
